<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2009 WAR SUPPLEMENTAL REQUEST</title>
<body><pre>[Senate Hearing 111-93]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 111-93
 
       THE PRESIDENT'S FISCAL YEAR 2009 WAR SUPPLEMENTAL REQUEST

=======================================================================

                                HEARING

                               before the

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                     APRIL 30, 2009--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations




  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
49-407                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Daniel K. Inouye....................     1
Statement of Senator Thad Cochran................................     2
Prepared Statement of Senator Robert C. Byrd.....................     3
Statement of Hon. Hillary Rodham Clinton, Secretary of State, 
  Department of State............................................     4
    Prepared Statement...........................................     7
Statement of Hon. Robert M. Gates, Secretary of Defense, 
  Department of Defense..........................................     9
    Prepared Statement...........................................    12
Guantanamo Funding...............................................    13
Surge of Civilian Experts........................................    14
Flu Funding......................................................    16
Guantanamo--Military Commissions.................................    18
Shutting Down C-17 Line..........................................    22
Motivating Pakistan..............................................    24
Public/Private Partnership for Civilian Help.....................    26
Overseeing Contractors...........................................    28
How Many F-22s are Needed?.......................................    29
More Troops for Afghanistan......................................    30
Situation in Iraq................................................    30
Support for the Strategy in Afghanistan..........................    32
Help From Europeans..............................................    35
Benchmarks for Afghanistan.......................................    35
Greater Accountability on Pakistan...............................    37
Long-range Strategy for Afghanistan..............................    39
Relocating Detainees.............................................    41
Options for Dealing With Iran....................................    44
Additional Committee Questions...................................    45
Questions Submitted to Hillary Rodham Clinton....................    45
Questions Submitted by Senator Robert C. Byrd....................    45
Questions Submitted by Senator Patrick J. Leahy..................    46
Question Submitted by Senator Barbara A. Mikulski................    49
Questions Submitted by Senator Herb Kohl.........................    50
Question Submitted by Senator Richard J. Durbin..................    52
Questions Submitted by Senator Tim Johnson.......................    52
Questions Submitted by Senator Frank R. Lautenberg...............    53
Questions Submitted by Senator Robert F. Bennett.................    55
Questions Submitted by Senator Sam Brownback.....................    58
Questions Submitted by Senator George Voinovich..................    62
Special Envoy to Combat Anti-Semitism............................    63
Questions Submitted to Hon. Robert M. Gates......................    63
Questions Submitted by Senator Robert C. Byrd....................    63
Questions Submitted by Senator Patrick J. Leahy..................    65
Armored Vehicles.................................................    65
Use of National Guard to Counter Drugs From Mexico...............    65
Question Submitted by Senator Herb Kohl..........................    65
Questions Submitted by Senator Tim Johnson.......................    66
H1N1 Flu.........................................................    66
Military Construction in Afghanistan.............................    68
Guantanamo.......................................................    74
AFRICOM..........................................................    75
Question Submitted by Senator Jack Reed..........................    75
Department of Defense Experimental Program to Stimulate 
  Competitive Research...........................................    75
Questions Submitted by Senator Frank R. Lautenberg...............    76
Questions Submitted by Senator Robert F. Bennett.................    77
F-22.............................................................    77
Pakistan.........................................................    77
Guantanamo Bay...................................................    77
National Nuclear Security Administration.........................    78
Missile Defense..................................................    78
Questions Submitted by Senator Sam Brownback.....................    79
Detainees........................................................    79
Aid to Lebanon...................................................    79
Questions Submitted by Senator George V. Voinovich...............    80
Budget Process and Supplemental Spending.........................    80
Foreign Military Financing and Defense Trade Cooperation.........    80
DOD Funding for Counternarcotics/Southwest Border Activities.....    80


       THE PRESIDENT'S FISCAL YEAR 2009 WAR SUPPLEMENTAL REQUEST

                              ----------                              


                        THURSDAY, APRIL 30, 2009

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The committee met at 10:02 a.m., in room SD-106, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Mikulski, Kohl, Murray, 
Dorgan, Feinstein, Johnson, Landrieu, Reed, Lautenberg, Nelson, 
Pryor, Tester, Specter, Cochran, Bond, McConnell, Shelby, 
Gregg, Bennett, Brownback, Alexander, Collins, Voinovich, and 
Murkowski.


             opening statement of senator daniel k. inouye


    Chairman Inouye. The committee will come to order. This 
morning, the committee meets to review the supplemental 
appropriations request for fiscal year 2009. The request by the 
administration totals $83.4 billion, of which approximately 95 
percent is to support military and related security efforts in 
Iraq, Afghanistan, and Pakistan.
    An additional 4 percent is requested for other security 
initiatives, with the remaining 1 percent related to other 
issues, such as wildlife protection and improved communication 
equipment for the Capitol Police.
    To discuss the majority of the funding requests, the 
committee is pleased to receive testimony from the 
distinguished Secretaries of State and Defense, the Honorable 
Hillary Clinton and the Honorable Robert Gates. It is good to 
see both of you.
    The members of the committee know each of you very well. We 
hold you both in great esteem and are familiar with and 
appreciate your candor. We look forward to your responses to 
the many questions, which I'm certain we will have.
    As we review the request, I want to note first that I'm 
pleased that the President has indicated that this will be the 
last increment of funding for the wars in Iraq and Afghanistan 
that will be requested outside of the regular appropriations 
process.
    While we recognize that no one can predict what other new 
requirements might emerge which would require the 
administration or Congress to seek additional funding, it is 
clearly a positive step that beginning in fiscal year 2010, we 
can expect to see the cost of these ongoing efforts will be 
contained in the regular budget.
    I believe it is also a positive step that the request for 
this last increment is not listed as an emergency. For several 
years, led by Chairman Byrd, this committee has urged the 
administration to get rid of that gimmick, declaring war 
supplementals as emergencies. We very much appreciate the 
willingness of the new administration to put these costs on 
budget.
    In general, it is my belief that the Senate is likely to be 
supportive of this request. Funding contained in the proposal 
will provide very necessary funds to support our troops in 
harm's way, and almost as critical, provide funding to assist 
our allies and support the Governments of Iraq, Afghanistan, 
and Pakistan.
    There are several areas, however, which I believe the 
committee will need additional clarification or justification 
before it can recommend funding. For example, many of my 
colleagues are concerned for the precise plan involved in the 
closure of the prison at Guantanamo.
    We wonder about the potential plan to station our war-weary 
National Guard troops on the Southwest border, and we question 
the appropriateness of providing foreign assistance for 
Pakistan under the jurisdiction of the Department of Defense. 
So, too, will we be seeking assurances that the administration 
is not attempting to provide any assistance to Hamas.
    Hopefully, these issues will be among those addressed 
either in your statements or in the questions which will 
follow. I would note to my colleagues that I recognize that 
there are many issues which you want to address, and remind you 
that today's hearing is on the 2009 supplemental request and 
not on the 2010 budget request, which we will be receiving next 
week. So I would urge my colleagues to refrain from trying to 
discuss items in the 2010 request.
    We will be inviting both Secretaries back before the 
committee at later dates to discuss the 2010 budget. I thank 
both of you for appearing today. Without objection, your full 
statements will be made a part of the record. At this point, I 
would like to yield to the vice chairman of this committee, the 
Honorable Thad Cochran, for any opening remarks he may wish to 
make.


                   STATEMENT OF SENATOR THAD COCHRAN


    Senator Cochran. Mr. Chairman, thank you very much. I'm 
pleased to join you in welcoming our distinguished witnesses, 
Secretary Clinton and Secretary Gates, to our committee today 
as we consider the request for supplemental appropriations. 
These are national security issues of great import, and we are 
going to carefully review the request to be sure that we 
provide the resources needed to deal with these critical 
international challenges.
    We're at a critical juncture for the future security of our 
country as we begin to draw down forces in Iraq and shift our 
focus to dismantling Al Qaeda and extremist networks in 
Afghanistan and Pakistan.
    The security environment in both Iraq and Afghanistan 
remain tenuous. In Iraq, we need to watch for signs the 
security situation does not degrade as our forces withdraw. I'm 
pleased to see the greater emphasis that the administration has 
placed on eliminating terrorist safe havens in Pakistan's 
federally administered tribal areas using greater cooperation 
and counterinsurgency training of Pakistani security forces.
    In considering the administration's request for overseas 
contingency operations, we must be mindful of our duty to 
provide our servicemembers and diplomatic officers with the 
resources needed to conduct their missions successfully. 
They're asked to do much in support of our national security, 
and we must provide them the resources necessary to accomplish 
their missions.
    We look forward to the testimony today and your estimates, 
if you can provide us that, of when the Department will need 
these additional funds. Thank you.
    Chairman Inouye. Thank you very much, Mr. Vice Chairman.


              PREPARED STATEMENT OF SENATOR ROBERT C. BYRD


    Before you proceed, the committee has received a statement 
from Senator Byrd that I will insert into the record at this 
point.
    [The statement follows:]

               Prepared Statement Senator Robert C. Byrd

    Thank you, Chairman Inouye, for holding this hearing. Thank you, 
Secretary Clinton and Secretary Gates, for coming today to discuss with 
the Committee the details regarding your supplemental request. The 
ongoing costs of the operations in Iraq and Afghanistan, and elsewhere 
around the world, are important--not only for the goals that we aim to 
achieve in these volatile spots, but also for the nation and our 
economy here at home. It is even more important during these difficult 
economic times that funding requests be justified and clearly 
contribute to the national security of the United States.
    I was pleased to learn that the fiscal year 2010 Department of 
Defense and Department of State budget requests are expected to include 
funding for operations in Iraq and Afghanistan. As the co-author of the 
Byrd-McCain Amendment to the fiscal year 2005 Emergency Supplemental 
Appropriations Act, which required regular budgeting for military 
operations in Iraq and Afghanistan, I will be glad to see this.
    Like many Americans, I have grown increasingly concerned about the 
situation in Pakistan, which bears so heavily on the prospects for 
success in Afghanistan. I note that the supplemental request includes 
funding for assistance to Pakistan, and for increased diplomatic 
operations in Pakistan. I have also noted the increase in funding 
requested for additional diplomatic and civilian personnel in 
Afghanistan, to supplement the growth in the American military presence 
there. I will be watching their activities carefully. Recent press 
reports that many of these civilian positions might be filled by 
military reservists is something I find worrisome. Our military 
reserves have been stretched to the limit; to call them into a war zone 
because of their civilian background, rather than their military 
training, may cause fewer people to consider serving in the reserves. 
Surely, in this economic climate, many people with the right kinds of 
skills would be willing to consider work in Afghanistan. The bottom 
line, however, is that the systemic problems in both Afghanistan and 
Pakistan cannot be solved simply by more activity, and more money. It 
must be smart activity, targeted and focused on achievable goals that 
fit within an overarching strategy that is not yet, I fear, clearly 
defined.
    As the U.S. presence and activities in Afghanistan increase, and 
our troops redeploy from Iraq, I also expect to see that some of the 
lessons learned in Iraq transfer to Afghanistan. Much has been learned 
about force protection in Iraq that might usefully be applied in 
Afghanistan. Over the last few months, I have worked with the 
Department of Defense to correct deficiencies in emergency medical 
evacuation and forward surgical capabilities to treat wounded service 
men and women in Afghanistan. I thank you, Secretary Gates, for your 
personal attention to this matter. I will be carefully monitoring the 
changes you have implemented that will, I hope, greatly reduce the 
amount of time expended before wounded soldiers receive critical 
medical care.
    I remain concerned, however, about the ground medical evacuation 
vehicle capability in both Iraq and Afghanistan. I understand that a 
majority of the ground evacuation vehicles in use were designed around 
1960. Given the new realities of operating in an IED environment, this 
unnecessarily puts our wounded and our medical specialists in harm's 
way. Medical corpsmen responding to a roadside IED attack should be at 
least as well protected as other soldiers. I understand that 
consideration is being given to purchasing upgraded ground evacuation 
vehicles. In fact, the Army had requested 323 such vehicles in the 
draft supplemental request, but that funding was not included in the 
request that was sent to Congress. I look forward to seeing that 
funding included in the fiscal year 2010 budget request.
    I also urge both Secretary Clinton and Secretary Gates to remain 
vigilant against corruption and contract fraud in Iraq and Afghanistan. 
Last year, the Committee held a series of hearings examining corruption 
and contract fraud that is wasting taxpayer dollars and, even worse, 
might be financing the activities of our adversaries. I expressed 
concern then that inadequate resources were being put against this 
issue, and I challenged the Departments of State, Defense, and Justice 
to increase their investigative and capacity-building capabilities to 
address these extremely critical problems. I look forward to hearing 
from each of you what has been done to step up efforts to identify, 
investigate, and prosecute individuals involved in fraudulent and 
corrupt activities in Iraq and Afghanistan.
    In addition to Iraq and Afghanistan, and the many other concerns 
before you, a new problem has emerged to challenge both the Department 
of Defense and the Department of State. That new, or reemerging, 
problem is that of piracy. The recent seizure of an American-crewed 
freighter by pirates off the coast of Africa raises new challenges for 
both of you. New or expanded international efforts must be undertaken 
to protect commerce and our citizens on the high seas, and new rules of 
engagement must be developed to address the activities of the pirates. 
The United States cannot, and should not, act alone in most instances, 
but our activities will require careful coordination with the other 
nations that have ships on patrol in those waters. Somalia, home to 
many of these pirates, is a lawless place with weak government control. 
I have doubts that the conditions in Somalia will allow the government 
there to effectively address the problem of piracy, and I would 
strongly caution those who think that we can do it for them. I know 
that you will both be struggling with this issue, as will the Congress. 
I suggest that the Administration work closely with Congress in 
addressing this challenge.

    Chairman Inouye. It is now my pleasure and great honor to 
introduce the Secretary of State.

STATEMENT OF HON. HILLARY RODHAM CLINTON, SECRETARY OF 
            STATE, DEPARTMENT OF STATE
    Secretary Clinton. Thank you very much. Thank you, Mr. 
Chairman, Senator Cochran, members of the committee, former 
colleagues, and friends. I thank you for this opportunity to 
appear before you, and I also thank you for your stalwart 
support of the men and women of the State Department and the 
United States Agency for International Development (USAID), who 
serve in critical and often dangerous missions in all corners 
of the world.
    I'm honored to be here with Secretary Gates. I appreciate 
the partnership that we have developed in the first 100 days of 
this administration. And today, on day 101, I look forward to 
our further collaboration in the months ahead.
    Before turning to the topic of today's hearing, let me just 
give you a brief update on how the State Department is 
supporting the Federal Government's response to the H1N1 flu 
virus.
    We have established an influenza monitoring group within 
our operations center. We are tracking how other governments 
are responding to the threat and what assistance we might 
offer. We are constantly reviewing and refining our advice to 
Americans traveling or living abroad.
    Our pandemic influenza unit set up in the last years is 
providing valuable expertise. Its director, Ambassador Robert 
Loftis, is keeping us apprised of their work and their 
interaction with health agencies and the World Health 
Organization (WHO).
    Earlier this week, USAID announced it is giving $5 million 
to the World Health Organization and the Pan America Health 
Organization to help detect and contain the disease in Mexico.
    We will continue to coordinate closely with the Department 
of Health and Human Services (HHS), Department of Homeland 
Security (DHS), the WHO, the Centers for Disease Control and 
Prevention (CDC), and other agencies, and I'm very cognizant of 
the role that we all must play in attempting to stem and 
contain this influenza outbreak.
    Secretary Gates and I are here together because our 
departments' missions are aligned and our plans are integrated. 
The foreign policy of the United States is built on the three 
Ds: defense, diplomacy, and development.
    The men and women in our armed forces perform their duties 
with courage and skill, putting their lives on the line time 
and time again on behalf of our Nation. In many regions, they 
serve alongside civilians from the State Department and USAID, 
as well as other Government agencies, like the United States 
Department of Agriculture (USDA).
    We work with the military in two crucial ways. First, 
civilians complement and build upon our military's efforts in 
conflict areas like Iraq and Afghanistan. Second, they use 
diplomatic and development tools to build more stable and 
peaceful societies, hopefully to avert or end conflict. That is 
far less costly in lives and dollars than military action.
    As you know, the United States is facing serious challenges 
around the world. Two wars, political uncertainty in the Middle 
East, irresponsible nations led by Iran and North Korea with 
nuclear ambitions, an economic crisis that is pushing more 
people into poverty, and 21st century threats, such as 
terrorism, climate change, trafficking in drugs and human 
beings. These challenges require new forms of outreach and 
cooperation within our own Government and then with others as 
well.
    To achieve this, we have launched a new diplomacy powered 
by partnership, pragmatism, and principle. We are strengthening 
historic alliances and reaching out to create new ones, and 
we're bringing governments, the private sector, and civil 
society together to find global solutions to global problems.
    The 2009 supplemental budget request for the Department of 
State and the U.S. Agency for International Development is a 
significant sum, yet our investment in diplomacy and 
development is only about 6 percent of our total national 
security budget.
    For Secretary Gates and myself, it is critically important 
that we give our civilian workers, as well as our military, the 
resources they need to do their jobs well.
    In Iraq, as we prepare to withdraw our troops, our mission 
is changing, but it is no less urgent. We must reinforce 
security gains while supporting the Iraqi Government and people 
as they strengthen public institutions and promote job creation 
and assist those Iraqis who have fled because of violence and 
want to return home.
    Last weekend, I visited Iraq, meeting on the ground our new 
Ambassador who was confirmed the night before. We visited the 
leadership. We visited with a cross-section of Iraqis in a town 
hall setting, and clearly, there are signs of progress, but 
there is much work that remains.
    In meeting with Iraqis who are working with our provincial 
reconstruction teams and our Embassy, I was struck by the 
courage and determination to reconstruct their country, not 
just physically, but really through the reweaving of their 
society.
    We have requested $482 million in the supplemental for our 
civilian efforts to help Iraq move forward--we want to create a 
future of stability, sovereignty, and self-reliance--and 
another $108 million to assist Iraqi refugees.
    In Afghanistan, as you know, the President has ordered 
additional troops. Our mission is very clear: to disrupt, 
dismantle, and destroy Al Qaeda. But bringing stability to that 
region is not only a military mission. It requires more than a 
military response.
    So we have requested $980 million in assistance to focus on 
rebuilding the agricultural sector, having more political 
progress, helping the local and provincial leadership deliver 
services for their people.
    As President Obama has consistently maintained, success in 
Afghanistan depends on success in Pakistan, and we have seen 
how difficult it is for the government there to make progress, 
as the Taliban and their allies continue to make inroads. 
Counterinsurgency training is critical, but of equal importance 
are diplomacy and development, to work with the Pakistani 
Government, Pakistani civil society, to try to provide more 
economic stability and diminish the conditions that feed 
extremism.
    That is the intent of the comprehensive strategy laid out 
by Senator Kerry and Senator Lugar, which President Obama and I 
have endorsed and which the Senate will be considering in the 
next few days.
    With this supplemental request, we are seeking funding of 
$497 million in assistance for our work in Pakistan, which will 
support the government's efforts to stabilize the economy, 
strengthen law enforcement, alleviate poverty, and help 
displaced citizens find safe shelter. It will also enable us to 
begin to keep the pledge we made to Pakistan at the Tokyo 
Donors Conference earlier this month.
    In addition to our work in Iraq, Afghanistan, and Pakistan, 
we are committed to helping achieve a comprehensive peace 
between Israel and its Arab neighbors and to address the 
humanitarian needs in Gaza and the West Bank.
    At Sharm el-Sheikh last month on behalf of the President, I 
announced a pledge of $900 million for humanitarian, economic, 
and security assistance for the Palestinian authority and the 
Palestinian people. Our supplemental request is included in 
that pledge; it is not in addition to it. And it will be 
implemented with stringent requirements to prevent aid from 
being diverted into the wrong hands.
    Meanwhile, the current economic crisis has put millions of 
people in danger of falling further into poverty, and we have 
seen again and again that this can destabilize countries as 
well as sparking humanitarian crises. So we have requested $448 
million to assist developing countries hardest hit by the 
global financial crisis.
    These efforts will be complemented by investments in the 
supplemental budget for emergency food aid, to counter the 
destructive effects on the global food crises; to try to help 
people who are undernourished; to succeed in school; 
participate in their societies. I'm very pleased that the 
President has asked the State Department and USAID to lead a 
Government-wide effort to address the challenge of food 
security.
    We must also lead by example when it comes to shared 
responsibility. So we have included in this request $837 
million for United Nations (U.N.) peacekeeping operations, 
which includes funds to cover assessments previously withheld.
    I was recently in Haiti, where the U.N. Peacekeeping Force 
led by the Brazilians has done an extraordinary job in bringing 
security and stability to Haiti. It is still fragile, but 
enormous progress has been made. It is a good investment for us 
to pay 25 percent of that kind of stability operation instead 
of being asked to assume it for 100 percent of the cost.
    We're asking also for small investments targeted to 
specific concerns: international peacekeeping operations and 
stabilization in Africa; humanitarian needs in Burma; the 
dismantlement of North Korea's nuclear programs, assuming that 
they come back to the Six-Party Talks; assistance for Georgia 
that the prior administration promised and we believe we should 
fulfill; support for the Lebanese Government, which is facing 
serious challenges; and funding for critical air mobility 
support in Mexico as part of the Merida Initiative.
    Finally, if the State Department is to pursue an ambitious 
foreign policy agenda that safeguards our security and advances 
our interests and really exemplifies our values, we have to 
have a more agile, effective State Department and USAID. We 
have to staff those departments well. We have to provide the 
resources that are needed. We have to hold ourselves 
accountable. Our supplemental includes $747 million to support 
State and USAID mission operations around the world.
    Secretary Gates and I are also looking at how our 
departments can collaborate even more effectively. That 
includes identifying pieces of our shared mission that are now 
housed at Defense that should move to State.
    With the budget support we've outlined in the supplemental 
request, we can do the work that this moment demands of us in 
regions whose future stability will impact our own.
    Secretary Gates and I are committed to working closely 
together in an almost unprecedented way to sort out what the 
individual responsibilities and missions of Defense and State 
and USAID should be, but committed to the overall goal of 
promoting stability and long-term progress, which we believe is 
in the interest of the United States, and which we are prepared 
to address and take on the challenges and seize the 
opportunities that confront us at this moment in history. Thank 
you, Mr. Chairman.
    Chairman Inouye. Thank you very much, Madam Secretary. [The 
statement follows:]

              Prepared Statement of Hillary Rodham Clinton

    Mr. Chairman, Senator Cochran, and members of the Committee, thank 
you for this opportunity. On behalf of President Obama and the entire 
Administration, thank you for your support of the men and women of the 
State Department and USAID, who serve in critical and often dangerous 
missions in all corners of the world.
    I am honored to be here with Secretary Gates. I appreciate the 
partnership we have developed in the first 100 days of this 
Administration--and today, on Day 101, I look forward to further 
collaboration in the months ahead.
    Before turning to the topic of today's hearing, let me give an 
update on how the State Department is supporting the federal 
government's response to the H1N1 flu virus.
    We have established a monitoring group within our Operations 
Center, which is tracking how other governments are responding to the 
threat and what assistance we might offer. We are constantly reviewing 
and refining our advice to Americans traveling or living abroad. And 
our pandemic influenza unit is providing valuable expertise. Its 
director, Ambassador Robert Loftis, is keeping me apprised of their 
work.
    Earlier this week, USAID announced that it is giving $5 million to 
the World Health Organization and the Pan America Health Organization 
to help detect and contain the disease in Mexico.
    We will continue to coordinate with the Departments of Health and 
Human Services and Homeland Security, the WHO, and other agencies. The 
resources and expertise of the State Department are being fully 
mobilized for this vital effort.
    Secretary Gates and I are here together because our departments' 
missions are aligned and our plans are integrated. The foreign policy 
of the United States is built on the three Ds: defense, diplomacy and 
development. The men and women in the armed forces perform their duties 
with courage and skill, often putting their lives on the line to keep 
our nation safe. And in many regions, they serve alongside civilians 
from the State Department and USAID who work with the military in two 
crucial ways. First, they complement and build upon our military's 
efforts in conflict areas like Iraq and Afghanistan. And second, they 
use diplomatic and development tools to build stable and peaceful 
societies--work that is far less costly in lives and dollars than 
military action down the road.
    As you know, the United States is facing serious challenges around 
the world: two wars, political uncertainty in the Middle East, 
irresponsible nations with nuclear ambitions, an economic crisis that 
is pushing more people into poverty, and 21st century threats such as 
terrorism, climate change, and trafficking in drugs and human beings--
all of which require new forms of outreach and cooperation.
    To achieve this, we have launched a new diplomacy powered by 
partnership, pragmatism and principle. We are strengthening historic 
alliances and reaching out to create new ones. And we are bringing 
governments, the private sector and civil society together to find 
global solutions to global problems.
    The 2009 supplemental budget request for the Department of State 
and the U.S. Agency for International Development is a significant 
sum--yet our investment in diplomacy and development is only about 6 
percent of our total national security budget. For Secretary Gates and 
me, it is critically important that we give our civilian workers, as 
well as our military, the resources they need to do their jobs well.
    In Iraq, as we prepare to withdraw our troops, our mission is 
changing--but it is no less urgent. We must reinforce security gains 
while supporting the Iraqi government and people as they strengthen 
public institutions, promote economic growth and job creation, and 
assist Iraqis who fled their communities because of violence and want 
to return home.
    Last weekend, I visited Iraq. Despite recent acts of violence in 
Baghdad and elsewhere, there are clear signs of progress. But there is 
much work that remains. I met with Iraqis who are working with our 
Provincial Reconstruction Teams and our Embassy, and I was struck by 
their courage and determination to reconstruct their country--not just 
physically, but also by re-weaving the fabric of their society.
    We have requested $482 million in the supplemental budget for our 
civilian efforts to help Iraq move toward a future of stability, 
sovereignty and self-reliance, and another $108 million to assist Iraqi 
refugees.
    In Afghanistan, additional troops are being deployed to disrupt, 
dismantle and destroy al Qaeda. But bringing stability to that region 
is not only a military mission, and it requires more than a military 
response. We have requested $980 million in assistance to help the 
Afghans move toward sustained economic and political progress.
    As President Obama has consistently maintained, success in 
Afghanistan depends on success in Pakistan. We have seen how difficult 
it is for the government there to make progress, and the Taliban 
continues to make inroads.
    Counterinsurgency training is critical. But of equal importance are 
diplomacy and development to provide economic stability and diminish 
the conditions that feed extremism. This is the intent of the 
comprehensive strategy laid out by Senator Kerry and Senator Lugar, 
which President Obama has endorsed and which the Senate will be 
considering in the coming days. With this supplemental request, we are 
seeking funding of $497 million in assistance for our work in Pakistan, 
which will support the government's efforts to stabilize the economy, 
strengthen law enforcement, alleviate poverty, and help displaced 
citizens find safe shelter. It will also allow us to begin to keep the 
pledge we made to Pakistan at the Tokyo Donors Conference earlier this 
month.
    In addition to our work in Iraq, Afghanistan and Pakistan, we are 
committed to help achieve a comprehensive peace between Israel and its 
Arab neighbors and to address the humanitarian needs in Gaza and the 
West Bank. At Sharm el-Sheikh last month, I announced a pledge of $900 
million for humanitarian, economic, and security assistance for the 
Palestinian Authority and the Palestinian people. Our supplemental 
request of $840 million is included in that pledge; it is not in 
addition to it. And it will be implemented with stringent requirements 
to prevent aid from being diverted to the wrong hands.
    Meanwhile, the current economic crisis has put millions of people 
in danger of falling further into poverty. We have seen how poverty can 
spark humanitarian crises and destabilize countries. So we have 
requested $448 million to assist developing countries hardest hit by 
the global financial crisis. This is not merely a moral imperative. It 
is an investment in our own security and prosperity.
    These efforts will be complemented by investments in the 
supplemental budget for emergency food aid, to counter the destructive 
effects of global food crises; people who are undernourished are less 
able to hold jobs and earn incomes; succeed in school; or participate 
fully in their societies. I'm pleased that the State Department and 
USAID will be leading a government-wide effort to address this issue. 
We are committed not only to providing short-term food relief, but also 
to helping nations build their own capacity to meet their long-term 
needs.
    We also must lead by example when it comes to shared 
responsibility. We have included in this request $837 million for 
United Nations peacekeeping operations, which includes funds to cover 
assessments previously withheld.
    We are asking for small investments targeted to specific concerns: 
international peace keeping operations and stabilization in Africa; 
humanitarian needs in Burma; the dismantlement of North Korea's nuclear 
program, assuming that they come back to the Six-Party Talks; 
assistance for Georgia that the prior administration promised and that 
we believe we should fulfill; support for the Lebanese Government, 
which is facing serious challenges; funding for critical air mobility 
support in Mexico as part of the Merida Initiative.
    Finally, if the State Department is to pursue an ambitious foreign 
policy agenda that safeguards our security and advances our interests, 
we must begin with our own agency. We are committed to creating a more 
agile, effective State Department and USAID, staffing these departments 
well, and giving our people the resources they need to do their jobs. 
Our supplemental request includes $747 million to support State and 
USAID mission operations around the world.
    Secretary Gates and I are also looking at how our departments can 
collaborate even more effectively. That includes identifying pieces of 
our shared mission that are now housed at Defense and should move to 
State.
    With the budget support that we've outlined in this supplemental 
request, we can do the work that this moment demands of us in regions 
whose future stability will impact our own.
    I'm confident that I speak for both Secretary Gates and myself in 
saying that we are committed to working closely together in the months 
ahead to promote stability and long-term progress in key regions around 
the world.
    Thank you.

    Chairman Inouye. Now, may I call upon the Defense 
Secretary, Secretary Gates.

STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF 
            DEFENSE, DEPARTMENT OF DEFENSE
    Secretary Gates. Mr. Chairman, Senator Cochran, members of 
the committee, thank you for giving me the opportunity to 
discuss the fiscal year 2009 supplemental request. I'm honored 
to be here with Secretary Clinton. Our joint appearance 
symbolizes the continuing improvement in relationships and 
close collaboration between the Departments of State and 
Defense.
    As Secretary Clinton said, this is intended to be the last 
planned war supplemental request the administration will make. 
Future budgets, starting with fiscal year 2010, will instead be 
presented together, with money for overseas contingency 
operations clearly marked as such.
    On that subject, some of you may have heard about my fiscal 
year 2010 budget recommendations to the President. I look 
forward to coming back here next month to discuss some of those 
details with you. Of the $83.4 billion in this request, 
approximately $76 billion is for the Department of Defense, 
most of it to directly support operations in Iraq, Afghanistan, 
and Pakistan.
    This covers a wide range of activities, whose highlights 
include:
    $38 billion for everyday costs associated with maintaining 
forces in Iraq and Afghanistan, from pre-deployment training to 
transportation to or from theater, to the operations 
themselves. I should note that this supplemental takes into 
account planned reductions in troop numbers in Iraq this year 
and increases in Afghanistan.
    $11.6 billion to replace and repair equipment that has been 
worn out, damaged, or destroyed in Iraq and Afghanistan. This 
includes money for four F-22s to replace one F-15 and three F-
16s, classified as combat losses.
    $9.8 billion for force protection, which includes, among 
other things, money for lightweight body armor, surveillance 
capabilities, and $2.7 billion for sustainment, retrofit 
upgrades, and new procurement of 1,000 MRAP all terrain 
vehicles to meet the latest requirements in Afghanistan.
    $3.6 billion to expand and improve the Afghan national 
security forces. We have not requested and will not request in 
the future any money for Iraq's security forces. The Government 
of Iraq has taken on that financial burden.
    $1.5 billion to continue to deal with the threat posed by 
improvised explosive devices (IED), a threat that, considering 
its effectiveness, we should expect to see in any future 
conflict involving either state or non-state actors.
    $400 million for the Commander's Emergency Response 
Program, a program that has been very successful in allowing 
commanders on the ground to make immediate, positive impacts in 
their areas of operation. It will continue to play a pivotal 
role as we increase operations in Afghanistan and focus on 
providing the population with security and opportunities for a 
better life. I should note that the Department has taken a 
number of steps to ensure the proper use of this critical 
combat-enhancing capability.
    Finally, there is $400 million for the Pakistan 
Counterinsurgency Capability Fund (PCCF). This program will be 
carried out with the concurrence of the Secretary of State and 
will complement existing and planned State Department efforts 
by allowing the CENTCOM commander to work with Pakistan's 
military to build counterinsurgency capability.
    I know there is some question about funding both the PCCF 
and the Foreign Military Financing Program, but we are asking 
for this unique authority for the unique and urgent 
circumstances we face in Pakistan, for dealing with a challenge 
that simultaneously requires wartime and peacetime 
capabilities.
    General Petraeus, General McKiernan, and the U.S. 
Ambassador on the ground have asked for this authority, and it 
is a vital element of the President's new Afghanistan-Pakistan 
strategy.
    The supplemental also includes money for programs to 
support the warfighter and ease strain on the force. Due to 
higher-than-expected recruiting and retention rates, we are 
well ahead of schedule to expand the Army and Marine Corps, 
which will help ease the burden on our troops and help reduce, 
with the goal of ending, stop-loss.
    Currently, we expect the Marine Corps and the Army to meet 
their respective end-strengths of 202,000 and 547,400 by the 
end of this fiscal year. The supplemental includes $2.2 billion 
to that end.
    There is also $1.6 billion for wounded warrior care and 
programs to improve the quality of life for our troops and 
their families. On that note, I thank the Congress for funding 
in the stimulus bill programs that provided infrastructure 
improvements, including $1.3 billion for hospital construction.
    I should mention that in the fiscal year 2010 budget, I am 
proposing to move funding for programs like these to the base 
budget to ensure long-term support for the programs that most 
directly affect our Nation's greatest strategic asset: our 
troops and the families that support them.
    As was the case last year, the Department of Defense will 
have to be prepared for continued operations in the absence of 
a supplemental or another bridge fund. Currently, some 
operational funds will begin to run out in July, which has 
historically affected the Army and the Marine Corps first. 
After Memorial Day, we will need to consider options to delay 
running out of funds. We also expect to run out of money to 
reimburse Pakistan by mid-May. I urge you to take up this bill 
and pass it as quickly as possible, but please, not later than 
Memorial Day.
    As Secretary Clinton discussed, the supplemental also 
includes $7.1 billion for international affairs and 
stabilization activities, including economic assistance for 
Afghanistan and Pakistan. Needless to say, I strongly support 
this funding.
    As I had said for the last 2 years, I believe that the 
challenges confronting our Nation cannot be dealt with by 
military means alone. They instead require whole-of-Government 
approaches, but that can only be done if the State Department 
is given the resources befitting the scope of its mission 
across the globe. This is particularly important in Afghanistan 
and Pakistan, where our ability to provide resources beyond 
military power will be the decisive factor.
    One of the most interesting and thoughtful discussions I've 
had during a hearing was almost exactly 1 year ago, when 
Secretary Rice and I sat before the House Armed Services 
Committee to discuss section 1206 and 1207 authorities, both of 
which have improved levels of cooperation between State and 
Defense.
    Secretary Clinton and I are also dedicated to figuring out 
how best to bring to bear the full force of our entire 
Government on the pressing issues of the day. So I ask you to 
continue supporting not just our men and women in uniform, but 
the men and women at the State Department who are just as 
committed to the safety and security of the United States.
    Let me close by once again thanking you for your ongoing 
support of our troops and their families. I know you share my 
desire to give them everything they need to accomplish their 
mission, and to support them and their families when they come 
home. Thank you.
    [The statement follows:]

                 Prepared Statement of Robert M. Gates

    Mr. Chairman, Senator Cochran, members of the committee: Thank you 
for giving me the opportunity to discuss the fiscal year 2009 
Supplemental Request.
    I am honored to be here with Secretary Clinton. Our joint 
appearances symbolize the continuing improvement in relationships and 
close collaboration between the Departments of State and Defense. As 
Secretary Clinton said, this is intended to be the last planned war 
supplemental request that the administration will make. Future budgets, 
starting with fiscal year 2010, will instead be presented together--
with money for overseas contingency operations clearly marked as such.
    On that subject, some of you may have heard about my fiscal year 
2010 budget recommendations to the President. I look forward to coming 
back here next month to discuss some of those details with you.
    Of the $83.4 billion in this request, approximately $76 billion is 
for Department of Defense funding--most of it to directly support 
operations in Iraq, Afghanistan, and Pakistan. This covers a wide range 
of activities, whose highlights include:
  --$38 billion for everyday costs associated with maintaining forces 
        in Iraq and Afghanistan, from pre-deployment training, to 
        transportation to or from theater, to the operations 
        themselves. I should note that this supplemental takes into 
        account planned reductions in troop numbers in Iraq this year, 
        and increases in Afghanistan.
  --$11.6 billion to replace and repair equipment that has been worn-
        out, damaged, or destroyed in Iraq and Afghanistan. This 
        includes money for four F-22s to replace one F-15 and three F-
        16s classified as combat losses.
  --$9.8 billion for force protection, which includes, among other 
        things, money for lightweight body armor, surveillance 
        capabilities, and $2.7 billion for sustainment, retrofit 
        upgrades, and new procurement of 1,000 MRAP All Terrain 
        Vehicles to meet the latest requirements in Afghanistan.
  --$3.6 billion to expand and improve the Afghan National Security 
        Forces. We have not requested, and will not request in the 
        future, any money for Iraqi Security Forces. The government of 
        Iraq has taken on that financial burden.
  --$1.5 billion to continue to deal with the threat posed by 
        Improvised Explosive Devices--a threat that, considering its 
        effectiveness, we should expect to see in any future conflict 
        involving either state or non-state actors.
  --$500 million for the Commander's Emergency Response Program 
        (CERP)--a program that has been very successful in allowing 
        commanders on the ground to make immediate, positive impacts in 
        their areas of operation. It will continue to play a pivotal 
        role as we increase operations in Afghanistan and focus on 
        providing the population with security and opportunities for a 
        better life. I should note that the Department has taken a 
        number of steps to ensure the proper use of this critical 
        combat-enhancing capability.
  --Finally, there is $400 million for the Pakistan Counterinsurgency 
        Capability Fund (PCCF). This program will be carried out with 
        the concurrence of the Secretary of State and will complement 
        existing and planned State Department efforts by allowing the 
        CENTCOM commander to work with Pakistan's military to build 
        counterinsurgency capability. I know there is some question 
        about funding both the PCCF and the Foreign Military Financing 
        program, but we are asking for this unique authority for the 
        unique and urgent circumstances we face in Pakistan--for 
        dealing with a challenge that simultaneously requires wartime 
        and peacetime capabilities. General Petraeus, General 
        McKiernan, and the U.S. ambassador on the ground have asked for 
        this authority, and it is a vital element of the President's 
        new Afghanistan-Pakistan strategy.
    The supplemental also includes money for programs to support the 
warfighter and ease strain on the force:
  --Due to higher-than-expected recruiting and retention rates, we are 
        well ahead of schedule to expand the Army and Marine Corps--
        which will help ease the burden on our troops and help reduce, 
        with the goal of ending, stop-loss. Currently, we expect the 
        Marine Corps and Army to meet their respective end-strengths of 
        202,000 and 547,400 by the end of this fiscal year. The 
        supplemental includes $2.2 billion to that end.
  --There is also $1.6 billion for wounded warrior care and programs to 
        improve the quality of life for our troops and their families. 
        On that note, I thank the Congress for funding in the stimulus 
        bill programs that provided infrastructure improvements, 
        including $1.3 billion for hospital construction.
  --I should also mention that in the fiscal year 2010 budget, I am 
        proposing to move funding for programs like these to the base 
        budget to ensure long-term support for the programs that most 
        directly affect our nation's greatest strategic asset: our 
        troops, and the families that support them.
    As was the case last year, the Department of Defense will have to 
be prepared for continued operations in the absence of the supplemental 
or another bridge fund. Currently, some operational funds will begin to 
run out in July--which has historically affected the Army and Marine 
Corps first. After Memorial Day, we will need to consider options to 
delay running out of funds. We also expect to run out of money to 
reimburse Pakistan by mid-May. I urge you to take up this bill and pass 
it as quickly as possible, but not later than Memorial Day.
    As Secretary Clinton discussed, the supplemental also includes $7.1 
billion for international affairs and stabilization activities, 
including economic assistance for Afghanistan and Pakistan. Needless to 
say, I strongly support this funding. As I have said for the last 2 
years, I believe that the challenges confronting our nation cannot be 
dealt with by military means alone. They instead require whole-of-
government approaches--but that can only be done if the State 
Department is given resources befitting the scope of its mission across 
the globe. This is particularly important in Afghanistan and Pakistan, 
where our ability to provide resources beyond military power will be 
the decisive factor.
    One of the most interesting and thoughtful discussions I've ever 
had during a hearing was almost exactly a year ago when Secretary Rice 
and I sat before the House Armed Services Committee to discuss Section 
1206 and 1207 authorities--both of which have improved levels of 
cooperation between State and Defense. Secretary Clinton and I are also 
dedicated to figuring out how best to bring to bear the full force of 
our entire government on the pressing issues of the day. I ask you to 
continue supporting not just our men and women in uniform, but also the 
men and women at the State Department who are just as committed to the 
safety and security of the United States.
    Let me close by once again thanking you for your ongoing support of 
our troops and their families. I know you share my desire to give them 
everything they need to accomplish their mission--and to support them 
and their families when they return home.
    Thank you.

                           GUANTANAMO FUNDING

    Chairman Inouye. Thank you very much, Mr. Secretary. Noting 
the extraordinary attendance of members, I have instructed the 
staff director to utilize the clock, and we will be limited to 
4 minutes per person.
    If I may, I would like to begin the questioning by asking a 
question on a small item, $50 million for the Department of 
Defense and $30 million for the Department of Justice. This is 
on Guantanamo. Though small, it's been controversial and a 
matter of great concern. What is your precise plan to close 
Guantanamo? How are you going to utilize this money?
    Secretary Gates. Well, let me start and then see if 
Secretary Clinton has anything to add. We are in the process--
or the Justice Department, I should say, is in the process of 
reviewing each of the detainees at Guantanamo, their files, to 
make a determination whether we should try and find a way to 
transfer them to other countries that might take them, whether 
to try them under Article 3 courts, or what to do with the rest 
of them.
    Those discussions are going on right now, and in fact, I 
think just this week, the discussions are beginning in terms of 
trying to decide where the detainees would go that are not 
transferred to other countries or are not tried in Article 3 
courts.
    Those discussions have just gotten started. There clearly 
will be a specific plan that comes out of this, but what we've 
had to await is the determination, roughly speaking, of about 
how big a group of people we will be talking about. And so the 
review of each of these case files has had to precede the 
development of a specific plan, in terms of where the prisoners 
would go or the detainees.
    And so we have put a plug in the budget for $50 million, 
just as a hedge that would allow us to get started if some 
construction is needed to be able to accommodate those 
detainees. The other $30 million is for the Justice Department 
as a part of the process of going through these determinations 
at Guantanamo.
    Chairman Inouye. How many detainees are involved in this 
process?
    Secretary Gates. I think that there are now about--I don't 
have the precise number, Mr. Chairman. We can get that back to 
you. But I think it's about 250.
    [The information follows:]

    There are currently 240 detainees being held at Guantanamo 
Bay, Cuba (GTMO) by the Department of Defense. Per the 
President's Executive Order signed on January 22, 2009 the 
Department of Justice is tasked with determining the 
disposition of all 240 detainees at GTMO. While the review 
process is being conducted in an expeditious manner, it will 
not be completed until October 1, 2009. Throughout the review 
process, detainees will be transferred, released, prosecuted, 
or found to be in some other lawful disposition. The Department 
is supporting the Department of Justice review and will carry 
out any necessary action in accordance to the various 
disposition determinations.

    Secretary Gates. And it's what the subset of that will be 
that we have to accommodate long-term that we're working on.
    Chairman Inouye. So you have not determined as to whether 
these prisoners will remain in Federal prisons or elsewhere?
    Secretary Gates. That is correct, Mr. Chairman.
    Chairman Inouye. You have no hint to give us?
    Secretary Gates. No, sir.
    Chairman Inouye. Madam Secretary, anything to add?
    Secretary Clinton. Mr. Chairman, as Secretary Gates 
outlined, there's a very intensive process underway, led by the 
Attorney General, and the determinations as to each detainee 
are being conducted by an intensive review of all files and 
other material available.
    But as Secretary Gates said, we are not yet at a point 
where decisions to any great extent have been made. Speaking 
for the State Department, obviously, our role is circumscribed. 
What we are attempting to do is try to convince other countries 
to take back their own nationalities of detainees and perhaps 
even others. And we have an intensive outreach effort going on 
to that effect right now.
    Chairman Inouye. One final question, Mr. Secretary. What 
will happen to the facility itself?
    Secretary Gates. I suspect that the detention facility will 
be mothballed once all the detainees are removed. I don't think 
we've actually addressed that piece of it yet, but I suspect 
that's what would happen.
    Chairman Inouye. I thank you very much. Mr. Vice Chairman.

                       SURGE OF CIVILIAN EXPERTS

    Senator Cochran. Mr. Chairman, Madam Secretary. The 
submission to the committee contemplates what is called a surge 
of civilian experts who will be brought together by the 
administration to help develop strategies and programs for 
economic and cultural development efforts in Afghanistan.
    I'm curious to know if we have begun recruiting people or 
assembling people. Is someone in the Department of State 
identified to head this economic and agricultural development 
program? And how much of the request contemplates money going 
directly to this effort?
    Secretary Clinton. Well, Senator, this is our commitment to 
try to provide additional civilian experts and workers in 
fields like agronomy that we are in the process of recruiting 
Jack Lew, the Deputy Secretary of State for Resources and 
Management, working with Special Representative for Afghanistan 
and Pakistan Richard Holbrooke.
    Really, it's a Department-wide effort, as well as with 
USAID, actually identifying where we need to put people, what 
kind of people. Now, our numbers are not yet determined because 
this is obviously a challenging recruitment, but we believe we 
can recruit--the latest figure was about 500 civilians.
    The Defense Department, as part of our ongoing discussion 
about how to enhance the capacities of the State Department, 
which we are undertaking, but not yet have fulfilled, has 
talked about looking at some of their civilians and some of 
their Guard and Reserve members to perhaps help in specific 
areas.
    Richard Holbrooke and General Petraeus have been planning 
very carefully at a local level what we're going to need. We 
are committed to coming up with our share of the civilians.
    One thing I would add, Senator, which, of course, is a 
concern, is the safety and security of these civilians, because 
we're talking about direct American hires or contract hires. We 
will also, of course, cooperate with non-governmental 
organizations (NGOs), other nations' civilian workers, locally 
engaged and hired nationals.
    So what we're talking about is a small number of what we 
hope will be a large civilian presence coordinated and focused. 
But security remains a challenge here and in Iraq, and it's 
something that we are spending a lot of time looking at with 
the Department of Defense.
    Senator Cochran. We noticed the request includes Department 
of Defense funding for this purpose, as well--well, $141 
million for the Department of Defense and $104 million for the 
Department of State.
    Mr. Secretary, is there a particular person you're putting 
in charge of this program at the Department of Defense to see 
that these funds are spent in an effective way?
    Secretary Gates. The Deputy Secretary, Bill Lynn, is 
overseeing this and it's really, for our part, trying to see if 
we can't--we think this situation is urgent enough that it's 
important to get people into the field as quickly as possible.
    And so as a bridging effort to get from where we are today 
to the full deployment of the resources under the State 
Department's auspices, we are looking at asking members of the 
Reserve component for volunteers. We'll have veterinarians, 
agronomists, accountants, and so on, who would serve for a 
period of months until the long-term State Department folks are 
there.
    And it's our intent, I think, initially for those who will 
be out in the field to use the additional civilians or 
volunteers to plus up the provincial reconstruction teams, 
because there's already a structure that would provide security 
for them, as Secretary Clinton indicated.
    Senator Cochran. Thank you.
    Secretary Clinton. Senator, could I just add one additional 
point? In Secretary Gates' testimony, he referenced what has 
been a very effective program on the ground for our military, 
the CERP funds, the Commander's Emergency Response funds.
    Every time I was in Iraq, I was struck by how these really 
smart, focused captains and majors were given significant funds 
to be able to make on-the-spot decisions. If some tribal 
leader's house was damaged, they could say, ``Well, I'm going 
to give you the money. We'll rebuild it.'' Or some road was 
blocked, ``Well, we'll get the money to clear it.''
    That was an incredibly flexible and useful tool. Nothing 
like that exists on the civilian side. And so when we talk 
about working through the authorities and the capacities 
between State and Defense, for a lot of reasons right now, 
Defense is able to be more agile and flexible, with streams of 
money that go right to the ground, into the communities.
    And we're going to have to work with the committee and 
others to try to figure out how we get more of that kind of 
agility and flexibility in our Embassy and on the ground with 
our civilian workers.
    Senator Cochran. Thank you.
    Chairman Inouye. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. I'm delighted to 
see you both here. I think having both of you in the positions 
you are in is a tremendous service to our country, and we're 
fortunate that both of you are here.
    Secretary Gates, I spoke to you earlier about the 1,800 
citizen soldiers from the Vermont Guard that are going to 
Afghanistan. I'll have some written questions on particular 
armor and equipment for them, and I would ask if you or your 
staff could respond to that when you get the written questions.
    Secretary Gates. Sure.

                              FLU FUNDING

    Senator Leahy. Madam Secretary, you mentioned the H1N1 flu 
virus. Earlier this week, the President requested an additional 
$1.5 billion in the supplemental, but that goes to the 
Department of Health and Human Services.
    WHO says this is becoming a global pandemic. Millions of 
Americans are traveling, studying, or stationed overseas. We 
know this is a virus that knows no boundaries. Should we have 
additional funding in here for unanticipated health emergencies 
outside the United States, much of which could impact 
Americans?
    Secretary Clinton. That's a very good question, Senator. 
You know, Mexico requested from us--and a number of other 
countries, as well as the World Health Organization--some help 
in getting access to the drugs that are needed, and we are 
working with our partners to try to help resolve that and 
assist the Mexicans. They also needed additional kinds of 
diagnostic and technological expert help, as well, and we've 
sent people down to our Embassy in Mexico to work with the 
Mexican Government.
    I do think that much of the work that we did in the 
Congress over the last several years on avian flu has put us in 
a better position than we would have been, but I think that we 
could very well require additional help to deal with the 
emergencies in other countries. Because what will happen--it's 
human nature--is that as the influenza spreads, people will be 
increasingly reluctant to share their supplies.
    Senator Leahy. So what you're saying is we may need 
additional funds?
    Secretary Clinton. I would like to get back to you with a 
specific request, Senator, because I think you're right to 
raise that.
    [The information follows:]

    We very much appreciate your interest in helping the 
Department fulfill its mission. The White House has already 
requested $1.5 billion to enhance the capacity of the United 
States to respond to this emerging and unpredictable situation. 
This requested fiscal year 2009 supplemental money would be 
provided to a proposed new account, Unanticipated Needs for 
Influenza, in the Executive Office of the President. These 
funds would be available for transfer by the Office of 
Management and Budget to Departments and Agencies, including 
the Department of State and the U.S. Agency for International 
Development. To deal with similar situations in the future the 
President is asking Congress to approve a request of $8.6 
billion for fiscal year 2010--and $63 billion over 6 years--to 
shape a new, comprehensive global health strategy, rather than 
continue to confront individual illnesses in isolation.

    Senator Leahy. I look at the diplomatic and development 
components of the administration's strategy for Afghanistan. I 
don't see it differing much from the previous 
administration's--it funds some of the same things. I worry 
that we have spent billions in Afghanistan and we have yet to 
see the results that you or Secretary Gates or I would like to 
see.
    What goals are realistic? How does your supplemental 
request of $980 million differ from what we've done before? 
What failed before? What's going to work now?
    Secretary Clinton. Well, I think that we're at a point now, 
Senator, where lessons learned are finally being acquired and 
listened to. There have been some successes in certain 
provinces and departments of the national government in 
Afghanistan. The Afghan National Army has proceeded to be built 
up so that it has the respect of the nation.
    Some of our partners in the international security 
assistance force (ISAF), the Dutch, the British, and others in 
the provinces they were responsible for, have had positive 
results. This review that we engaged in was intensive and it 
was no holds barred. What works, what doesn't work? It was a 
joint military-civilian undertaking.
    I can't tell you sitting here today that everything we're 
going to try is going to work, but let me give you one quick 
example about what we think can make a difference. We did not 
emphasize agriculture.
    You know, Afghanistan used to be the garden of central 
Asia. If you go back 30, 40, 50 years, you see huge orchards. 
Now when any of us fly over, we see eroded, denuded landscape 
with hardly a tree in sight. And there was a real cry for the 
Afghans to please get some help in doing this, but our 
principal objective has been to eradicate the poppy crop, and 
we never took seriously alternative livelihoods.
    We believe, on both the civilian and the military side, 
that this is a great opportunity for us. We know that from our 
intelligence, a lot of the members of the Taliban are not there 
because they are ideologically committed, but because it's a 
job and, frankly, it's a job that pays better than being in the 
police, and it pays better than trying to scrounge around to 
make a living without any help out of the land.
    So I think, Senator, we've got a view of what we think will 
work better, and we're going to recruit the people, and we're 
not going to be all things to all Afghanistan's population. 
We're going to have very discrete missions, and we're going to 
hold ourselves accountable.
    Senator Leahy. Thank you. Thank you, Mr. Chairman. We're 
going to need further discussions on this before the 
subcommittee takes it up, but thank you.
    Chairman Inouye. Thank you. The Republican leader Senator 
McConnell has special responsibilities on the floor. In 
recognition of this and in the spirit of bipartisanship, Mr. 
Leader.

                    GUANTANAMO--MILITARY COMMISSIONS

    Senator McConnell. Thank you, Mr. Chairman. I appreciate 
that. Welcome, Senator Clinton--Secretary Clinton and Secretary 
Gates. Let me pick up on the subject matter that the chairman 
led off with, and that's Guantanamo.
    Secretary Gates, as you know, we had a vote in the Senate 2 
years ago, 94 to 3, on the issue of whether or not the 
detainees at Guantanamo should come to the United States--come 
to U.S. soil. I know the Attorney General--I've heard you both 
say the Attorney General's in charge of this review. But I do 
have some questions related to the $50 million request for 
Guantanamo in the supplemental.
    The first one, I guess, would be I didn't hear you mention 
the military commissions as a possible way to deal with these 
detainees. The Supreme Court, in effect, ordered us to pass 
military commission law, which we did a couple of years ago. Am 
I to conclude or are we all to conclude that the military 
commissions are now out, as a way of trying whatever detainees 
we cannot convince others to take and we have to deal with 
ourselves?
    Secretary Gates. No, sir, not at all. And I should have 
included them as one of the alternatives. One of the areas that 
I think the Attorney General and the Justice Department are 
looking at is the military commissions, whether to go forward 
with the--I think there are nine cases that are already before 
the military commissions, whether--or not. And should there be 
any changes to the military commission law, if they decide--if 
the decision is made to retain the military commissions. But it 
still--the commissions are very much still on the table.
    Senator McConnell. As you've probably heard, various 
communities are beginning to discuss their interest in taking 
these, and so far, there isn't any. In fact, I believe some 
communities have actually begun to pass resolutions saying they 
don't want them. How do we solve this dilemma?
    We know this about Guantanamo. Everyone who's visited 
there, including the current Attorney General, has said it's a 
good facility. They're being treated humanely, and we know no 
one has escaped from there. During all of these years, we know 
we haven't been attacked again since 9/11. It seems to me to be 
working.
    A lot of our European critics will--see, I guess we don't 
fully know the answer whether many of them are willing to take 
any of these people. But we do know that some of the countries 
from which they have come haven't had a great record of keeping 
them incarcerated once we send them back. Many of them ended up 
back on the battlefield. What are your thoughts about--what are 
we going to do with these people?
    Secretary Gates. Well, the question really is what are we 
going to do with those that cannot be returned home, either 
because we fear that they won't be kept under--they won't be 
monitored or kept under watch, or we worry that they'll be 
persecuted when they go home. For example, the Uighurs, the 17 
Uighurs. So we're talking about probably somewhere between 50--
--
    Senator McConnell. Well, could I just interject on the 
Uighurs?
    Secretary Gates. Yes.
    Senator McConnell. I gather the plan is simply to release 
them in the United States, right?
    Secretary Gates. Well, some of----
    Senator McConnell. Not to be incarcerated, but just to be 
released in the country?
    Secretary Gates. I'm not sure a final decision has been 
made. What I've heard people talking about is our taking some 
of the Uighurs, probably not all. Because it's difficult for 
the State Department to make the argument to other countries 
they should take these people that we have deemed in this case 
not to be dangerous if we won't take any of them ourselves.
    But the question is--to the core of your question is what 
do we do with the 50 to 100, probably in that ballpark, who we 
cannot release and cannot try, either in Article 3 courts or 
military commissions?
    And I think that question is still open. The President has 
made the decision to close Guantanamo. It's something that his 
predecessor said should be done, something that I said should 
be done over 1 year ago. I fully expect to have 535 pieces of 
legislation before this is over, saying, ``Not in my district. 
Not in my State.''
    Senator McConnell. I think you can count on it.
    Secretary Gates. And we'll just have to deal with that when 
the time comes.
    Senator McConnell. My time is up, but let me just say, in 
conclusion, I understand the dilemma. The previous 
administration, of which you were a part also, said they wanted 
to close Guantanamo. Both candidates for President last year 
said they wanted to close Guantanamo. The difference is that 
this administration's actually put a date on it and actually 
has to answer the question, what are you going to do with them?
    And I think it is perfectly clear that many of them are 
going to return to the battlefield if they can, and the 
conclusion is going to be with many of them that they need to 
be incarcerated, and the question then is when.
    And we're going to have a continuing interest in this, in 
terms of your own facilities and whether they can successfully 
contain them as Guantanamo has for the last 7\1/2\ years. 
Communities are going to be upset about this.
    This is a very important issue and it deals with public 
safety, as we all know. Now, we haven't been attacked again 
since 9/11. We like that, and we would like for that record to 
continue. Thank you very much.
    Chairman Inouye. Thank you. Senator Mikulski.
    Senator Mikulski. Mr. Chairman, good morning. Well, 
President Obama certainly put together a turbo team for foreign 
policy, and it's a pleasure to welcome both of you. Secretary 
Gates, I want to thank you for your ongoing commitment to the 
warfighter, not only in the theater, but when they come back 
home.
    We want to acknowledge within this supplemental request 
increased money for healthcare for the returning warfighters, 
and we will be looking at whether that's adequate. Because as 
we've talked about on so many occasions, they bear the 
permanent wounds of war, the permanent impact of war, as well 
as the Yellow Ribbon Integration Program. So we'll be working 
with you on this.
    And Secretary Clinton, you've had your own 100 days. 
Twenty-two countries, 74,000 miles, 3 o'clock in the morning 
phone calls, and they go on 24 hours throughout the day.
    But friends and colleagues, with this excellent 
presentation, know that I have very serious reservations about 
our Afghan policy, and my reservations are based on this, and 
then three specific things.
    Number one, the fact that Afghanistan seems threatened not 
only by the Taliban, but by a government that's riddled with 
cronyism and corruption. And it's part of that cronyism and 
corruption that is also the whole issue of is Afghanistan on 
its way to becoming a narco-state.
    And number three, and not at all least, something I know 
our Secretaries champion, is the role and status and safety and 
security of women. The fact that we have a government in 
Afghanistan that turns the other cheek when girls have acid 
thrown in their face when they go to school, and they actually 
codify domestic rape.
    You see what the situation is, so I'm being asked to send 
in the marines, where they want to continue to grow poppies. 
The cronyism and corruption, which would then, in and of 
itself, be an unstable government, and the treatment of women.
    So my question is not why should we go. I know you'll talk 
about it. But then dealing with those three issues, what do you 
see dealing with it? And Secretary Clinton, I'd like to start 
with you with the cronyism, the corruption, and also the 
treatment of women and what you think is in here, what you 
think is also in the policy that would reassure the people of 
America why should we send in the marines to do this?
    Secretary Clinton. Well, Senator, I think those are all 
very legitimate questions. We've given them a lot of thought. 
With respect to the government, its capacity, its problems 
providing services, its perception of being less than 
straightforward, transparent, honest, it's a problem. I'm not 
going to sit here and tell you it's not.
    There are, however, significant pockets of progress that we 
want to build on. Several of the members of the current 
government's cabinet are doing an excellent job. The build-up 
of the Afghan National Army is proceeding in a way that 
engenders confidence to the people of Afghanistan.
    But we have made it very clear that we expect changes and 
we expect accountability, and we're going to demand it. It's 
among the highest priorities of the team that we have sent to 
Afghanistan.
    I swore in Karl Eikenberry, the former general who had 
served in Afghanistan twice, yesterday as a new Ambassador. He 
knows the people. He understands what it takes to move them. 
Obviously, the rest of the group that we have in place is 
equally committed, so we're tackling this and we are taking it 
on.
    With respect to the narco-trafficking, that is why we 
believe we've got to support alternatives. I mean, this is not 
going to disappear just because we aerial-bomb it with 
pesticides. It's just too profitable. It is now the largest 
source of opium for heroin in the world, and we have to tackle 
it at the local level and provide alternatives and get people 
to reject it culturally, which is----
    Senator Mikulski. Is Karzai committed to working with us to 
do that?
    Secretary Clinton. That is what we are demanding of him. 
Now, we are not taking a position in this presidential 
election. We are neither for nor against any candidate, 
including the President, and we have made it clear what we 
expect of anyone who's elected.
    I mean, part of our problem is there are a lot of mixed 
messages sent over the last 7 years, and we have to have a very 
clear message from the highest levels of our Government, both 
the executive and the legislative branch, that certain 
behaviors are not accepted. We're going to go after them. We're 
imposing conditions that we think are both workable and leading 
to the changes we're seeking.
    But let me just finish by saying something about women. I 
deeply share your concerns. The law that you referenced is 
being brought back by the Afghan Government and by the 
President. I've personally been involved in that. But the 
problems go much deeper, and we're going to continue to 
emphasize our support for girls and women for their education, 
for their healthcare, for their rights.
    That is an integral part of our strategy, because we think 
it is a clear leading indicator as to whether there is a 
commitment to the future in a way that we can continue to 
support. So I can assure you that the women's issues are not 
just a side issue or a marginal one. They are core to the 
strategy that we have developed.
    Senator Mikulski. Well, thank you. I know my time is up. 
What I--so there are many things that I liked about this 
testimony, but that this is the last supplemental that we could 
deal with this in a regular order in our committees, through 
DOD, through foreign operations. The whole idea that it's 
defense, diplomacy, and development. We look forward to working 
with this turbo team. Thank you.
    Chairman Inouye. Thank you very much. Senator Bond.
    Senator Bond. Thank you. Secretary Clinton, Secretary 
Gates, I commend you both for putting the emphasis on the 
strategy that worked in Iraq, the counterinsurgency strategy 
clear, hold, and build. I believe it's been--I'm calling it 
smart power. I believe that with most of our military and 
intelligence leaders, that the war against terror is 10 percent 
kinetic and 90 percent development and governance.
    For 2 years after getting a request personally from 
President Karzai and putting in money for USAID to send 
agricultural specialists to Afghanistan, not a single one 
showed up. In 2007, I worked with the Missouri National Guard. 
We got it cleared through the Defense Department in early 2008. 
The first agriculture development team went to Nangarhar 
province. It was tremendously successful. The second one is 
there now.
    Eight other States have sent their National Guards. They 
are dependent upon the CERP funds that Secretary Clinton 
mentioned. Those worked in the Philippines and Mindanao. It is 
far better, particularly in Islamic countries which are friends 
of ours, that we put American sandals on the ground so we don't 
have to wait until a strike and put American boots on the 
ground.
    I look forward to working with you on the details of this 
plan because we cannot afford to fail in Afghanistan and 
Pakistan.
    I want to address very briefly a couple of the issues, one 
of them that I hope could be addressed in the supplemental. I 
will discuss with you at much greater length, Mr. Secretary, 
the tremendous bathtub in the TACAIR that is going to leave our 
Navy without ships on carrier decks. It's going to leave the 
National Guard without anything except Cessnas to fly and air 
sovereignty alert, and it's even going to shortchange the Air 
Force itself. But we will go into that later.

                        SHUTTING DOWN C-17 LINE

    The F-35 is way behind schedule, over budget. The F-22 
doesn't do the job that the F-15s, F-16s, and F-18s can do. But 
I am very much concerned, after the great principles that were 
laid out for the Defense policy, that the President recommended 
shutting down the C-17 line. That's the last wide-body large 
military aircraft production line in the United States. Gives 
us the ability, the only one in the world to respond quickly 
and independently in any adversarial military activity or 
humanitarian needs.
    And with the air mobility study due to be finished late 
summer, where I believe we will hear the need for continued air 
mobility support, the decision to shut the C-17 down now is a 
question of ready, fire, aim.
    I would hope that you would rethink this and allow funding 
in the supplemental for the long lead time. Otherwise, we will 
not have the capacity to turn out the air mobility that we will 
need for military and humanitarian actions, and we're going to 
be left with a situation where we're going to be running around 
the world trying to buy cargo aircraft. C-5s are over their 
lifespan. C-17, to me, needs to be rethought. And I would ask 
for your comments on that, Mr. Secretary.
    Secretary Gates. Well, first of all, I agree with all the 
good things you said about the C-17. It's a terrific aircraft. 
The Air Force believes, and transportation command believes, 
that we have more than necessary capacity for lift for the next 
10 years or so.
    One of the problems that we have in that context is that 
there is a legislative prohibition effectively against us 
decommissioning the A model of the C-5s. And so as we look at 
the capacity that we have with those 59 C-5As and we get more 
and more C-17s, we just are continuing to build excess 
capacity.
    But the other side of it is that even if you lifted the 
prohibition on decommissioning C-5As, the Air Force has to look 
at what--if it has no need on the requirement side for greater 
capacity, then what are they going to give up? What are they 
going to have to give up in other programs in order to buy more 
C-17s?
    It's a zero-sum game. If you had everything that is put in 
the budget that is excess to our requirements, means that 
there's something else we can't do. And what I'm trying to do 
is figure out how do you balance all of these things and have 
the maximum possible capability for the maximum range of 
potential conflict?
    Senator Bond. Thank you, Mr. Secretary. I look forward to 
working with you and this committee because I've got some 
ideas.
    Chairman Inouye. Thank you very much. Senator Kohl.
    Senator Kohl. Thank you, Mr. Chairman, and welcome, 
Secretary Gates and Secretary Clinton. Secretary Clinton, I 
would like to thank you for hosting yesterday's gathering on 
global food security. I believe that the USDA and our land 
grant colleges, as I said yesterday, have a vital role to play 
in fighting hunger and instability in developing countries, and 
I would like to work with you on that in the months to come.
    The supplemental request before us provides $300 million 
for Public Law 480, which is a key part of the overall food 
security effort. In terms of tonnage, has the global demand for 
food assistance changed from this time last year?
    Secretary Clinton. Senator, as you know, there have been a 
number of food crises, and we do think that the demand and the 
need has increased. But we have a very careful analysis as to 
why this money in the supplemental should be sufficient through 
this fiscal year to be able to produce the response that we may 
be called on to make.
    But I want to underscore--and thank you for your interest 
in food security--our current system is just not as effective 
as it needs to be. And that's why we want to shift our focus to 
agricultural sustainability, focusing on the small producers, 
helping them understand the value of GMOs, genetically modified 
organisms, to help them have drought-resistant crops, helping 
them with farm-to-market roads, the kind of approach that we 
actually did quite effectively in the 1960s and the 1980s.
    So I think our capacity for the response set forth in the 
supplemental is fine, but we've got to go further than that, 
and that's what I'm looking forward to working with you on this 
committee to do.
    Senator Kohl. Thank you, Secretary Clinton. Recently, the 
Taliban came within 60 miles of Pakistan's capital, Islamabad, 
as you know. Now, if India's military was 60 miles from the 
capital of Pakistan, the entire country would have been on a 
total war footing. But as you remarked, Secretary Clinton, many 
in Pakistan seemed unthreatened by the idea of the Taliban 
imposing Sharia law in the country because they're so unhappy 
with their own government.
    So have the recent gains by the Taliban changed the views 
of the Pakistanis about how dangerous the Taliban are? Do the 
Pakistan people now see the Taliban as a real threat to their 
way of life, and not just a thorn in the side of the United 
States?
    And finally, last night, the President, at his press 
conference, called the Government of Pakistan very fragile. He 
also said that he was confident that Pakistan's nuclear arsenal 
would not fall into the hands of the Taliban. What would be our 
response if the Taliban forced the Government of Pakistan to 
fall, and how can the President be so sure that Pakistan's 
nuclear arsenal would be safe from the Taliban?
    Secretary Clinton. Well, Senator, let me start by 
responding that we do think that the Government of Pakistan, 
both civilian and military leadership, is demonstrating much 
greater concern about the encroachment by Taliban elements in 
parts of the country that had before then not been subjected to 
their presence and are not in the ungovernable areas that have 
been part of Pakistan going back even to the British Empire.
    So we believe that we're getting a much more thoughtful 
response and actions to follow. And I think Secretary Gates 
might want to focus on the military piece of this. But it was 
heartening to see the military sent in to the Buner district 
and to begin to try to push the Taliban advance back.
    With respect to the nuclear arsenal, I think that much of 
that would have to be in a closed session, Senator. But let me 
just reiterate that based on everything that we are aware of, 
the Pakistani military is very focused on the protection of 
their arsenal, and we have certainly kept our eyes very closely 
on that, and I think that's where the President's assurance 
comes from.

                          MOTIVATING PAKISTAN

    Senator Kohl. Thank you. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you. Senator Shelby.
    Senator Shelby. Secretary Clinton, Secretary Gates, welcome 
to the committee. I'd like to pick up on the line of 
questioning about Pakistan that Senator Kohl has going. If 
Pakistan is, as some people have said, maybe a little more--and 
I think the President used the word fragile. Some people call 
it a ticking time bomb.
    And it seems to me, although I've always supported and will 
support this supplemental with money and help, that the 
government and the army has lost the will, or seems to have 
lost the will to fight even for their own country. And I think 
some of this money would be used, I understand, Secretary 
Gates, for training of forces and so forth. Is that correct?
    Secretary Gates. Yes.
    Senator Shelby. But how do we impart the will to fight? 
That seems to be lacking there. And how do we help them, 
because we have been there--been helping them about 8 years now 
with a lot of money. And I think it was necessary, but they 
don't even have control of a lot of their territory. You know 
that, and they seem to be losing territory day after day. And 
we all know, as Senator Kohl alluded, that they do have a huge 
nuclear arsenal. This could be a real, real problem to all of 
us; could it not?
    Secretary Gates. Well, it certainly could. And I would say, 
Senator Shelby, that, I mean, my perspective on it is that the 
Pakistani Government has not seen what has been going on in the 
western part of Pakistan as an existential threat. Their view 
has been since their inception that India was the principal 
threat to Pakistan's continued existence.
    I think that they have--the areas in much of western 
Pakistan have not really been under serious government control 
perhaps for most of Pakistan's history, if not all of it, and 
the Pakistani Government, Pakistani population is dominated by 
Punjabis. They dramatically outnumber the number of Pashtuns in 
the western part of the country and have always tried to deal 
with that situation out there, either by setting tribes against 
one another, working with individual tribes, cutting the kinds 
of deals that we've seen, and occasionally using the military.
    And I think what has happened just in recent weeks and 
really since--beginning with the assassination of Mrs. Bhutto, 
is the reality dawning on the Pakistanis that what has happened 
in the west is, in fact, now a real threat to them. And I think 
that the Taliban moving into Bunair set off an alarm bell that 
may, in fact, begin to create a broader political consensus in 
Pakistan that would include not just President Zadari and Prime 
Minister Khalani, but perhaps the Shalifs and others, as well, 
including the army that, in fact, they now face a real threat.
    I think they have seen the situation in the west as largely 
of our making as we drove the Taliban out of Afghanistan, and 
now they're beginning to see these guys have designs on the 
Pakistani Government itself. And so I think those realities 
that have begun to dawn on them, I think provide some grounds 
for--I won't go as far as optimism, but some grounds to believe 
that there is a growing awareness in Islamabad and in Pakistan 
that this is a threat to them.
    And I would just use the analogy, you know, the United 
States was first attacked by Al Qaeda in 1993. Al Qaeda was at 
war with the United States for 8 years before we decided we 
were at war with Al Qaeda. And I think the same kind of thing 
has kind of happened in Pakistan. They have--the Pakistanis 
haven't realized the threat that has been posed to them over 
the last several years.
    Senator Shelby. If this is not a wake-up call, I don't know 
what could be; do you?
    Secretary Gates. I agree.
    Senator Shelby. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much. Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman. Welcome 
to both of you. I just wanted to echo the comments of Senator 
Mikulski regarding the issues of women's rights in Afghanistan. 
I appreciate your response very much, Secretary Clinton.
    Let me ask both of you--both of you have talked at great 
length about the need for smart power and elevating the role of 
development in our national security strategy. It appears from 
the President's proposed budget and from the supplemental 
appropriations request that the Obama administration is making 
a major effort to rebalance national security strategy by 
giving civilian aid, diplomacy, and the non-military dimension 
of national security more strength and impact.
    However, in order to make that work, we're not just talking 
about money, we're talking about people. Secretary Clinton, you 
mentioned in your remarks USAID and the need for more foreign 
service officers. I am an original cosponsor of a bill with 
Senators Durbin and Bond called the Increasing America's Global 
Development Capacity Act that would address this deficit. Can 
you talk a little bit about the need to have full-time foreign 
service officers and whether we have the capacity we need?
    Secretary Clinton. Thank you very much, Senator, and the 
short answer is no, we don't. We don't have the capacity. We 
don't have the authorities yet. And as you know, USAID has lost 
a lot of its capacity over the last years. It is viewed by many 
now as largely a contracting agency. There are only four 
engineers currently employed by USAID for the entire world. So 
we have allowed a lot of our capacity to just migrate out of 
the government.
    And we don't get the accountability. It often costs more 
than it should in order to deliver the service that we're 
seeking. So we will be coming to you with a set of ideas. And 
I'm looking forward to consulting with all of you, and I 
appreciate the efforts made by Senators Durbin and Bond. We 
have to rebuild our diplomatic and development arsenal. We just 
don't have it.
    And so it's awkward when people say, ``Well, we need to be 
sending civilians out.'' And we have a hard time getting the 
people we need in language areas, just bodies on the ground, 
able to do the functions we're talking about.
    When Senator Bond was talking about how difficult it was in 
agriculture development teams, I faced the same experience as a 
Senator. I was trying to get a project going to get fruit trees 
planted again in Afghanistan. I even had an interest in the 
market. We just couldn't do it. It was absolutely the most 
frustrating experience.
    So we are trying to cut through the redtape and the 
bureaucracy. We're trying to get the resources that we need and 
to have a rebuilt diplomacy and development mission that can 
actually respond to the very good ideas that all of you have.

              PUBLIC/PRIVATE PARTNERSHIP FOR CIVILIAN HELP

    Senator Murray. Secretary Gates, do you agree?
    Secretary Gates. Absolutely. And I would just go back to a 
comment that Senator Kohl made. I think we also need to think 
creatively about public/private partnerships that can help us.
    And I was really--as the former president of Texas A&M, I 
was glad to hear Senator Kohl talk about the potential role of 
land grant universities, because most of them have extension 
services that operate all over the world, and they have the 
expertise, and we can draw on them and work with them.
    And A&M's had people in Afghanistan and Iraq for the last 4 
or 5 years, and so we have a lot of assets in this country that 
aren't necessarily Government employees that I think we could 
harness, and those people would be willing to volunteer, or we 
could put them on contract.
    But in terms of the need for more foreign service officers, 
I couldn't agree more. I've been arguing for it for 25 years. 
If you took every foreign service officer in the world, it 
wouldn't be enough people to crew one aircraft carrier.
    Senator Murray. Okay. My time is out. And, Secretary Gates, 
I did want to ask you about how we're going to continue to have 
a competitive industrial base as we cut back our military. As I 
mentioned in our recent conversation, this is something that I 
want to continue to dialogue with you about. I appreciate both 
of your comments today. Thank you.
    Chairman Inouye. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much. 
Secretary Clinton, let me deviate just a bit. I need to ask you 
about the journalist that's imprisoned in Iran. Roxana Saberi 
is someone who I know.
    She, as you know, was born and raised and educated, sports 
all-star, all-star academic, Miss North Dakota top-ten 
finalist, and Miss America. Master's degree from Northwestern. 
Master's degree from Cambridge, England. Went to Iran and 
reported for National Public Radio and many other venues.
    Now sits in a 10 foot by 10 foot prison cell, first accused 
of buying a bottle of wine, then next accused of reporting 
without a license, and then accused of espionage and sentenced 
to 8 years in prison.
    It is an unbelievable miscarriage of justice, and I have 
been working on that case for several months. Can you give us 
some notion of what the activities are at State?
    Secretary Clinton. Senator, I know you have. I've talked 
with you. I've talked to Senator Conrad. I've talked to the 
Governor of your State. We are also working very hard. We have 
great concerns about Ms. Saberi's health and well-being. She 
has arbitrarily been, in our view, held without any kind of 
transparency or process.
    We have called on the Iranian Government, both directly and 
through other Emissaries, to release her. As you may know, she 
is extremely unhappy and quite rebellious about being held in 
such a horrible situation and is on a hunger strike. Her 
parents, as you know, have been there for several weeks.
    We have reached out and are continuing to reach out in 
every channel that we know of, public and private. We obviously 
use the Swiss as our consular representative in Tehran. We hear 
mixed responses all the time from the government. They're going 
to let her out. They're going to let her out in 2 months. 
They're going to sentence her to 8 years. They're going to do 
an appeal.
    I think it shows you how difficult it is to deal with this 
government in Iran, because they are impervious to the human 
rights and the civilized standards that one should apply. And 
so we are, I can assure you, doing everything we know to do.
    Senator Dorgan. Madam Secretary, thank you for that. And I 
hope you'll obviously continue as much pressure as we can apply 
to the Iranian Government. First of all, let me thank you for 
all of your work and your travels and your representation of 
our country.

                         OVERSEEING CONTRACTORS

    Secretary Gates, I'm really pleased that you've stayed on, 
and I think you have an admirable record. And I do want to say 
this to you, though, that I've held 18 hearings on the subject 
of contract abuse in Iraq and Afghanistan.
    And I have just learned again, just in recent days, of 
award fees being given to contractors, very large award fees 
for excellent work, being given to contractors that have had 
level three corrective actions taken against them because their 
work was deficient.
    I want to continue this discussion about the Army's 
sustainment command and others that are shelling out all of 
this money. $38 billion of that which we're considering in this 
request is for ongoing support of operations in Iraq and 
Afghanistan. I assume that's the Logcap project and so many 
other things.
    But I just hope that you will have a renewed effort to put 
a magnifying glass on these contractors and the amount of money 
that's going out, because there is unbelievable abuse and waste 
and, yes, fraud, and we just have to lace it up and stop it.
    So I just--I say that to you again. I'm pleased you're 
where you are, but you and I have had discussions about it. 
I've had discussions with your deputy. But in recent months, 
once again, award fees have gone to contractors that have done 
insufficient and inappropriate and inadequate work, in some 
cases, resulting in the death of soldiers.
    Secretary Gates. I would just say, Senator, that this is 
clearly a high priority for myself, but also for Secretary Lynn 
and our new Under Secretary Ash Carter. And I think that part 
of our effort--part of the problem that we have is the number 
of contractors we have who are overseeing contractors.
    And I think that the initiatives that I've put forward for 
2010 to significantly expand the number of professional 
acquisition procurement contracting officers who are full-time 
U.S. Government employees in place of contractors will put us 
in a better place, in terms of trying to deal with these 
contract problems.
    Our goal will be to have 4,000 of those people on board 
during fiscal year 2010 and 20,000 over the course of the 5-
year defense plan, and we're doing it also on professional 
services and management, and we hope to add 13,000 jobs in that 
category, displacing contractors in that category during fiscal 
year 2010, and 30,000 over the course of the 5-year defense 
plan.
    But this is a very high priority and it goes to some of the 
discussion that Senator Bond and I had. We can't afford to 
spend a single dollar that we don't have to, and because it 
takes away from resources to do other things, and to spend it 
on contractors who aren't doing their jobs is not just waste, 
fraud, and abuse, it impacts our capabilities.
    Senator Dorgan. Thank you.
    Chairman Inouye. Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman, and 
thanks to both of you for your service and your professionalism 
you bring to your jobs.

                       HOW MANY F-22S ARE NEEDED?

    Secretary Gates, you mentioned the F-22. You're familiar, 
I'm sure, with the comment made by the Chief of Staff of the 
Air Force, General Schwartz, who said that the military 
requirement for the F-22 was 243 and not 187.
    Now, I know the chairman doesn't want to get into a subject 
that isn't directly connected to the supplemental, but in the 
supplemental, you have some funds for unmanned aerial vehicles 
(UAVs). And one of the problems with UAVs, particularly in Iran 
and Syria, if we are required to use them there, is that they 
do not have stealth capability, and the F-22 does.
    So I'd be interested in your comment about the F-22. And I 
quote, Air Force leadership said that based on warfighting 
experience over the past several years and judgments about 
future threats, the Defense Department is revisiting the 
scenarios on which the Air Force based its assessment regarding 
the requirement for the F-22.
    Could you explain the scenarios that are being revisited, 
when and what the results were that caused you to make the 
decision to take the F-22 down from 187 to--from 243 to 187?
    Secretary Gates. First of all, Senator, the Chief of Staff 
of the Air Force and the Secretary of the Air Force are on the 
record and, in fact, in the newspaper saying that the program 
of record of 183 plus the 4 in the supplemental meets military 
requirements and is a sufficient number in their view.
    I think that the way the discussion about the F-22 has 
proceeded has been somewhat confused. The reality is that since 
2005, the program of record for the F-22 has been 183 aircraft. 
That's under two different Presidents, two different 
Secretaries of Defense, two different Chairmen of the Joint 
Chiefs of Staff, and the Secretary and Chief of Staff of the 
Air Force.
    So there's no cutting of the program. There is a completion 
of the program of record that has existed under both President 
Bush and President Obama since 2005. We can get into the jobs 
issue or anything else, but this is one that--where I think 
there has been some mischaracterization of what we're doing 
here. We are not cutting the F-22. We are completing the 
program of record that was established in the Bush 
administration and, frankly, if my top line were $50 billion 
higher, I would make the same decision.
    Senator Bennett. Thank you. Secretary Clinton, the chairman 
mentioned a reference to U.S. funding to Palestine that could 
fund the possibility of funding Hamas. Could you discuss that 
with us?
    Secretary Clinton. Well, Senator, there is no possibility 
of funding Hamas. That is absolutely not possible under the 
language of the supplemental, nor is it possible under our 
administration's policy.
    What we have said is that if there were to be, which at 
this moment, seems highly unlikely, a unity government that 
consisted of the Palestinian authority members from Fatah and 
any members from Hamas, the government itself, plus every 
member of the government, would have to commit to the quartet 
principles. Namely, they must renounce violence, they must 
recognize Israel, and they must agree to abide by the former 
PLO and Palestine authority agreements.
    And that has been our policy. That is what we have told our 
partners in Europe and elsewhere, which is why we've been very 
hesitant and quite unconvinced about any efforts to create a 
unity government, but so have the Palestinian authority. So 
there is no likely outcome that would present that, but if 
there were, the conditions are very clear.
    Senator Bennett. Thank you.
    Chairman Inouye. Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman, and 
welcome to both of you, and my congratulations to the jobs that 
you're both doing. And Madam Secretary, it's a political 
delight for me to see you at this table, as you know, so thank 
you for being here.

                      MORE TROOPS FOR AFGHANISTAN

    Secretary Gates, I've been trying to understand the number 
of troops that we have committed to Afghanistan. As I look at 
it, it's 63,000, with a request from General McKiernan for 
10,000 more. Is that a correct analysis?
    Secretary Gates. Senator, the level of troops that the 
President has approved to this point is 68,000.
    Senator Feinstein. And McKiernan's request is still out----
    Secretary Gates. He has--the request is out there. It is 
for troops that would not go to Afghanistan until well into 
2010. And CENTCOM has not--Central Command has not forwarded 
that additional request to the Pentagon at this point.
    My own view is that before recommending those additional 
forces to the President, I think we ought to see how the forces 
that we are committing today, have already committed, are 
performing and what the real requirement is toward the end of 
this year or early next.
    And particularly, given the fact that those troops or those 
forces wouldn't go, even if the President did approve them, 
until well into 2010, but it goes to a larger concern of mine 
that I've spoken about publicly, and that is that I worry a 
great deal about the size of the foreign military footprint in 
Afghanistan. The Soviets were in there with 110,000 troops, 
didn't care about civilian casualties, and couldn't win.
    With our North Atlantic Treaty Organization (NATO) allies 
and other partners, with the troops the President has approved, 
we will be at about 100,000. And so I think we need to look 
very carefully at how our strategy is proceeding some months 
down the road before I would contemplate forwarding a 
recommendation for additional troops to the President.

                           SITUATION IN IRAQ

    Senator Feinstein. Well, thank you very much. I don't think 
most people in America know the size and number. And I think 
there's a real concern that we just get drawn in and drawn in, 
and we're into it like we were in Iraq over a substantial 
period of time, which raises the subject, and that is Iraq, and 
that's Sadr City, and that's the five suicide bombings 
yesterday, the four last week, the very substantial loss of 
life.
    And a sentence in this morning's New York Times--and let me 
read it to you and get your response--Mr. Maliki is torn 
between demands for the United States and some Sunni leaders to 
reconcile with some former members of the Hussein government 
and the Shiite partners who reject an accommodation. What is 
that all about?
    Secretary Gates. Well, first of all, I think having just 
had a conference call with General Odierno a couple of days 
ago, or teleconference, his judgment and the judgment of his 
commanders is that most of the violence that we are seeing in 
Iraq today, these suicide bombings, are, in fact, the work of 
Al Qaeda in Iraq.
    They are clearly--they have a campaign that they started 
about 6 weeks ago. There's even a name for it that Al Qaeda 
has, and I can't remember it. But they are clearly trying to 
take advantage of our drawdown and particularly our drawing 
back away from the cities to try and provoke a renewed round of 
sectarian violence.
    So this has less to do with Maliki's political decisions 
and who he's reaching out to. I mean, the latest information we 
have is that he's reaching out to some of the Sunni groups. He 
does have a problem with the Ba'athist party and Saddam 
Hussein's--some of the people who worked for Saddam Hussein.
    But he is reaching out to other Sunnis, in terms of 
political alliances. But the judgment of the commanders is this 
is an orchestrated effort on the part of Al Qaeda to try and 
provoke the very kind of sectarian violence that nearly tore 
the country apart in 2006.
    Senator Feinstein. My time is up. Thank you very much, Mr. 
Secretary.
    Chairman Inouye. Thank you. Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman. Thank you to 
both Secretaries for your service and for being here. Senator 
Feinstein's questions provoked me to--and some of the others 
make me ask this question.
    Do you think, Secretary Gates or Secretary Clinton, either 
that sometime within the next several months, that it would be 
appropriate for the President to present to us his strategy for 
Afghanistan and for there to be some sort of expression of 
support for it in the Congress?
    I would start with Secretary Gates, because the war in Iraq 
became President Bush's war. And in the last few years of it, 
there was not bipartisan support in the Congress for 
conclusion. Several of us tried to take the recommendations of 
the bipartisan Iraq study group, on which you served for a 
while, Secretary Gates, and we couldn't get agreement between 
the Senate leadership, Democratic, and the Republican 
President.
    Upon that, even though we've ended up today with a 
conclusion in Iraq that is about the same as that envisioned by 
the Iraq study group some time ago, in which President Bush and 
President Obama both seem to agree on now, it would seem to me 
that it would be more effective--it would send a more effective 
message to our enemy and a more effective message of support to 
our troops if we made sure that the war in Afghanistan doesn't 
become President Obama's war in the same way that Iraq became 
President Bush's war.
    And would not one way to help make sure that does not 
happen be for the President to take his time to develop a 
strategy before we move ahead with many more troops, for us to 
vote on it and say, ``Yes, we agree with you, Mr. President. We 
want our enemies to know that, and we want our troops to know 
that.''

                SUPPORT FOR THE STRATEGY IN AFGHANISTAN

    Secretary Gates. Well, Senator Alexander, I think that 
that's basically a political call. I guess I would just say 
from my standpoint that anything that can be done that conveys 
strong bipartisan support for what the President is trying to 
accomplish in Afghanistan has value, because it is a fact of 
life that our adversaries, as well as our friends, read the 
press avidly, and they are very well aware of what's going on 
in this country.
    I was stunned when I was in RC East and Khost province 1\1/
2\ years ago, and a village elder, in his robes and everything, 
said he had read my Landon Lecture at Kansas State University 
on the Internet. I said, ``Where do you plug it in?''
    But I think--so they are watching, and anything that 
conveys a strong bipartisan support for what the President is 
going to do and that we will see this through to a successful 
outcome has value. What the best way to manifest that is, I 
think is for people who are more politically aware than I am.
    Senator Alexander. I wonder, Secretary Clinton, the words 
see through to the end whatever our mission is, is essential in 
support of our troops. What would be your response to that?
    Secretary Clinton. Well, Senator, I do think that there's 
value in that approach, because I believe that the country 
needs to be engaged, along with our Government, in thinking 
through what is at stake here.
    We did, in many ways, create the problem we're now coping 
with. During the 1980s in our struggle against the Soviet 
Union, which had invaded Afghanistan, we created a funding 
stream. We trained. We armed Mujahaddin and their allies in 
both Afghanistan and Pakistan.
    And then once the Soviet Union retreated and fell, we were 
not paying attention. Others were. Most particularly, bin 
Laden, who knew that there could be a safe haven amidst that 
chaos in Afghanistan. So I think that there are many legitimate 
questions to ask about the situation we confront today.
    And I hope that from both Secretary Gates and myself, 
you're not hearing any message, other than our recognition this 
is hard, and we are trying the best we can to come up with an 
integrated civilian-military strategy along the lines that many 
of you have referenced.
    But I think it's important for the American people to be 
engaged, as well as the Congress. And this supplemental, of 
course, begins that discussion, and I think it could be quite 
helpful and productive.
    Senator Alexander. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you. Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman. Madam Secretary 
and Secretary Gates, your partnership here is extremely 
powerful. And it is immensely encouraging to me and to my 
constituents and to many of us about this new approach, this 
enlightened approach, and this hopefully successful approach 
that you all have outlined this morning.
    Several of my questions have been asked. I want to 
associate myself with the Senator from Maryland and her 
questions about women and girls. I'm completely sure that 
you're the best person for that job, Madam Secretary, but let 
me ask this.
    The National Solidarity Program (NSP), from some experts, 
is one of the most successful and cost-effective aid programs. 
I understand it operates in thousands of villages. Its method 
of electing councils mandating the inclusion of women, its 
literacy education, business training, I understand has been 
effective.
    My question is, what is your view of this program? Is it as 
effective as I've been led to believe? Are there 20,000 shovel-
ready projects ready to go, and is it being funded? And if not, 
what can we do to support it?
    Secretary Clinton. Senator, I am absolutely in agreement 
with the tone and substance of your question. The National 
Solidarity Program is an important tool. It has been very 
successful. I want to reiterate that the United States 
Government funds the NSP through the Afghanistan Reconstruction 
Trust Fund. It's a facility managed by the World Bank.
    And from fiscal year 2004 to 2008, USAID has given $100 
million to the NSP. In this 2009 supplemental, we are 
requesting $85 million in additional funding for the Afghan 
Reconstruction Trust Fund, which we intend to target toward the 
NSP. I think there is more we could do. It's exactly the kind 
of program that sort of makes our case. It's on the ground. 
It's Afghans in the lead, supported by technical assistance and 
expert liaisons. And it is, I think--I was last told 24,000 
villages. So we are very strongly in support of this.
    Senator Landrieu. Thank you. And Mr. Chairman and ranking 
member, I would just ask you all to make special note of this 
particular program. It's small, but has such potential to make 
a difference, and we'll be following up as we go through this 
process.
    My second question, Senator--I mean, Secretary Clinton, is 
about USAID. I know we've had several, but it's a different 
twist to it. I understand, and I'd like you to clarify for us, 
both of you, if this is correct.
    I asked for a review about the dangers facing Afghan 
workers in Afghanistan. The casualty rate for USAID employees 
and locally engaged employees, I understand, is 1 in 10, as 
opposed to the casualties of our military, Secretary, 1 in 57. 
Can both of you comment about what we're going to do to provide 
the--if this is correct, what are we going to do to provide the 
security that our aid workers need to obviously carry out this 
mission that both of you have thought so clearly about and 
articulated this morning?
    Secretary Clinton. Well, Senator, those are the best 
numbers that we have available. Obviously, any loss of life of 
any of our young men and women in uniform is a matter of grave 
concern to us. Many of the casualties on the civilian side, as 
you rightly point out, are non-U.S. contract employees, NGO 
employees, locally engaged Afghans.
    But the numbers are quite disturbing, and it is a problem 
for us. And that's something that Secretary Gates and our 
respective teams are working on, how do we provide the security 
necessary?
    You know, if you look at Iraq and the PRTs that have been 
embedded with our military, they've been very successful 
because they did have that security backup. In Afghanistan, we 
expect there will also be initially a lot of support from our 
military for our civilian workforce.
    But we want to be effective, and we're going to go places 
that the military may not see as a high priority. And it is a 
concern to me personally, as I know it is to the rest of the 
Government, and we're trying to figure out the best ways to 
provide that.
    I mean, these are war zones. I mean, it's dangerous for our 
military or our civilian personnel. But because our civilians 
are not armed and are not equipped to defend themselves unless 
there is a military presence or a contractor providing that 
support, we have to be very careful about how we proceed.
    Senator Landrieu. Thank you.
    Chairman Inouye. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. Secretary 
Clinton, I want to follow up on Senator Mikulski's concerns 
about the treatment of women at a time when we're proposing to 
ramp up our economic assistance to Afghanistan.
    The first time that I met Hamid Karzai was in 2003, and it 
was before he was president, but he had been brought back to 
Afghanistan. And I recall it so well because he seemed so 
committed to reopening schools for girls, and pledged 
personally to me that better treatment of girls and women would 
be among his highest priorities.
    Then you and I, on a subsequent trip to Afghanistan, met 
with a group of Afghan women, and it looked like real progress 
was being made. But now, Afghanistan is going backward in its 
treatment of women.
    We've seen President Karzai sign a highly repressive law 
that, among other provisions, actually legalizes marital rape. 
And it's troubling to me that the American taxpayers are being 
asked to ramp up assistance to Afghanistan at a time when the 
treatment of girls and women is becoming more repressive.
    So my question for you is are we conditioning this 
additional assistance on any standards for the treatment of 
girls and women?
    Secretary Clinton. Senator, we are making it very clear 
that among our now more limited priorities, the treatment of 
girls and women stays right at the core of what we're doing. 
And as we are meeting with the Afghan Government and President 
Karzai next week in our second trilateral meeting with the 
Pakistani Government, we will be raising these issues and 
demonstrating clearly to them how seriously we take this.
    I have to say too that I was very disappointed by that law 
going through the Parliament. I have spoken with a number of 
officials in the Afghanistan Government, and I think this is 
one of those where they viewed it as a request by a minority 
group, and with a straight face, were saying, ``Well, no, we 
still support women. It's just something that is demanded for 
this minority.'' And we made it very clear that that just was 
not acceptable, that we wanted clear, unequivocal commitments 
to the well-being of women and girls.
    Now, in many ways, the situation has improved the number of 
schools that are operating. But as we look at our objectives in 
some of the most difficult areas of the country, certainly the 
Taliban uses intimidation against girls going to school--
throwing acid in their face, burning their schools down, 
threatening their families if they send the girls to school.
    And we're going to make it clear that the United States and 
our European allies and others who are working with us in this 
are just not going to stand by and let that happen.
    Senator Collins. Good.

                          HELP FROM EUROPEANS

    Secretary Gates. I would just add, Senator, that just to 
pick up on Secretary Clinton's last comment, this is an area 
where we actually have a lot of help from the Europeans. They 
are very conscious of not just the treatment of women and 
girls, but other kinds of repressive actions, such as the 
treatment--the criminal treatment of children, and other things 
like that, where they react very strongly to that, and they 
carry that message directly to President Karzai and other 
members of the Afghan Government.
    Senator Collins. Thank you. Thank you both.
    Chairman Inouye. Thank you. Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman. Thank you both for 
being here today. I think we're all encouraged by the 
partnership that you've been able to put together between State 
and Defense, and we wish you well in your endeavors to bring 
together the various activities, because they are interrelated.
    And I'm encouraged, as well, that, Secretary Gates, you've 
made it clear from the very beginning that we will not win 
simply by military means alone. That's why it's so important 
you do this. Before we get mired down in the new budget, we 
probably ought to step back for a moment and look at the 
mission that we really want to achieve in Afghanistan.
    As you know, I've been one who pushed for benchmarks or 
measurements that we can measure what it is that--what our 
success is in important areas we might proceed. I've been 
encouraged, as well, by the recognition that having the 
equivalent of benchmarks, if not by that name, the equivalent 
of some metric to evaluate how we're doing in these critical 
areas where we have goals that are set.
    And I wonder if you might update us on what's going on, 
because some of them are obviously going to be State goals and 
some are going to be Defense goals. And I wonder if you might--
I'll start with you, Secretary Gates, and then Secretary 
Clinton.

                       BENCHMARKS FOR AFGHANISTAN

    Secretary Gates. The benchmarks are still--or I guess we're 
going to call them measures of effectiveness, are going to--are 
I think well advanced at this point, but still haven't come to 
the principal's level for approval and forwarding to the 
President.
    But based on the preliminary looks that I've had, the 
measures fall into three categories: security, development, and 
governance. And they apply to both Afghanistan and Pakistan. 
And so those categories will be in each of the three.
    And I think that one of the reasons that I have strongly 
supported this is that, before we can come up here, we need to 
be in a position to evaluate honestly and without sort of 
rolling the goals in front of us to see whether we're making 
progress 6 months from now on the issues that today we think 
are important.
    And I think that there's a real commitment on the part of 
the administration to do this, and I think the benchmarks are 
going to be pretty elaborate when they're completed.
    Secretary Nelson. Secretary Clinton.
    Secretary Clinton. Senator, I remember sitting, sometimes 
in this room, occasionally over in Hart in the Senate Armed 
Services Committee, and our constant effort to try to get some 
measures of performance, some metrics that we could judge. And 
it was a moving target, and it was very difficult. And you and 
others were real leaders in trying to achieve that.
    We're going to start this effort with such metrics, I mean, 
exactly what Secretary Gates said, in the three big areas, but 
then broken down into much smaller bites. And we're going to be 
measuring from every perspective. Whether it's diplomatic and 
development efforts or military efforts or intelligence efforts 
or agricultural development, we are going to have a list of 
such measurements.
    So I hope that the Congress will give us a chance to put 
these in place and then be able to brief you on them and report 
to you on them, because I think that it will be a better 
approach if we can do this within the context of the different 
departments and not legislatively mandated at this point.
    But we really agree with you completely that this has to be 
part of our mission going forward to figure out how effective 
we're being, and they are pretty far advanced. And obviously, 
we'll be sharing them with you and seeking ideas or suggestions 
as well.
    Senator Nelson. Will they be made public? Will the 
measurements be made public?
    Secretary Clinton. Well, some could not be because they 
would be classified and military mission-related, but we 
haven't made a final decision. Certainly they could be shared 
with the Congress. Whether they could be in some form made 
public is a question that we will try to answer affirmatively, 
because it's part of what we're hoping to do, which is to 
enlist broad support for what we're attempting.
    Senator Nelson. It would help develop the support. I 
appreciate it very much. Thank you both. Thank you, Mr. 
Chairman.
    Chairman Inouye. Thank you. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman. Both your answers 
to that last question were really music to my ears because, 
like Secretary Clinton said, we've pushed hard over the last 
several years to try to get some way to measure success or 
progress in Iraq, and it's very difficult. And basically, from 
my standpoint, it never really happened.

                   GREATER ACCOUNTABILITY ON PAKISTAN

    Secretary Gates, let me ask you, if I may, and make sure I 
understand your previous answer. What you're saying is this is 
a pretty sharp departure from the previous administration, that 
you're trying to establish internally a real measurement of the 
effectiveness and of the progress that we're going to be making 
in Afghanistan; is that fair to say?
    Secretary Gates. Yes, sir. And I felt fairly strongly--
having been through the experience with Iraq 2 years ago, I 
felt it was very important that the administration take the 
initiative on this and say, ``We will hold ourselves 
accountable, and here are the things we will hold ourselves 
accountable to.''
    Senator Pryor. I think that's great. And as Secretary 
Clinton alluded to, if you could share that with the Congress, 
that would be most helpful, and whatever you can make public 
that would be appropriate, I think would help the American 
people understand what we're doing there.
    Secretary Gates. Well, as Secretary Clinton said, there's 
no question about what we'll share with the Congress, and we'll 
make public as much of it as we can.
    Senator Pryor. That'd be very much appreciated. Let me ask 
also, Secretary Gates, about the request for $400 million for 
the Pakistan Counterinsurgency Capability Fund.
    As I understand it, we have been giving Pakistan money in 
years past, but there hasn't been a lot of accountability, and 
my belief is that they've been taking at least some of our 
money, and maybe most or all of our money, and actually moving 
it over to the eastern side of the country, using it to beef up 
their defenses, et cetera, against India, rather than helping 
in the international effort that we wanted them to help on in 
the other parts of their country.
    What sort of accountability will you put on this money in 
Pakistan to make sure that it is spent in accordance with the 
United States' purpose?
    Secretary Gates. Well, first of all, let me make clear the 
distinction between the coalition support funds that we have 
paid the Pakistanis over the past 7 years and this PCCF. The 
coalition support funds are all reimbursements of the 
Pakistanis. They make a claim to us. It's reviewed by our 
Defense office in the Embassy in Islamabad. It's then reviewed 
by Central Command. Then it's reviewed by the Comptroller at 
the Defense Department before the reimbursement is provided.
    We have taken some steps after this became an issue last 
year. We tightened these procedures significantly in June 2008 
to ensure that these measures were being--that the 
accountability issues were being applied consistently, that 
there was somebody clearly responsible, and that's the 
commander of Central Command. And then also, to ensure that the 
Pakistanis--that we provided some assistance to the Pakistanis 
so they could help meet our demands for accountability. There 
were just some capabilities, accountants and so on, that they 
didn't have.
    So I think we're in a better place for that. And the 
reality is because it's a reimbursement, they then can spend 
the money however they want, because it's a claim that they 
filed with us.
    On the PCCF, these are funds that we will be applying 
directly to border security, to training. The funds would be 
used, for example, to build the border coordination centers. 
They would be used for the training of the Frontier Corps, and 
so we know that the training camps are being built for the 
Frontier Corps. So these are things--the money that we will be 
allocating for this will be for things we can see and that we 
can document where that money has gone.
    So I think it's a very different kind of thing, in the 
sense that it's not a reimbursement, but it is for training and 
equipping of the security forces and related counterinsurgency 
strategies. I know there's been some concern here on the Hill 
about whether this money ought to be in the State Department or 
it ought to be in the Defense Department.
    And what Secretary Clinton and I have agreed that we would 
recommend very strongly to the Congress is let's do it this way 
for the fiscal year 2009 supplemental. Let's see if there's a 
way that we can--part of the problem is authorities and 
capacity in the State Department to be able to apply this money 
with the agility Secretary Clinton was talking about, like the 
CERP funds.
    So then our proposal would be to see if we can work with 
the Congress to have a way that the money can be allocated, 
appropriated to the State Department in fiscal year 2010, but 
with the authority for an immediate pass-through to the 
Department of Defense to implement it. And then we would use 
fiscal year 2010 to build the capacity and get the Congress to 
approve the kinds of authorities that would give the State 
Department the capability to administer the money and manage 
the money beginning in fiscal year 2011.
    Senator Pryor. Thank you. And again, that gives me a lot of 
comfort, and I appreciate that. It's great to see you both. 
Thank you.
    Chairman Inouye. Thank you. Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman. First of all, I 
want to congratulate all of you on what I refer to as the Obama 
doctrine, and that is smart power. And it's nice to see the 
relationship the two of you have built. And I've had a chance 
to talk to General Jones last week, and I'm very pleased with 
what you're doing.
    One of the things that's coming up more and more often when 
I go back to Ohio are people are asking me, ``How can we 
continue to be Uncle Sugar to the world?'' And the question 
they're asking is have we set priorities in terms of where 
we're going to invest our time and material and our men and 
women, and what is the capacity to respond financially to these 
challenges that we have?
    If you look at this supplemental, if it passes, and 
probably will, this deficit for 2009 will be over $2 trillion, 
14 percent of the gross domestic product (GDP). Most people 
agree that in the next 5 years, we'll double the debt; triple 
it in 10 years.
    We're really in a financial crisis here today in this 
country. People are out of work and they're wondering what's 
going on. How can we keep going?
    And I would suggest to both of you, all of you that are in 
the non-entitlement programs in the silos, to talk to the 
President and Peter Orszag about it's time for us to deal with 
entitlements and tax reform in this country. And if we don't do 
it, we're going to do away with our credibility, in terms of 
the rest of the world, and our credit will be zilch.
    Now, that being said, and I think it's really important 
that we get at this thing right now, because people around the 
world are worried about what we're doing. Some of them can't 
even believe it. And the same people are asking us for help.
    The question I have for Afghanistan is this. I remember in 
2003, when I put my foot down and said we weren't going to have 
any more than a $350 billion tax reduction, the President of 
the United States and Vice President and everybody else said, 
``Don't worry, George. The spending in Iraq's going to be taken 
care of. You don't have to worry about it.''

                  LONG-RANGE STRATEGY FOR AFGHANISTAN

    Well, it wasn't. Now we're talking about Afghanistan. And 
what really worries me is do we have a comprehensive plan? I'm 
talking about long range. How long's it going to take? How much 
money is it going to take? How many of our military are going 
to have to be there? What kind of infrastructure are we going 
to have to build? In addition to that, what role are our NATO 
allies going to be playing? I've talked with the Brits. They 
said, ``We're stretched. We can't do it.'' I've talked to the 
French. ``We're stretched. We can't do it.''
    Now, Afghanistan was supposed to be a test of NATO, and we 
still have people over there with KVS. I'd like to know, has 
anybody really sat down and looked at where are we going, how 
long, and talk to our allies about what their responsibility is 
going to be, militarily, infrastructure-wise, humanitarian, and 
all the other stuff that we've talked about, or is this going 
to fall back right in our laps, for the most part, like Iraq 
has?
    Secretary Gates. Well, Senator, in my view, I think we have 
looked at the longer-range strategy. I think we have set some 
clear priorities and clear goals that are more realistic. There 
is no question that this is a multiyear undertaking.
    I would tell you that we all wish that our allies would do 
more, but the reality is, they are doing a lot. They have 
32,000 troops in there. They are taking serious casualties. The 
Canadians, the British, the Danes, the Australians, the Dutch 
are in the fight in a big way, and now so are the French. And 
the north and the west are mainly quiet, but the Germans have 
thousands of troops there in the north and the Italians in the 
west, along with the Spanish.
    They are responsible for more than one-half of the 
provincial reconstruction teams. They run 53 of the operational 
mentoring and liaison teams, and have promised to fund 103 by 
the end of 2011.
    So do I wish they had more there? Sure. Do I wish they 
would donate more to the Afghan National--the trust fund for 
the Afghan National Army? Yes. But the fact is, they are 
participating and they are paying, and they are paying with 
blood as well as treasure.
    I believe that an honest answer to your question is that we 
will have to have troops in Afghanistan for some period of 
years. I think the exit strategy for all of us is a more 
effective Afghan Government, but especially, an effective 
Afghan National Police and effective Afghan National Army 
partnering with us initially, and then taking sole 
responsibility over time, as well as some measure of improved 
governance, so that people who are sitting on the fence in 
Afghanistan come over on the government's side.
    So this is hard. It's going to cost us more money. But the 
reality is, I think most Americans understand that we were 
attacked out of this country in 2001, and that if we don't see 
this thing through, then the same people who attacked us in 
2001 will reestablish a safe haven there, where they have the 
capacity to plan sophisticated attacks against us.
    Chairman Inouye. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman. I want to thank 
both of you for being here. We're getting toward the end of a 
fairly long hearing, but I appreciate your answers and your 
matter-of-factness.
    A couple of things. The Yellow Ribbon Program, Secretary 
Gates, I appreciate you expanding that out. I think that's a 
great program, and I think it's a program that will serve our 
fighting men very, very well.
    I want to say a little bit about agriculture very quickly. 
Secretary Clinton, you talked about it a little bit, and I 
would just say this. I don't know that culture. You guys know 
that culture far better than I do. But I can tell you this. As 
a farmer, to go in and douse the crops with a herbicide or 
pesticide and kill them, that's a far bigger loss than money 
can pay for. And so I hope that we're looking at the synergy 
between the farmer and the ground and all of that. I agree 
they're raising a crop that they need to replace it with 
something that's a consumable that'll help their country, but 
if you want to make somebody really, really mad for a long, 
long time, especially a farmer, just go in and take out their 
livelihood.
    A couple of things. This kind of dovetails onto--one of the 
things that makes people anxious, I think, about Afghanistan is 
we're still in Iraq, and we saw we had people supposedly that 
were helping us, our allies, and pretty soon, it was a one-man 
band. So the points that Senator Voinovich makes, I think, are 
solid, how we keep our allies involved in a part of this 
equation. Because, quite honestly, the war on terror doesn't 
just apply to the United States. It applies to everybody in the 
world.
    What about non-military costs? Are our allies stepping up 
to the plate in that realm? And either one of you can answer 
the question.
    Secretary Clinton. With respect to Iraq?
    Senator Tester. With respect to Afghanistan's rebuilding.
    Secretary Clinton. Afghanistan? Yes. In fact, what 
Secretary Gates just recited, in terms of the support that we 
are getting from our allies in Afghanistan, it's not just in 
military. In fact, I think every country that has troops on the 
ground also has civilian help on the ground, and some countries 
that don't have troops on the ground have come forth with 
civilian help. So we are seeing that.
    Senator Tester. Have those countries stepped up with 
monetary help also?
    Secretary Clinton. Yes, they have. And, you know, as 
Secretary Gates said, not as much as we would want, but in some 
ways, more than we expected.
    Senator Tester. Is it about in the same proportion as the 
troops? You said 68,000 to 32,000. Is it about in that same 
proportion, as far as our effort compared to our allies' 
efforts?
    Secretary Clinton. You know, I don't know the answer to 
that, Senator. We'll find the answer and give that to you.
    Senator Tester. I appreciate that.
    [The information follows:]

    The United States has pledged approximately $35.5 billion 
to Afghanistan since 2001, according to the Afghan Ministry of 
Finance (57 percent of total international contributions). 
After the United States, the United Kingdom, World Bank, Asian 
Development Bank, and Japan are the next largest donors, 
pledging a combined total of roughly $10 billion. In total, the 
international community has pledged $26.5 billion to 
Afghanistan since 2001 (43 percent of total).
    The last Afghanistan donors' conference was held in Paris 
in June 2008, which resulted in over $20 billion in pledges. 
Responding to our intensified civilian effort, many 
international partners have approached us to discuss expanding 
and targeting current and new assistance. Consequently, we are 
exploring holding another donors' conference, focused primarily 
on donor coordination.

    Senator Tester. We've got funding, $800,000 for Pakistani--
$800 million, I'm sorry. $800 million for U.N. peacekeeping, 
$200 million for Georgia, several of them. Just curious why 
these aren't in the 2010 appropriations request, and why are 
they here and not in that?
    Secretary Clinton. Well, I think on a number of those, 
these are commitments that were made that need to be fulfilled 
before we would finish the deliberations on the 2010 budget. 
What we've tried to do is be very, very careful about what we 
put in the supplemental. Because, as the chairman said at the 
very beginning, this is our last supplemental. We do not want 
to fund our Government in these important projects by 
supplemental. But there is a pipeline problem that we're trying 
to cure by getting the money where it needs to be.
    Senator Tester. So it's time sensitive, and it wouldn't be 
there in time if it was in the 2010 budget?
    Secretary Clinton. Yes, sir.
    Senator Tester. Okay. Thank you. Thank you very much. Thank 
you, Mr. Chairman. Thank you both.
    Chairman Inouye. Thank you. Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman. Secretaries, 
welcome here. I'm glad to hear your speech at K-State got sent 
around the world, Secretary Gates. If you ever want to get a 
message out to the far corners of the world, just come to 
Kansas State University. It'll get out and get expressed.

                          RELOCATING DETAINEES

    I wanted to let you know, on the Guantanamo Bay detainees, 
this is a hot topic in my State with Fort Leavenworth there, 
and it's a hot topic with your commander at that base, whose 
primary mission is educational.
    And we've got 90 countries represented there, and we've had 
several Muslim countries already tell us if the detainees are 
moved to Fort Leavenworth, we're not sending Army officers to 
be educated at Fort Leavenworth, because they don't think they 
should be detained, period, let alone being at the same spot 
that they're going to put their future command officers.
    So please, not at Leavenworth. I think you should look 
overall, and I'm glad you're looking at Europe with that. But 
it's a big topic in my State, and I think it really hurts the 
Command General Staff College at Leavenworth. And I would hope 
you would ask a number of Islamic countries, if you are even 
considering Leavenworth, the impact, because I really think it 
would have a negative one there.
    Secretary Gates. I look forward to telling Secretary 
Sebelius that I, in fact, got her letter.
    Senator Brownback. Good. Second, on food aid, Secretary 
Clinton, I know you've been interested in this a long time. I 
have been, and I'm very frustrated about AID and food aid 
generally.
    Let me just--an idea that we've been kicking around for 
some time that we're just not getting the bang for our buck on 
this, is looking at what the military does on a quadrennial 
review of food aid, and just requiring this every 4 years, so 
that you get some structure that more reflects the global 
situation.
    We put a fair amount of money into this, and I just don't 
think we get where we need to on it, and I would love to work 
with you on something like that.
    Secretary Clinton. Senator, I would really welcome that, 
and we will send someone to brief your staff and yourself, if 
you would be willing to do so, about the approach that we're 
taking.
    You know, I believe strongly in the old adage, better to 
teach someone to fish than to give them a fish, and I think 
what we're trying to do is to shift our focus back to where it 
was in the 1960s and the 1980s, when the United States led a 
green revolution. It's complicated. It has to be approached in 
a very thoughtful manner. But I think we've got some good 
ideas, and we'd love to have you involved.
    Senator Brownback. I think we probably need to 
institutionalize some of that. I also applaud your efforts on 
H1N1 and working with particularly like Mexico to head it off 
and help them with vaccines. The child that died in Houston was 
from Mexico, my guess is trying to get some assistance and 
help.
    Finally, on North Korea, I am just beside myself on what 
has happened. I mean, they've launched a multistage missile. In 
the paper today, they're talking about detonating another 
nuclear weapon. And then in this supplemental, please, you're 
asking the Congress to put in nearly $100 million of economic 
support for North Korea.
    And I look at this and I think, ``This is exactly the wrong 
message we should be sending.'' President Obama, when he was 
candidate Obama, said that North Korea doesn't perform, we 
should--and he said--I'm quoting this directly from a June 26 
last year speech--``We should move quickly to reimpose 
sanctions that have been waived and consider new restrictions 
going forward.''
    My goodness, if they haven't done enough now to merit this 
situation, double state of missile, leaving the Six-Party 
Talks, kidnapping two U.S. citizens, restarting a nuclear 
facility, if they haven't done enough to merit putting the old 
sanctions back on and looking for that alone, trying to give 
them aid in this supplemental, I really think that's the wrong 
message for us to send.
    Secretary Clinton. Well, Senator, let me assure you that 
that money is in there in the event which, at this point, seems 
implausible, if not impossible, the North Koreans return to the 
Six-Party Talks and begin to disable their nuclear capacity 
again. We have absolutely no interest and no willingness on the 
part of this administration to give them any economic aid at 
all unless they----
    Senator Brownback. Including fuel oil?
    Secretary Clinton. Absolutely. That is my very strongly 
held belief. I mean, they are digging themselves into a deeper 
and deeper hold with the international community.
    I think they were shocked we were able to get the Chinese 
and Russians onto such a strong statement in the United 
Nations, specifically saying that their missile launch 
contravened the Security Council Resolution 1718. And then they 
were further shocked when we got the Chinese and the Russians 
to agree on tough sanctions on some of their financial 
institutions.
    So we are very serious about trying to make it clear to the 
North Koreans that their recent behavior is absolutely 
unacceptable.
    Senator Brownback. Thank you.
    Chairman Inouye. Senator Lautenberg.
    Senator Lautenberg. Thank you, Mr. Chairman. And I thank 
each of you for the work that you're doing and, Secretary 
Gates, the fact that you're carrying over and we're not 
discussing parties and things of that nature, I commend you for 
that.
    And, Hillary Clinton, we miss you here, but we are so 
pleased that you're going on with the task that you are. You 
are firm without being a bully. You're intelligent without 
causing our allies, or the ones we need to develop friendships 
with, feeling like we're dismissing their needs. And we're 
proud of each of you.
    And let me ask a question here. Last year, I wrote a law to 
establish an inspector general position for Afghanistan 
reconstruction. The nomenclature was CGAR. Congress has 
appropriated $16 million for that post, and I'm pleased the 
President has added additional funds in the supplemental so 
this office can hire more staff and get to work.
    What are the lessons that we've learned in Iraq that can 
help us prevent the abuses that were so obvious and abundant in 
Afghanistan?
    Secretary Clinton. If I could just----
    Senator Lautenberg. In Iraq. I'm sorry.
    Secretary Clinton. Thank you, sir. Thank you for those kind 
comments, Senator. I really appreciate them. What we're trying 
to do with our own internal measurement performances with more 
accountability, and I have personally told the Afghanistan 
inspector general's office that we don't want them to wait and 
just give us a report that something's going wrong. We want 
them to be an early warning signal. I mean, if they are doing 
investigations and they see something that is not appropriate, 
let us know. Don't let it go on.
    We're going to try to have a very clear set, both of 
measurements and of early warning signals, so that we can get 
ahead of some of these problems that you've rightly pointed 
out.
    Senator Lautenberg. We have to do that, because it's very 
hard to close that barn door once the horse is gone and expect 
any kind of a result. I ask this question about Iran. And 
either one of you expressing an opinion would be of value.
    The President stated any engagement of Iran would be 
limited, and if there's no progress, the United States will 
pursue serious sanctions. And while I hope those talks will be 
fruitful, I hope that we would be serious about imposing strong 
sanctions, including a loophole that has allowed subsidiaries 
of American companies to do business with Iran, establishing 
sham locations in the Caribbean, and then extending them so 
that we can do first-hand business.
    Should we make sure that that door for American companies 
to be profiteering, as happened in Iraq while assaulting our 
people, shouldn't we close that door once and for all? Madam 
Secretary, what do you think?
    Secretary Clinton. Well, Senator, we are operating on two 
tracks. We do have an intensive consultation effort going on 
with friends and like-minded nations, not only in the region, 
but elsewhere in the world, concerning the threats that Iran 
poses, not only with its nuclear ambitions, but its 
interference with the internal affairs of many countries, its 
funding of terrorism, and so much else that is deeply 
troubling. And we believe that our outreach and our 
consultation lays the groundwork for tougher international 
sanctions.
    But I agree with you that we ought to look to make sure 
that we have our own house in order as to any of the sanctions 
that we should be implementing going forward.

                     OPTIONS FOR DEALING WITH IRAN

    Senator Lautenberg. And Secretary Gates--and I promise you, 
Mr. Chairman, this is it. Are we limited to two options to 
control what might be going on with Iran and the nuclear 
development? Is it sanctions or military engagement? What else 
is left to us, other than that?
    Secretary Gates. I think that the one thing that's clear is 
that the Iranians hate being isolated. All of the information 
we get indicates that however imperfect the U.N. resolutions 
against Iran are, the Iranians hate it when one of those 
resolutions passes, because it makes clear how isolated they 
are in the world.
    My view is that the only way to eliminate an Iranian 
determination to have nuclear weapons, in my opinion, is for 
that government to make that decision. Even a military attack 
will only buy us time and send the program deeper and more 
covert. How do we get them to decide that it's not in their 
interest to pursue nuclear weapons?
    It seems to me partly it's economic pressures, partly it's 
diplomatic isolation, partly it's seeing their neighbors 
beginning to band together to collaborate on air and missile 
defense that is aimed only at Iran. It's one of the reasons I 
think there is value in pursuing a partnership with the 
Russians on missile defense in Europe and in Russia itself.
    And I think all of these things, combined with a diplomatic 
door that they can walk through if they choose to do so, so 
that they don't feel like they've been backed into a corner and 
have no choice but to go forward, plus trying to persuade them 
that their security interests are actually badly served by 
trying to have nuclear weapons, that they will spark a nuclear 
arms race in the Middle East, and they will be less secure at 
the end than they are now.
    So I think there are alternatives to the military. The 
military option, as I say, is at the end of the day still only 
a temporary option. And so I think it's the panoply of these 
things put together in a coordinated policy and with the help 
of our allies and partners and, frankly, important countries 
like Russia and China, that I think offer the best chance. And 
I would tell you we've got a better chance of making it work on 
$40 oil than we do on $140 oil.
    Senator Lautenberg. Well, Madam Secretary, you have an 
enormous job, as we've just heard from the Secretary. Thank you 
very much, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. Thank you. Secretary Clinton, Secretary 
Gates, on behalf of the committee, I thank you for your 
attendance and your testimony today. As you know, colleagues 
have submitted questions to you, and I hope that you can 
respond to them and return your answers by next Wednesday, to 
prepare ourselves for the markup.
    [The following questions were not asked at the hearing, but 
were submitted to the Departments for response subsequent to 
the hearing:]

             Questions Submitted to Hillary Rodham Clinton
             Questions Submitted by Senator Robert C. Byrd

    Question. Secretary Gates and Clinton, should we expect to see any 
more war-related supplemental requests?
    Answer. The President has stated that while emergency supplementals 
maybe required in the future, they should focus on truly unanticipated 
events and not be used to fund regular programs. However, as we 
implement the President's strategy in Afghanistan and Pakistan, it may 
become necessary to review the resources available for programs in 
these countries.
    Question. Secretary Gates and Clinton, will your fiscal year 2010 
budget requests, which we expect to receive next week, contain detailed 
war funding justifications?
    Answer. The fiscal year 2010 budget request reflects, in great 
detail, the Administration's commitment to strengthen diplomatic and 
assistance tools to address current and future challenges that impact 
the security of the United States.
    The budget increases non-military aid to Afghanistan and Pakistan 
to revitalize economic development and confront the resurgence of the 
Taliban, and realigns U.S. assistance to Iraq to help responsibly end 
the war and enable Iraqis to assume more control of their country.
    It puts the United States on a path to double U.S. foreign 
assistance. This funding will help the world's weakest states reduce 
poverty, combat global health threats, develop markets, govern 
peacefully, and expand democracy worldwide.
    The 2010 request supports the worldwide operations of the 
Department of State and U.S. Agency for International Development, 
provides new resources to hire additional Foreign Service officers, and 
builds civilian capacity to meet the challenges of today's world.
    It also provides additional funding for key programs that advance 
U.S. foreign policy goals, including significantly increasing funding 
for energy initiatives, programs addressing global climate change, and 
agriculture investments.
    Question. Secretary Gates and Clinton, how long should the United 
States expect to be in Afghanistan?
    Answer. We cannot remain in Afghanistan for an indefinite period. 
Therefore, it is of utmost importance that we rapidly build the size 
and capability of the Afghan Government, including the Afghan National 
Army and National Police, to levels such that it is able to provide 
basic governance and security for the Afghan people. The United States 
and the international community will need to subsidize the Afghan 
security forces for the foreseeable future, while the Afghans build an 
economy and government capable of sustaining their own forces.
    Question. Secretary Gates and Clinton, what is the United States 
doing to ensure greater NATO and United Nations participation in 
addressing the war in Afghanistan?
    Answer. At the NATO Summit in Strasbourg, Allies endorsed our 
Afghanistan-Pakistan strategy's focus on defeating Al Qaeda. Our Allies 
reiterated their commitment to working with the Afghan people to defeat 
this common enemy and to improve the Afghan government's capacity to 
provide governance and security for the Afghan people. To support those 
goals, Allies committed to provide the forces necessary to help secure 
the elections, agreed to expand efforts to train and mentor Afghan 
National Security Forces, and agreed to broadening NATO's relationship 
with Pakistan.
    We are working to ensure that NATO Allies fulfill commitments on 
necessary resources, both military and civilian. We have also initiated 
further consultations with NATO Allies, ISAF partners, and other 
possible contributors to match their capabilities with specific 
requirements needed to implement the new strategy.
    The March 31 International Conference on Afghanistan in The Hague 
recommitted the international community to supporting Afghanistan and 
underscored the central role of the United Nations in international 
assistance efforts. Our strategy for Afghanistan makes clear our strong 
support of the U.N.'s coordinating role in Afghanistan. We particularly 
appreciate the U.N.'s assistance to the Government of Afghanistan in 
organizing the August 20 Presidential and Provincial Councils 
elections.
    We also fully support the Special Representative of the U.N. 
Secretary General to Afghanistan, Kai Eide, and his Deputy, Peter 
Galbraith, in fulfilling their mission to help the Government of 
Afghanistan and coordinate international civilian assistance.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

    Question. The supplemental request includes $400 million for 
Pakistan to ``help address Pakistan's economic crisis and balance of 
payment deficit'' and to ``supplement the Government of Pakistan's $7.6 
billion Standby Agreement with the IMF.'' You say these funds are to 
help ``finance expanded social safety net programs, allow for higher 
spending on development programs, and finance foreign reserves through 
budget support.''
    What does that actually mean--who will get the money, and what will 
they do with it? Will any go directly into the Pakistani treasury as 
budget support?
    Answer. The IMF estimates that Pakistan needs $4 billion over 2 
years from donors to help finance social safety net programs, allow for 
continued spending on development programs, and reinforce foreign 
reserves. These supplemental funds will support filling these IMF-
identified gaps and help the Government of Pakistan meet IMF 
benchmarks, while also encouraging other donors to assist.
    With the $400 million we are planning to provide a mix of direct 
budget support and project support. Measures are being developed to 
ensure accountability and oversight. A portion of the budget support 
will be directed to an income support program for the poor, the Benazir 
Income Support Program. This puts funds directly into the hands of the 
most marginalized. Other direct support would cover the cost of 
electricity for schools and hospitals and teacher training. Projectized 
support will target internally displaced persons, rural infrastructure, 
and roads and agricultural schemes to generate local employment that 
contributes to development.
    We share Congressional concerns on the imperative of positive 
outcomes and results from this assistance. As we finalize the specific 
allocation of funds, including measures of effectiveness for providing 
the funds, we will continue to keep you informed.
    Question. Last year the Congress provided the previous 
Administration almost $500 million for economic assistance for 
Pakistan, of which very little has yet been spent. I'm not faulting you 
for not spending it faster because we do not want to throw away good 
money after bad, but why do we need this additional $400 million now?
    Answer. The additional $400 million requested in this Supplemental 
will be used very quickly in keeping with our larger strategy to help 
stabilize Pakistan's economy and meet social safety net needs, 
including addressing the crisis of displaced persons in the Northwest 
Frontier Province.
    With the $400 million we are planning to provide a mix of direct 
budget support and project support. Measures are being developed to 
ensure accountability and oversight. A portion of budget support will 
be directed to an income support program for the poor, the Benazir 
Income Support Program. This puts funds directly into the hands of the 
most marginalized. Other direct support will cover the cost of 
electricity for schools and hospitals and some facility construction. 
Projectized support will target internally displaced persons, rural 
infrastructure, and roads and agricultural schemes to generate local 
employment that contributes to development. We share Congressional 
concerns on the imperative of positive outcomes and results from this 
assistance. As we finalize the specific allocation of funds, including 
measures of effectiveness for providing the funds, we will continue to 
keep you informed.
    Question. You are requesting $66 million for three Blackhawk 
helicopters for Mexico. This is more for the Merida Initiative, which 
was hastily put together with no prior consultation with the U.S. 
Congress or the Mexican Congress, in the waning days of the Bush 
Administration. Does the Administration have a new counterdrug strategy 
for Mexico and Central America, or is the Merida Initiative it?
    Answer. Since assuming office, the Obama Administration has 
undertaken a review of our security and counterdrug cooperation efforts 
with Mexico and Central America. President Obama's mid-April trip to 
Mexico, as well as that of Secretary Clinton and Secretary of Homeland 
Security Napolitano and Attorney General Holder, have all informed that 
review and our future direction of cooperation with Mexico. The Merida 
Initiative, developed in consultation with our Mexican and Central 
American counterparts, provides a foreign assistance framework to 
effectively address the threat to regional stability posed by illicit 
drug cartels and criminal activity. As we move forward, the 
Administration will evaluate the program's performance and look for 
ways to improve and build upon it.
    The recently announced National Southwest Border Counternarcotics 
Strategy, for example, is putting additional resources and personnel 
from DHS, DEA, and other agencies, to work with local law enforcement 
in the critical southwest border area.
    We see strong political will in the region to address the challenge 
of providing greater citizen security on an increasingly regional and 
cooperative basis. The assistance we provide through the Merida 
Initiative builds on this trend and enables the U.S. government to work 
collaboratively with the governments of Mexico and other Central 
American countries to strengthen their law enforcement and judicial 
capabilities and to promote greater cooperation between our respective 
law enforcement agencies.
    We are making a major investment to strengthen the rule of law and 
build institutional capacity in Mexico, areas that are critical to 
Mexico's long-term democratic development and stability. We are 
assisting the Mexicans as they make improvements across the spectrum of 
civilian law enforcement activities from gathering information, 
building cases, making arrests, improving their legal system, training 
prosecutors, and making prisons more secure.
    To successfully take on the violent, well financed and 
sophisticated drug trafficking organizations, Mexican forces must have 
the capability to deploy rapid reaction forces and interdiction teams 
to complement their other improving skills. To address this need, the 
Merida Initiative includes helicopter support to both the Secretariat 
of Public Security (SSP) and the Mexican Air Force.
    After visiting Mexico and assessing SSP requirements and 
recommended solutions, a technical interagency team determined that 
Blackhawk helicopters were the appropriate aircraft to meet SSP needs 
because: (a) they met mission requirements (load, capacity, and speed--
18 passenger transportation to anywhere in Mexico within 90 minutes); 
and (b) SSP has purchased seven Blackhawks, and the three provided by 
the United States will enable the SSP to form a fully functioning 
squadron.
    After we understood what the Government of Mexico's anti-crime 
strategy was, and identified how best the United States could support 
it with training, equipment and new cooperative mechanisms, then we 
began consulting and continue to consult with respective legislative 
bodies. We greatly appreciate the spirit of consultation and 
cooperation we have had over the past year with Congress, and their 
appropriation of funds for the Merida Initiative thus far. We look 
forward to continuing consultations with Congress as our programs move 
forward.
    Question. I strongly support helping Mexico which is facing real 
threats from heavily armed drug cartels, and is now dealing with the 
H1N1 virus. But why is the Merida Initiative different from past failed 
counterdrug strategies, and what can we reasonably expect it to 
accomplish, at what cost, over what period of time?
    Answer. The Merida Initiative is a comprehensive approach 
fundamentally structured to strengthen the institutional capabilities 
of Mexican law enforcement and judicial agencies. It was jointly 
designed and agreed to in close consultation with the Mexican 
government.
    This consultative process is designed to improve the effectiveness 
of our assistance and to develop greater buy-in from the receiving 
agencies in Mexico. Through this process we are encouraging greater law 
enforcement cooperation among Mexican law enforcement and judicial 
entities at the federal level. We are also promoting links between U.S. 
judicial and law enforcement agencies and their Mexican counterparts.
    Through the Merida Initiative, we are making a major investment in 
strengthening Mexico's capability to enhance and enforce the rule of 
law. We are assisting the Mexicans as they make improvements across the 
spectrum of civilian law enforcement activities from gathering 
information, building cases, making arrests, improving their legal 
system, training prosecutors, and making prisons more secure.
    These strategic goals will take time to accomplish. Originally, the 
Merida Initiative was envisioned to be a $1.4 billion commitment for 
Mexico, over 3 years.
    In fiscal year 2008, we requested $500 million for Mexico and in 
fiscal year 2009 we requested $450 million for Mexico, for a total of 
$950 million. Congress appropriated a combined $700 million for Mexico 
in fiscal year 2008 and fiscal year 2009 under the Merida Initiative.
    To accomplish the goals set out in the Merida Initiative, which are 
in our own national interest, we need full funding support from 
Congress.
    Question. I want to commend you including in the supplemental the 
money we owe for United Nations peacekeeping. For many years we have 
been in arrears, even though the Administration votes for these 
missions and other countries--not the United States--provide the 
troops. It is an important investment, there are real costs, and we 
need to pay our share in a timely manner. Am I right that if we provide 
these supplemental funds we will be current in our payments?
    Answer. The fiscal year 2009 supplemental request of $836.9 million 
for Contributions for International Peacekeeping Activities (CIPA), 
together with the fiscal year 2009 CIPA appropriation will sustain our 
contributions to U.N. peacekeeping activities through fiscal year 2009. 
These funds also will address arrears from calendar years 2005 through 
2008 caused by the statutory cap on U.S. assessed contributions to U.N. 
peacekeeping operations. The Department may pay these arrears because 
its fiscal year 2009 appropriations act increased the cap from 25 
percent to 27.1 percent for assessments made during calendar years 2005 
through 2008. The request represents the Administration's commitment to 
pay U.S. assessments in full and on time to support U.N. peacekeeping 
missions that help maintain and restore international peace and 
security.
    Question. For years we have heard complaints that U.S. Embassy and 
USAID personnel are trapped inside the fortified walls of their offices 
because of security concerns, and there are too few of them to manage 
programs so they rely on large contractors
    When State and USAID staff do get out to the field they are 
frequently escorted by convoys of military personnel or armed security 
contractors, which frightens local people. How can we do a better job 
of balancing the need for program oversight in the field with keeping 
our diplomats and development personnel safe?
    Answer. As of March 2009 (most recent data available), USAID/
Afghanistan has noted 337 injuries, 23 kidnappings and 343 deaths.
    To further illustrate this point, some of our colleagues in 
Afghanistan have begun to receive Night Letters and many staff in 
Afghanistan do not tell their families that they work for the U.S. 
Government.
    Leaving compounds and/or private residences in high threat 
environments requires a great deal of coordination with the local 
security contingent as well as approval from the office of the Regional 
Security Officer (RSO), who sets embassy security policy and practice.
    Under Public Law 99-399 (Omnibus Diplomatic Security and 
Antiterrorism Act of 1986), Chiefs of Mission (COMs) and embassy 
Regional Security Officers (RSOs) can be held personally accountable 
when there is serious injury or loss of life.
    The law does not promote risk management decision-making in high 
threat environments, even where there is a high national interest 
priority in implementation, evaluating and monitoring of a program.
    Some level of risk is inherent and accepted by all USG personnel 
who work in Afghanistan. Predicting the level and type of risk to allow 
for adequate planning is the objective; however, the nature of security 
planning is that it is dependent on perpetrators and predicting what 
they might do is not an exact science.
    USAID is currently in the process of increasing our presence in 
Afghanistan and we hope to have an additional 170 field personnel (150 
personnel requested through Spring 2009 supplemental funding and 20 
personnel from pre-existing staffing plans) on the ground by the end of 
the calendar year. This increase in personnel will add to our capacity 
to provide direct oversight to our projects.
    Due to the non-permissive nature of the security situation, USAID 
currently relies extensively on dedicated Quality Assessment/Quality 
Control (QA/QC) contractors, along with the military and implementing 
partners to help monitor programs.
    Furthermore, we are utilizing telecommunication/removed video 
transmission when possible. This allows us to increase our monitoring 
capabilities at lower risk levels.
    Question. We often hear that the quick rotation of Foreign Service 
Officers in and out of Afghanistan makes it very difficult to develop 
continuity and effectiveness of programs. After 1 year on the job, 
officers have just begun to understand how things work before they are 
transferred to somewhere else. Do you see this changing in the future?
    Answer. Our Foreign Service employees face extremely difficult 
working conditions in Afghanistan--long working hours, extended family 
separation, as well as dangerous security conditions. While we 
recognize the benefits of longer tours, the current conditions there 
are not yet conducive to mandatory 2-year assignments.
    We do, however, continue to review the length of our assignments to 
not only Afghanistan, but to our other unaccompanied posts. In 
establishing tour lengths, we must carefully balance the effects on 
employees of extended assignments in high-stress posts with the 
advantages that come from reduced personnel turnover.
    Question. Maersk-Alabama Captain Richard Phillips, who was recently 
held hostage by pirates off the coast of Somalia, is a Vermont 
constituent of mine. You have requested $40 million under the 
Peacekeeping Operations account for Somalia. Are there other types of 
programs that might provide Somali youth with employment opportunities 
instead of piracy?
    Answer. Through implementing partner the Education Development 
Center, USAID is supporting the Somali Youth and Livelihoods Program 
which is designed to match approximately 1,200 jobseekers with 
employers in Somaliland through a database that is accessible via cell 
phone and internet. USAID is planning to expand this program from 
Somaliland into Mogadishu and other urban areas in order to reach an 
additional 4,000 people. In addition, via the International Labor 
Organization, USAID will be providing communities in strategic areas 
with assistance to address key community priorities such as 
infrastructure and rehabilitation and provision of economic and social 
service centers. This program aims to reduce insecurity related to 
high-risk youth joining extremist organizations by jump-starting 
employment and income generation.
                                 ______
                                 
           Question Submitted by Senator Barbara A. Mikulski

    Question. What funding is being requested in the fiscal year 2009 
supplemental (please specify dollar amount and accounts) for 
Afghanistan to help improve the situation for women of all ages in 
Afghanistan in the following areas:
  --Access to primary and secondary education;
  --Access to medical care--especially prenatal and post delivery care 
        to help improve child and maternal health;
  --Access to technical and vocational training and economic literacy 
        training to encourage economic self-sufficiency;
  --Access to family planning;
  --Access to adult literacy programs; and
  --Access to emergency shelters to provide refuge from sexual and 
        physical abuse, violence in the home, exploitation, and 
        potential abduction.
    Answer. Funding for programs for women of all ages, including the 
fiscal year 2009 Supplemental, is described below. The effects of USAID 
programming in support of Afghan women and girls will be described in 
more detail in a report scheduled for later in this fiscal year.

Fiscal Year 2009 Supplemental
    In the proposed fiscal year 2009 Spring Supplemental, USAID has 
identified notionally the following:
  --$3 million to increase access to legal aid through Ministry of 
        Justice and select NGO legal services centers and capacity 
        building for the MoJ.
  --Up to $20 million will be used to support gender-focused 
        activities, including (1) establishing a Women's Leadership 
        Development Institute \1\, where women are trained to exercise 
        leadership in key sectors, and (2) upgrading Women's Resource 
        Centers in select provinces.
---------------------------------------------------------------------------
    \1\ The Women's Leadership Development Institute will facilitate 
the growth of active, competent and politically astute women leaders 
and entrepreneurs in selected sectors. It will train women to exercise 
transformative leadership in key sectors and provide advisory support 
to women who are already in decision-making positions.
---------------------------------------------------------------------------
  --Programming for women will be integrated throughout the $129 
        million funding for stabilization activities and include small 
        community grants identified by the Afghan local governments.
  --Women will also be key beneficiaries of the $135 million for Cash-
        for-Work activities which will be aimed at assisting women 
        through short-term jobs for urban and rural families.
    As part of a larger, more comprehensive leadership and capacity 
building strategy for women, the Institute could assume responsibility 
for leading that strategy development process, organizing career 
planning, customizing capacity building programs for key sectors and 
building partnerships among women and men, and solidarity through 
professional and mentorship networks and inter-agency initiatives.

Fiscal Year 2009 Base
    In the fiscal year 2009 base, USAID expects to spend at least $85 
million for USAID's ongoing activities across all sectors to support 
women and girls in Afghanistan.
    Programs across the sectors will address urgent humanitarian and 
``catch up'' needs in health, nutrition, literacy and education, and 
they will sharpen the skills of women's civil society organizations so 
they can more effectively deliver essential services and play an 
effective advocacy role for peace, justice and good governance.
    Additionally, USAID plans to spend $15 million to support Women and 
Girls' NGOs, through a new umbrella grant program that is under 
consideration.

Fiscal Year 2010 Request
    In fiscal year 2010, we expect to spend at least $85 million for 
activities supporting women and girls and to support Women and Girls' 
NGOs, we expect to spend $12 million or more, depending on the 
absorptive capacity of the Afghan NGO community.
Fiscal Year 2008
    USAID provided at least $79 million in fiscal year 2008 in 
activities that specifically support girls and women. Generally this 
assistance fell into the following categories:
  --Providing basic services benefitting women and girls as components 
        of large programs: maternal and child health; education (basic, 
        secondary, tertiary, vocational), literacy and productive 
        skills; economic opportunities including business development 
        services (training, planning, marketing) and finance; 
        agribusiness economic opportunities--tree nurseries, poultry 
        and egg production, processing; access to justice; and 
        elections--registration and voting.
  --Strengthening gender policy and advocacy capacity: Ministry of 
        Women's Affairs--National; Ministry of Women's Affairs--
        provincial, district, municipal and community levels; 
        Parliamentary Commissions; National Action Plan for the Women 
        of Afghanistan; Gender within the ANDS; and Afghan Human Rights 
        Commission.
  --Strengthening gender focused civil society: Capacity building and 
        small grants program for Women and Girls--focused NGO's 
        providing services of all types--e.g. education, health, 
        training, prevention and mitigation of family violence, etc.; 
        and women-focused and women's components of national business 
        organizations.
    The above activities are illustrative only; there are many aspects 
of the USAID program that benefit all Afghans with effects that are 
difficult to attribute to girls and women. For example, rural roads, 
national economic reforms, electricity programs for Kabul and major 
cities in the south; water and sanitation projects; broad rule of law 
activities; local governance strengthening; and, courthouses and 
district administration buildings.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl
    Question. The 2008 Farm Bill requires a specified amount of Public 
Law 480 funds to be used for non-emergency programs. Has that provision 
reduced the amount that otherwise would have been available for 
emergency operations? If so, by how much?
    Answer. It is correct that the 2008 Farm Bill requires a specified 
amount of Public Law 480 Title II funds to be used for non-emergency 
programs. This is resulting in $25 million to $100 million less for 
emergency food aid each year from 2009-2012. In fiscal year 2008, we 
programmed $354.3 million in non-emergency food aid. The levels 
specified for non-emergency food aid in the Farm Bill are: fiscal year 
2009--$375 million; fiscal year 2010--$400 million; fiscal year 2011--
$425 million; and fiscal year 2012--$450 million.
    In fiscal year 2009, we must shift $25 million from emergency 
programs to meet the requirement for $375 million in non-emergency food 
aid, and in fiscal year 2010 we must shift $50 million from the fiscal 
year 2008 base to meet the requirement for $400 million in non-
emergency programs. This non-emergency requirement increases by another 
$25 million in fiscal year 2011 and 2012, requiring shifting more 
funds. While non-emergency food aid programs have an important long-
term impact, we remain concerned that they are being increased at the 
expense of funds for emergency feeding.
    Question. Is it your understanding that donations from other 
countries are keeping pace with the overall rise in demand?
    Answer. The United States provided $2 billion of the $5 billion in 
resources collected by the World Food Program (WFP) in CY 2008--some 40 
percent of total donations that year. The U.S. share of total donations 
was in line with previous years, and we continued to be the world's 
single largest food aid donor.
    WFP reports in its April 2009 Operations and Resourcing Update that 
the amount of contributions received so far this year is comparable to 
the funding level at the same time last year. However, it further 
reports that the need for humanitarian assistance has increased 
significantly, and relatively more funds are needed. WFP is projecting 
its needs for CY 2009 to be at approximately $6.371 billion (of which 
$5.7 billion is for emergency and protracted relief and recovery 
operations). It currently has $3.451 billion available in resources (of 
which $1.1 billion is in new contributions), leaving a gap of $2.92 
billion. We understand that due to currency fluctuations, WFP expects 
that contributions from other countries will be at a lower U.S. dollar 
value than last year.
    Question. Can you describe any differences in how the World Food 
Program (WFP) defines a food ``emergency'' from what your definition 
might be?
    Answer. All activities included in WFP's Emergency Operations 
(EMOPs) and Protracted Relief and Recovery Operations (PRROs) appeals 
are considered by WFP to be ``emergency'' food assistance needs. An 
EMOP or PRRO may both contain some activities that the U.S. Government 
clearly defines as emergency activities, such as direct distribution of 
food to victims of natural disasters, internally displaced people 
(IDPs) or refugees, and some activities that the U.S. Government does 
not consider an appropriate use of emergency resources. The provision 
of U.S. Government emergency resources is generally for a more limited 
set of activities than WFP proposes. WFP may include within the scope 
of its emergency programs recovery activities that we would consider 
developmental, such as certain food for work or training programs that 
exceed immediate livelihood needs. The total budgetary and program of 
work needs for EMOPs and PRROs for which WFP is appealing to donors in 
CY 2009 is $5.7 billion.
    Question. Do you think that some of the food-security items in your 
supplemental request, beyond the Public Law 480 item, could involve 
USDA participation?
    Would you work with us to identify what some of those may be?
    Answer. An interagency team (Interagency Policy Committee, or IPC) 
has been established to ensure coordination in all USG food security 
interventions--including those supported with the current supplemental 
funding request. State Department co-chairs this Committee with the 
National Security Council, and USAID and USDA are key participants. The 
committee has met twice over the past several weeks to begin to 
identify areas where closer collaboration will increase the efficiency 
and impact of USG resources provided for agriculture and food security. 
Over the next weeks and months we expect USDA, together with USAID, 
State, USTR, Treasury, and other USG agencies to develop an integrated 
plan of action to reduce global hunger and improve global food 
security, beginning with increased coordination between USG agencies, 
and extending to better partnership with other donors, national 
governments, private sector, and civil society. One expected outcome of 
this process will be an increased role for USDA in capacity building.
    We will be pleased to work with the Congress at an early stage of 
development of the integrated plan of action.
    Question. Would the Department of State benefit from collaborating 
with Defense in using these tools to assist you in managing 
international crises? What funding would you need and how would such 
funds be used?
    Answer. Thank you for your interest in strengthening the tools at 
the Department's disposal to address the influenza outbreak and other 
near-term disasters. We are currently exploring the full range of our 
capabilities and, where any gaps exist, the extent to which the 
Department of Defense can support our efforts. We will provide you with 
more detailed information as soon as it becomes available.
                                 ______
                                 
            Question Submitted by Senator Richard J. Durbin

    Question. Senators Bond, Murray, Dodd, Whitehouse, Cardin and 
others have joined me on a bill (S. 355) the Increasing America's 
Global Development Capacity Act that would triple the number of USAID 
Foreign Service Officers over the next 3 years. Are there other ways in 
which Congress can help in rebuilding capacity at USAID?
    Answer. The President and I have made rebuilding our civilian 
capacity to undertake development and diplomacy a high priority. I 
would like to thank you for your support in that regard.
    USAID is a resilient organization and has become creative in 
finding ways to continue to meet an expanding development mandate, 
while its operational resources have diminished over the past 15 years. 
The Agency's staffing levels and core business systems have not kept 
pace with increased program funding levels and the complex development 
environments in which the Agency operates.
    USAID needs sustained Congressional support for requested levels of 
Operating Expense (OE) and Capital Investment Fund (CIF) accounts over 
the next few years. Further, increased flexibility in funding 
availability for the OE account would be beneficial to the Agency's 
revitalization efforts.
    With Congressional support including adequate levels of OE and CIF 
funding, USAID will rebuild capacity while developing new systems and 
ways of doing business including:
  --Building a high-performing and diverse workforce that is 
        strategically aligned with USG priorities including 
        establishing cutting edge training for existing staff as well 
        as new hires.
  --Re-establishing strategic planning, policy formulation, evaluation, 
        and resource management at global, regional, and country 
        levels;
  --Greater tailoring of aid delivery modes such as host country 
        contracting, smaller grants, and multilateral funding pools;
  --Increasing flexibility for meeting demanding new staffing needs and 
        establishing new working space overseas;
  --Enhancing development impact and efficiency by placing development 
        technical and support services in the most efficient locations, 
        including regional centers; and
  --Modernizing and globally deploying a suite of systems to meet 
        Agency business needs and increase transparency.
                                 ______
                                 
               Questions Submitted by Senator Tim Johnson

    Question. Do U.S. military clinics and hospitals overseas have 
sufficient staff, capacity, and medical supplies to treat military 
personnel and their families in the event of a major outbreak, or will 
U.S. military families have to seek treatment at host nation medical 
facilities?
    The Department of State defers to the Department of Defense which 
has jurisdiction over this matter.
    Question. Secretary Clinton, I would ask you the same question in 
relation to U.S. embassy personnel and their families overseas, 
especially those in places like Baghdad or Kabul where they may face 
special challenges in dealing with an outbreak of swine flu.
    Answer. We are closely following the 2009 H1N1 flu developments 
around the world. In preparation for such events, the Department had 
prepared a Pandemic Influenza Plan and has recently convened the 
Influenza Outbreak Taskforce.
    For our overseas missions, all posts have pandemic plans and 
stockpiles of antiviral medication and personal protective equipment to 
help ensure continuity of operations while minimizing exposure of staff 
and their families to disease. Our Office of Medical Services maintains 
health units at over 180 missions, which provide primary medical care 
and coordinates access to specialty care when needed.
    The Department also provides additional assistance to our overseas 
missions, including providing departure options when determined to be 
necessary and where feasible. We are, however, aware a pandemic may 
eliminate normal departure options, requiring overseas employees and 
local American citizens to remain in country. While our Embassies 
cannot provide medical advice or provide medical services to the 
public, they do provide information regarding local health care 
providers and hospitals to those U.S. citizens.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg

    Question. In 2005, former Chairman of Yukos Oil Company Mikhail 
Khodorkovsky and his partner Platon Lebedev were convicted for fraud 
tax evasion and embezzlement. Those charges have been the subject of 
significant international scrutiny and the object of intense criticism 
by human rights organizations that have raised concerns about alleged 
due process violations. Additional charges have been brought against 
these defendants and a second trial commenced last month. Has the 
Administration raised this new case with Russian authorities? If so, 
what was the response?
    Answer. The Administration has been closely following the current 
case against Mikhail Khodorkovsky and Platon Lebedev. U.S. Embassy and 
State Department officials have met with the defendants' legal teams 
and are closely observing the trial. The State Department has 
repeatedly and publicly urged Russian officials to respect the rule of 
law and the importance of due process in this, and in other cases and 
will continue to do so.
    Question. Has the State Department made any new diplomatic efforts 
in the case of Sean Goldman, who has been kept in Brazil for years 
without the consent of his father, David Goldman, in violation of 
requirements under the Hague Convention on the Civil Aspects of 
International Child Abduction?
    Answer. The State Department continues to monitor constantly and to 
work diligently on the Sean Goldman case. We are using every diplomatic 
tool to resolve this and the 51 other pending abduction cases in 
Brazil. The Office of Children's Issues (CI) and Embassy Brasilia are 
in frequent contact with the Brazilian Central Authority to discuss 
specific patterns in the Brazilian judicial system that are not in 
compliance with the 1980 Hague Convention on International Child 
Abduction. U.S. officials at Embassy Brasilia, including the U.S. 
Ambassador, continue to voice concern about Brazil's speed and efficacy 
in upholding the Hague Convention, and meet regularly with interested 
parties urging them to take action to improve Brazil's compliance. We 
are raising this issue at the highest levels of government. As you may 
know, I spoke to Foreign Minister Amorim regarding this matter.
    In March 2009, CI staff met with Brazilian Consul General Barbuda 
to discuss six abduction cases which were more than 18 months old as of 
the end of fiscal year 2008, including Mr. Goldman's case, and to give 
an overview of good practice in upholding the Hague Convention. CI 
provided, at Consul General Barbuda's request, a list of the other 
currently pending cases, with summaries of status on each case.
    In late March, Embassy Brasilia also reiterated, via diplomatic 
note, the State Department's interest in the expedited processing of 
Mr. Goldman's Hague Application. We requested assurance from the 
Brazilian Central Authority that the legal question before the 
Brazilian federal court is that of the return of Sean Goldman to the 
United States under the provisions of the 1980 Hague Convention.
    In April, U.S. Embassy Brasilia requested clarification from 
Special Secretary for Human Rights Vannuchi after local press articles 
characterized his remarks to the Chamber of Deputies as indicating that 
he wanted Sean to stay in Brazil. The Minister's office reassured 
Embassy Brasilia that Secretary Vannuchi has no intention of changing 
his office's support for Sean Goldman's return to the United States in 
accordance with the terms of the Hague Convention. The Embassy has 
continued to urge Secretary Vannuchi to publicly correct the public 
impression of his remarks.
    Our Consul General in Brasilia and the Western Hemisphere Affairs 
(WHA) Abductions Division Chief are scheduled to meet with Brazilian 
Central Authority officials, judges, and attorneys in mid-May to 
discuss good practices and steps necessary to uphold the Hague 
Convention on the Civil Aspects of International Child Abduction.
    We will continue to press the Brazilian government at all levels to 
ensure Brazil's timely and expeditious compliance with The Hague 
Convention on Civil Aspects of International Child Abduction.
    Question. The current Migration and Refugee Assistance 
recommendation in the supplemental for $294 million is for overseas 
assistance and does not address the crisis facing refugees who are 
resettled to the United States who are finding it increasingly 
difficult to find jobs and stay in their homes, especially given the 
current economic crisis. What is the State Department doing to 
specifically address this need?
    Answer. The Department of State recognizes that the economic 
downturn has made it difficult for many newly resettled refugees to 
find jobs, and that some are finding it difficult to meet basic needs. 
For that reason, the Departments of State and Health and Human Services 
are working to find solutions. The Department of State recently 
announced that $5 million will be made available to refugee 
resettlement agencies to help refugees with emergency housing needs. We 
anticipate that this move will bring an element of relief. Programs for 
the longer term needs of resettled refugees are housed within HHS' 
Office of Refugee Resettlement. We are working with HHS to find 
solutions.
    Question. Piracy threatens the delivery of vital humanitarian 
assistance to the Horn of Africa, much of which arrives by sea. In 
Somalia, an estimated 3.2 million people, approximately 43 percent of 
the population, required food aid in the latter half of 2008. U.S. 
humanitarian assistance to Somalia totaled $270 million in 2008 and 
over $157 million to date in fiscal year 2009. The administration has 
requested $200 million in fiscal year 2009 supplemental International 
Disaster Assistance funding and $300 million in fiscal year 2009 
supplemental Public Law 480, Title II humanitarian assistance, in part 
to address food and water shortages in Somalia, Ethiopia, and Sudan. 
Officials from the World Food Program (WFP), which ships tens of 
thousands of metric tons of food monthly to the Horn of Africa region, 
report it has become more expensive to ship assistance to Mogadishu, 
and that their ability to deliver relief is significantly hampered. 
Both the M/V Maersk Alabama and the M/V Liberty Sun, two vessels that 
pirates have targeted recently, are U.S.-flagged and crewed cargo 
vessels contracted by the WFP to deliver USAID food assistance off the 
southeast coast of Somalia. What is the U.S. Government doing to 
protect these vessels carrying humanitarian assistance to the Horn of 
Africa region from pirates?
    The United States is deeply concerned by the unprecedented level of 
piracy in waters off the coast of Somalia; its impact on commercial 
shipping, the safety of mariners, and the delivery of critical 
humanitarian assistance to Somalia and other countries in Africa; and 
its deleterious effect on trade and development in the region. In 
response, the USG has taken both diplomatic and military action:
    As part of its diplomatic effort:
  --The United States continues to address the problems on land in 
        Somalia, including assisting the Transitional Federal 
        Government and other moderates in Somalia to create political 
        and economic stability and address extremism. Without a long-
        term solution to these problems, the blight of piracy off the 
        coast of Somalia will continue.
  --The United States, dating back to June of last year, has led 
        efforts in the U.N. Security Council to support measures to 
        suppress piracy off the coast of Somalia leading to the 
        adoption of four resolutions.
  --The United States co-sponsored Resolution 1851 (passed unanimously 
        on December 16, 2008) which urges countries to establish an 
        international cooperation mechanism as a common point of 
        contact for counter-piracy activities near Somalia. This 
        resolution also grants authority for states, for which advanced 
        notification has been delivered from the Transitional Federal 
        Government to the Secretary General, to take all necessary 
        measures to repress piracy in Somalia and urges states to 
        enhance the capacity of regional states to combat piracy.
  --Pursuant to Resolution 1851, the USG convened the first meeting of 
        the Contact Group on Piracy off the Coast of Somalia (CGPCS) on 
        January 14, 2009, to coordinate an international approach to 
        the problem of piracy. During this first meeting, the 24 
        participating countries and five participating international 
        organizations established working groups to address military 
        and operational coordination and information sharing; address 
        judicial aspects of piracy; strengthen shipping self-awareness 
        and other capabilities; and improve diplomatic and public 
        information sharing.
  --Since the initial Contact Group plenary, the four working groups 
        have met to address issues within their purview, a second 
        plenary meeting has taken place in Cairo (March 18), and four 
        additional countries have become Contact Group participants. A 
        third plenary meeting is scheduled for May 29th in New York.
  --With regard to prosecution of suspected pirates, the United States 
        deeply appreciates the role that Kenya has played in bringing 
        suspected pirates to justice in accordance with an MOU signed 
        between the United States and Kenya in January, but also urges 
        states affected by piracy to fulfill their responsibilities to 
        deliver judicial consequences to suspected pirates. The United 
        States is actively encouraging states that are victims of 
        piracy to prosecute suspected pirates within their domestic 
        legal systems. The United States will prosecute pirates that 
        attack U.S. ships and citizens.
  --We have also worked with industry and the International Maritime 
        Organization to develop and implement best practices to help 
        ships avoid piracy incidents, and disseminate those practices 
        to a wide audience.
    As part of its military effort:
  --U.S. Central Command's naval component has established Combined 
        Task Force 151 to conduct counter-piracy operations in and 
        around the Gulf of Aden, the Arabian Sea, the Indian Ocean and 
        the Red Sea.
  --Ships from CTF 151 took part in preventing the hijacking of the M/V 
        Polaris and the M/V Prem Divya on February 11 and 12 
        respectively and took part in the successful outcome of the 
        Maersk Alabama incident.
  --We would refer you to the Department of Defense for further 
        information on military actions to suppress piracy.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett

    Question. The fiscal year 2009 budget supplemental request included 
$815 million in proposed appropriations in U.S. assistance to the 
Palestinians to address both post-conflict humanitarian needs in Gaza 
and reform, security and development priorities in the West Bank. The 
request also proposed a provision which would seemingly shift the 
requirement to accept Israel's right to exist, renounce violence and 
abide by previous Israel-Palestinian agreements from Hamas to the 
Palestinian government.
    Under current law, Hamas is designated by the U.S. government as a 
terrorist organization and under law may not receive federal aid. But 
the administration has asked for changes that would permit aid to 
continue flowing to Palestinians in the event that Hamas-backed 
officials become part of a power-sharing Palestinian government.
    If the proposed provision were to be enacted, what assurances can 
the administration offer that U.S. taxpayers would not, even 
indirectly, be supporting Palestinian terrorist groups?
    Answer. In regards to the $715 million requested bilaterally for 
the West Bank and Gaza, we have made it clear that no U.S. aid will 
flow to Hamas or any entity controlled by Hamas. The United States only 
will work with a Palestinian Authority government that unambiguously 
and explicitly accepts the Quartet's principles: a commitment to non-
violence, recognition of Israel, and acceptance of previous agreements 
and obligations, including the Roadmap. In the remote possibility that 
Hamas should participate in a future PA government, the government and 
all of its ministers or the equivalent must adhere to these principles, 
and the government must speak with authority for all of its agencies 
and instrumentalities.
    Question. Madame Secretary, it is my understanding that the Russian 
government is required to pay for the operating and maintenance cost of 
the all the nuclear materials controls and security equipment the NNSA 
has installed in Russian weapons facilities.
    The Administration's request includes $44 million to support the 
deployment of additional cameras, portal monitors and security upgrades 
in Russia. This is on top of the billions of dollars spent by NNSA, the 
Department of State and Department of Defense to secure Russian weapons 
and special nuclear material.
    What confidence do you have that the Russian government is prepared 
to provide the necessary resources to support the investment we have 
made in that country to secure weapons-grade material?
    Answer. We believe NNSA's work is in the U.S. national security 
interest. The funds requested will be used to support nuclear security 
improvements to areas where NNSA has recently been granted access and 
to tackle some of the tougher security challenges, such as tracking and 
controlling nuclear materials at large facilities with very ``active'' 
inventories. It is critical that we continue to work with Russia on 
these issues as long as the need exists.
    At the same time, we are urging Russia to take over financial 
responsibility. For the past several years, NNSA has been working with 
our Russian partners, primarily the State Corporation for Atomic 
Energy, Rosatom, to ensure they are prepared to sustain our sizeable 
investment in the long term. NNSA and Rosatom have agreed to a Joint 
Transition Plan which identifies fundamental requirements for 
sustainable nuclear security programs and joint projects that will be 
undertaken over the next few years to ensure that these fundamental 
requirements are in place. Sustainability planning is also underway 
with the Russian Ministry of Defense.
    The success of these efforts ultimately depends on Russia's 
willingness and ability to devote the necessary resources. We have 
encouraged the Russian government to increase its nuclear security 
budget and ensure that these funds are efficiently distributed to the 
hundreds of nuclear facilities across the vast Russian territory. The 
Russian nuclear security budget is classified; we have not yet seen 
much evidence of increases in funding at sites where we are working. 
Overall economic conditions in Russia have improved significantly from 
when we first began our investments at its nuclear sites, but we know 
that the recent economic crisis has hit Russia hard and that 2010 
budgets are being reduced as a consequence. It remains to be seen how 
the current global economic crisis is impacting Rosatom's budget and 
specifically its allocations to sustaining nuclear security upgrades. 
We are approaching Rosatom's transition into a state corporation 
carefully to ensure that security gaps do not emerge in the process.
    Question. Can you provide this committee with the appropriate data 
to demonstrate that Russia has identified or committed resources in 
their budgets to sustain these threat reduction measures?
    Answer. The Russian nuclear security budget is classified; we have 
not yet seen much evidence of increases in funding at sites where we 
are working. We have some knowledge of federal program budgets for 
combined environmental, safety, and security programs, but specific 
security budgets are unavailable to us. This applies to Rosatom, the 
Ministry of Defense, and the Ministry of the Interior. We have stressed 
to Russia that these budgets should be more transparent in the future. 
The NNSA security budget is published each year and includes 
allocations for specific sub programs.
    There is some evidence that Russian counterparts have taken on some 
financial responsibility for nuclear security in recent years. For 
example, the Russian Ministry of Defense has agreed to independently 
sustain U.S.-funded upgrades at permanent warhead storage sites. NNSA 
and the Russian Federal Customs Service (FCS) also are working as equal 
partners to equip all (approx. 350-370) Russian border crossings with 
radiation detection equipment.
    Question. The Administration's supplemental request includes $35 
million for the National Nuclear Security Administration to be used to 
support its mission in North Korea. Considering the fact that the all 
international inspectors and U.S. personnel have been kicked out of the 
country, does the Administration still need this funding before the end 
of this fiscal year?
    Answer. The Administration must maintain a state of technical 
readiness to re-deploy to the DPRK at any time in the future to resume 
the important work of disablement of North Korea's plutonium production 
program to pave the way for the verifiable elimination of the North 
Korean nuclear program. It is prudent that we continue to develop 
strategies and plans, and tools and technologies for the verifiable 
elimination of North Korea's nuclear program, should the opportunity 
for a resumption of denuclearization activities arise. Despite the 
recent setback in the Six-Party Talks, DOE/NNSA still needs funding to 
continue its preparatory work for eventual denuclearization activities 
in North Korea. The long lead time for development and construction of 
the necessary equipment and resources to undertake denuclearization 
activities requires a continued and sustained level of effort. Finally, 
we note this funding would be contingent on the President approving the 
Glenn Amendment waiver.
    Question. The Millennium Challenge Corporation has proven to be an 
effective tool for American development assistance by reducing poverty 
through sustainable economic growth and by creating incentives for 
policy reform. Does the Administration plan to strengthen MCC's 
incentive effect and potential for poverty reduction in a sustainable 
way?
    Answer. Under my leadership, the State Department will continue to 
support MCC and its mission of sustainable poverty reduction through 
long-term development as an important asset in America's foreign 
assistance toolbox and as an important complement to other economic and 
political tools that support prosperity and security with some of our 
key partners in the developing world. MCC's focus on country ownership 
and accountability has helped build local capacity, encourage broad 
civil society consultation, and advance policy reform. MCC focuses on 
working in countries where the policy climate is most fertile for using 
assistance to generate sustainable results. This focus is yielding 
meaningful poverty reduction and strengthening good governance, 
economic freedom, and investments in people. As I review our 
development assistance framework and goals, I will consider how best to 
build on MCC's success within the Administration's overall development 
assistance strategy.
    Question. The Millennium Challenge Corporation has been called 
``smart aid'' because it requires good governance, economic freedom and 
investments in people before it engages with countries. However, the 
MCC approach requires committing long-term funding upfront, in contrast 
to other aid programs that spend their appropriated funds each year. 
This approach has unfortunately made MCC vulnerable to being used as an 
offset for amendments proposed by Members for other purposes, as it 
appears that MCC has a large balance that is in fact already committed. 
What do you plan to do to protect MCC from being used to offset other 
short-term interests during the markup of the supplemental and during 
the fiscal year 2010 appropriations cycle?
    Answer. Unlike more traditional aid programs, MCC makes full, 
upfront funding commitments when a Compact is signed and partner 
countries manage the procurement and implementation processes through 
an accountable entity. Initially, these factors, along with a generally 
low level of government capacity and resources in many partner 
countries, can slow down project development, implementation, and fund 
disbursement rates. However, MCC believes--and I agree--that a focus on 
country ownership and accountability, though more time consuming, is 
critical to achieving accountable governance and sustainable results. 
As Chair of the MCC Board, I will work with MCC to ensure that the 
importance of this different approach is understood and valued.
    Question. As you know, I am a strong supporter of microenterprise 
programs that are operated by the State Department. These programs 
provide a very impressive return on investment and have helped tens of 
thousands of the world's poorest break the cycles of poverty. Will you 
briefly talk about the State Department's plans for microenterprise 
this year?
    A couple of weeks ago, the President announced $100 million for the 
creation of a new partnership of the Multilateral Investment Fund (MIF) 
at the Inter-American Development Bank (IDB), the U.S. Overseas Private 
Investment Corporation (OPIC), and the Inter-American Investment 
Corporation (IIC) for the purpose of launching a new Microfinance 
Growth Fund for the Western Hemisphere. The fund will provide stable 
medium and longer-term sources of finance to microfinance institutions 
and microfinance investment vehicles to help rebuild their capacity to 
lend during this difficult period and to increase the supply of finance 
for micro and small businesses as recovery takes hold.
    The 2004 Microenterprise Results and Accountability Act requires 
that 50 percent of all U.S. funding for microenterprise and 
microfinance benefit the very poor--those living on less than $1.25 a 
day. President Obama announced recently $100 million for the creation 
of a new Microfinance Growth Fund for the Western Hemisphere. What 
steps are being taken to ensure that this funding adheres to 
legislative requirements and benefit those living on less than $1.25 a 
day?
    Answer. USAID's Microenterprise Development funding for fiscal year 
2008 is estimated at $233,216,437. USAID expects to continue funding at 
historical levels in fiscal year 2009, supporting programs in 
microfinance, enterprise development, and enabling environment 
development.
    Over the next year, USAID's microenterprise development efforts 
will focus on improving access to microfinance; driving innovation in 
savings and insurance products from industry to better meet the needs 
of the poor; increasing productivity and competitiveness; reducing 
regulatory barriers affecting micro and small enterprises; securing 
access to rural and urban land; making progress toward more equal legal 
and property rights for women; linking remittances and diasporas' other 
resources to development; improving microenterprise development 
programming in post-conflict and rebuilding states; assessing and 
disseminating effective approaches for transitioning second-tier 
microfinance institutions to private capital; building the capacity of 
new partners; and ensuring that the knowledge and innovation developed 
is shared widely.
    USAID will be utilizing microenterprise development and value chain 
approaches to increase the participation of the ``ultra poor'' in rural 
growth as part of the Agency's Global Food Security Answer. USAID is 
also addressing the impact of the financial crisis on microfinance 
institutions and their clients, through Development Credit Authority 
(DCA) guarantees for microfinance institutions as well as ongoing 
institutional capacity-building efforts and programs that improve 
microentrepreneurs' access to markets.
    With regard to the Microfinance Growth Fund, fund partners--the 
Multilateral Investment Fund, Inter-American Investment Corporation, 
and U.S. Overseas Private Investment Corporation (OPIC)--are still in 
the process of seeking Board approval for their contributions and 
establishing the specifics on the Fund's structure/lending mechanism. 
We will work to make sure that each institution abides by its legal 
requirements. At this point, OPIC is the only USG agency participating. 
The 2004 Microenterprise Results and Accountability Act applies only to 
USAID-funded microenterprise programs, and so does not apply directly 
to any of the programs proposed under the Microfinance Growth Fund.
    Question. The U.N. Human Rights Council, since its inception in 
2006, has called for restrictions on free speech and ignored blatant 
human rights abuses in a host of countries. With a seemingly ``singular 
focus'' it has passed five separate resolutions condemning Israel, 
including issuing resolutions over the Jewish state's recent incursions 
in Gaza and Lebanon that exclude any mention of the terror groups Hamas 
and Hezbollah. And it refuses to cite blatant rights abuses in places 
like Iran, Zimbabwe, Burma, Sudan and North Korea.
    Under this administration, the United States is now seeking to be a 
part of this council at the U.N. General Assembly in 2 weeks as part of 
its ``new era of engagement.'' Will you please outline the steps this 
administration will take to ameliorate the U.N. human rights system 
without legitimizing the trajectory the council has already taken?
    Answer. This Administration is deeply concerned by the trajectory 
of the Human Rights Council to date. The United States is running for a 
seat on the Council because of our commitment to protecting and 
promoting human rights globally. We believe that as a fully engaged 
member of the Council, working from within rather than sitting on the 
outside, we can more effectively and credibly work to advance human 
rights and to improve a body that the President has identified as one 
of the most troubled parts of the U.N. system.
    This change will take time, and progress will undoubtedly be 
uneven. As a member of the Human Rights Council, the United States will 
be in a far better position to defend against, and if necessary 
register its formal objections to, unbalanced attacks on Israel and to 
call all Council members to account for attempts to do so. As a member, 
the United States will be able to table resolutions and call for votes, 
something that we could not do as an observer and that will allow us to 
ensure that biased or unhelpful resolutions are not adopted by 
consensus. Membership on the Council also gives the United States a 
privileged speaking position on all matters before the body. This is 
particularly important in defending our cherished principle of 
unfettered freedom of speech.
    We are under no illusions that this work will be easy, that U.S. 
membership will ensure the Council does not take objectionable actions, 
or that success will come quickly. This is a work in progress, and if 
the United States does not work to advance the protection of human 
rights in the U.N. system, we know that there will be other countries 
who do not share our commitment to human rights that will fill that 
vacuum. With the help of our partners, we will advance the vision of 
the U.N. Declaration on Human Rights and help ensure that the U.N. 
contributes meaningfully to the ability of people the world over to 
enjoy their human rights and fundamental freedoms, to live freely, and 
to participate fully in their societies.
                                 ______
                                 
              Questions Submitted by Senator Sam Brownback

    Question. President Obama, as a candidate, said last year: 
``Sanctions are a critical part of our leverage to pressure North Korea 
to act. They should only be lifted based on North Korean performance. 
If the North Koreans do not meet their obligations, we should move 
quickly to re-impose sanctions that have been waived, and consider new 
restrictions going forward.''
    In the time since this statement was made, the North Korean regime 
has launched a multi-stage ballistic missile over mainland Japan 
towards the western United States, kidnapped and imprisoned two of our 
citizens, pulled out of the Six-Party Talks, kicked out international 
nuclear inspectors and American monitors, restarted its nuclear 
facilities, fell under investigation for shipping enriched uranium to 
Iran, and just a few days ago, threatened to detonate another nuclear 
weapon.
    Rather than asking Congress to waive sanctions and give this 
administration $100 million in economic support funds for this regime, 
wouldn't the more appropriate and logical approach be to do what the 
President himself said--to re-sanction North Korea?
    Answer. North Korea continues to face wide-ranging sanctions under 
international and domestic legal authorities, including those stemming 
from its 2006 nuclear detonation, its proliferation activities, its 
human rights violations, and its status as a communist state.
    The United States remains committed to full implementation of 
United Nations Security Council Resolution 1718, under which the DPRK 
is required to suspend all activities related to its ballistic missile 
program and to abandon its ballistic missile program in a complete, 
verifiable and irreversible manner. In addition, under UNSCR 1718, the 
DPRK is required to abandon all nuclear weapons and existing nuclear 
programs, as well as all other existing weapons of mass destruction 
programs.
    In response to the DPRK's April 5 launch of a Taepo-Dong 2 missile, 
the United States worked with members of the U.N. Security Council to 
issue a clear and strong response to the launch. These efforts resulted 
in a unanimous Presidential Statement that condemned the launch, made 
plain that the launch was in contravention of UNSCR 1718, demanded that 
North Korea refrain from further launches, and called upon the DPRK as 
well as all member states to fully implement their obligations under 
UNSCR 1718.
    As agreed to in the Presidential Statement, the UNSCR 1718 
Sanctions Committee on April 24 updated the list of missile-related 
items that are subject to the restrictions in UNSCR 1718 on transfer to 
and from the DPRK. The Sanctions Committee also designated three 
entities as subject to the asset freeze provisions of UNSCR 1718. These 
entities are Korean Mining Development Trading Company (KOMID), Korea 
Ryonbong General Corporation, and Tanchon Commercial Bank.
    These designations represent an important strengthening of the 
existing UNSCR 1718 sanctions regime by the 1718 Sanctions Committee. 
In particular, with the active support of the United States, the 
Sanctions Committee agreed to subject entities to the asset freeze for 
the first time since the adoption of the resolution in 2006. The United 
States has urged countries to fully implement UNSCR 1718 and continues 
to take appropriate measures to prevent North Korea from gaining access 
to nuclear, other WMD, and ballistic-missile related technology and 
equipment.
    The United States continues to impose new sanctions as warranted on 
North Korea and related entities and individuals in response to North 
Korea's proliferation activities and pursuant to U.S. and international 
law. North Korean entities were most recently sanctioned by the United 
States in February 2009 for missile-related proliferation activities.
    Question. If, as Secretary Clinton stated in her testimony, that it 
is ``implausible, if not impossible'' that North Korea will return to 
the Six-Party Talks this year, and that there is ``no interest and no 
willingness'' to give any economic aid, including fuel oil, then why 
should Congress appropriate $100 million for this purpose?
    Is the Administration concerned about the signal this would send to 
other states like Iran, Venezuela, Syria, and Sudan, if we reward a 
regime that is engaging in the most basic form of diplomatic blackmail: 
taking our citizens hostage and threatening illegal nuclear detonation 
unless we pay them off to return to the negotiating table?
    Answer. The United States continues to pursue the verifiable 
denuclearization of the Korean Peninsula in a peaceful manner. We have 
called on North Korea to cease its provocative actions and return to 
negotiations. North Korea's recent actions only underscore the urgency 
and importance of North Korean denuclearization.
    The Administration's fiscal year 2009 Supplemental request for 
funding for North Korean denuclearization activities is necessary to 
advance our denuclearization goals. Regardless of recent North Korean 
behavior, it is necessary to request these funds now so we can be 
prepared to act immediately if North Korea returns to the table and 
takes the necessary steps to meet its commitments as agreed in the Six-
Party Talks. This funding is a prudent measure to ensure that the 
United States is prepared to take timely and effective action to 
implement the dismantlement of North Korea's nuclear facilities. It 
will also ensure the United States is in a position to provide North 
Korea with continued, timely energy assistance in conjunction with 
North Korea taking the needed steps to fully denuclearize. The United 
States would only provide energy assistance to North Korea if it 
resumed action on denuclearization.
    Question. Was there any specific reason why the Administration 
requested $95 million in ESF designated for North Korea, but did not 
request any designated funds for addressing North Korean human rights? 
It should be noted that significant amount of money was requested for 
Palestinian humanitarian needs in Gaza and the West Bank.
    Answer. The United States looks forward to a day when individuals 
live in a free North Korea and have their rights fully respected. In 
fiscal year 2009, Congress appropriated and the Department of State has 
allocated $2.5 million to support important programs to document human 
rights abuses, increase the flow of information into North Korea, and 
build the capacity of the defector community. Because of the 
availability of fiscal year 2009 funding, it was not necessary to 
request additional funding in the fiscal year 2009 spring supplemental 
request. We intend to continue such programming in the future.
    Question. What portion of this $125 million will go directly to 
UNRWA? What other international organizations will receive these funds?
    Answer. Of the $125 million, $119 million would be provided to 
UNRWA for emergency activities in the West Bank and Gaza, including 
food assistance and the rehabilitation of UNRWA schools and health 
clinics, as well as refugee shelter. Other international organizations, 
including the International Committee of the Red Cross and World Food 
Program would receive $6 million to provide humanitarian assistance in 
Gaza.
    Question. How can we ensure that the funding we contribute to UNRWA 
will provide goods and services for humanitarian needs and not benefit 
terrorist elements in Gaza? Are you confident that UNRWA is in full 
compliance with Section 301(c) of the Foreign Assistance Act that 
prohibits U.S. funding to UNRWA from going to terrorists? What specific 
mechanisms does UNRWA have in place to ensure compliance?
    Answer. The Department of State continues to be vigilant about 
complying with U.S. laws designed to prevent any support to terrorists, 
including section 301(c) of the Foreign Assistance Act of 1961, as 
amended. We will continue to closely monitor UNRWA to ensure that it 
meets the condition required for our contributions by section 301(c). 
UNRWA has written policies and procedures in place, undertakes 
monitoring and inspection activities, and takes swift action to address 
any allegations of wrongdoing. Accordingly, the Department believes 
that UNRWA is in compliance with the section 301(c) condition for 
funding.
    UNRWA implements several measures to ensure the neutrality of its 
staff. Long-standing staff regulations outline the neutrality, 
integrity, and impartiality required of both international and locally 
hired U.N. staff. With USG encouragement and funding, UNRWA has 
developed a monitoring regime using fifteen international Operations 
Support Officers (OSOs) in the West Bank and Gaza. These international 
staff help ensure that UNRWA's facilities are not being misused for 
political purposes or militant activity. The constant vigilance of the 
OSOs helps ensure the neutrality and integrity of these installations.
    Under procedures in place since 2002, the Commissioner General 
sends semi-annual reports as standing practice to the Department of 
State containing all relevant information regarding UNRWA's compliance 
with the section 301(c) condition for funding, including documenting 
any abuses, or attempted abuses, of UNRWA facilities. UNRWA provides 
the names of staff to host governments on an annual basis and, on a 
semi-annual basis, UNRWA checks the names of all 4.6 million UNRWA-
registered refugees, as well as persons and entities to whom or to 
which the Agency made payments against the U.N. al-Qaida/Taliban 
sanctions list (also known as the 1267 list). In its February 2009 
semi-annual report, UNRWA reported no matches against the 1267 list. 
UNRWA also responds immediately to any cases of alleged wrongdoing, 
including militant or other illicit activities and overt political 
participation or displays. Most recently, UNRWA immediately launched an 
investigation following allegations of political interference in its 
March staff union elections in Gaza, the results of which are pending. 
UNRWA officials have stated that any UNRWA employee with political 
affiliations would be disciplined or terminated.
    Question. Shouldn't we being doing more within the United Nations 
to reform UNRWA and to guarantee serious oversight? What is the 
rationale, for example, for having Palestinian citizens of other 
countries still qualify as refugees under UNRWA's rolls? Why should 
UNRWA still exist in a place like Jordan where most Palestinians are 
Jordanian citizens?
    Answer. UNRWA is in the process of implementing important 
management reform. The Organization Development Plan (ODP), initiated 
in 2006, is designed to foster more strategic planning and to bridge 
efficiency gaps, improving overall transparency, effectiveness of 
management and service delivery. The ODP has also focused on 
strengthening UNRWA's monitoring and evaluation processes, to provide 
an integrated, strategic and results-based approach to UNRWA 
programming. UNRWA's Advisory Commission, a quasi-governing body, of 
which the United States is an active member, provides oversight of 
progress made under the ODP and other UNRWA programs and activities. 
UNRWA's finances are audited by the U.N. Board of Auditors (BOA), an 
independent body, which reviews the Agency on a biennial basis. In its 
last two audits of 2004-2005 and 2006-2007, the BOA gave UNRWA an 
``unqualified'' audit, which signifies that the auditors performed an 
extensive examination of UNRWA's financial records and have no 
reservations regarding the accuracy and fairness of its presentation.
    UNRWA's mandate to provide assistance to UNRWA-registered refugees 
is defined by the United Nations. Jordan is the only country in UNRWA's 
five fields of operations that has granted citizenship to most of the 
1.9 million Palestinian refugees it hosts. UNRWA's mandate, which is 
renewed every 3 years by the U.N. General Assembly, continues to cover 
those Palestinians in Jordan whose homes or livelihoods were lost in 
1948. The Government of Jordan strongly supports UNRWA and would be 
expected to strongly object to any proposition by the international 
community to cease funding for the Agency's operations there. Doing so 
would place a great strain on the generosity of the Government of 
Jordan and could leave the refugees without critical services, such as 
education and primary healthcare. Furthermore, it would potentially 
damage the relationship between the international community, including 
the USG, and Jordan, which remains a key strategic ally in the Middle 
East.
    Question. The fiscal year 2009 supplemental request calls for $98.4 
million in FMF for Lebanon to provide additional equipment and training 
to the Lebanese Armed Forces. A Hezbollah-led majority in parliament 
would give the terrorist organization control over the decisionmaking 
process and possibly control over the LAF.
    The fiscal year 2009 Omnibus bill included tighter congressional 
oversight on the use of military assistance funds to Lebanon, making 
funds available only to professionalize the LAF, strengthen border 
security, interdict arms shipments, and combat terrorism. Does the 
Supplemental request include the same oversight guidelines?
    Answer. All FMF funds requested for Lebanon in the fiscal year 2009 
supplemental will serve to professionalize the LAF and enhance its 
counterterrorism and border security capabilities. Much of the 
equipment is specifically linked to requirements identified by the LAF 
in coordination with CENTCOM after the LAF's battle against Fatah al-
Islam terrorists in the summer of 2007.
    There are numerous institutional checks on Hizballah's influence 
over and within the LAF, including Lebanon's Christian presidency, 
Christian command of the LAF, and confessional balance within LAF 
units. We have no reason to believe that the June 7 elections, whatever 
their outcome, will significantly affect the LAF's role as a national, 
multi-confessional institution dedicated to the protection of Lebanese 
citizens and the implementation of Security Council resolution 1701.
    Furthermore, the LAF has an excellent record of control over its 
U.S.-origin equipment, with not a single incident of loss or misuse 
since we resumed FMF assistance in 2005. Nonetheless, we continue to 
maintain strict end-use monitoring of all U.S.-origin equipment 
provided to the LAF, including enhanced end-use monitoring for 
sensitive equipment such as night-vision devices. We also vet all LAF 
candidates for U.S.-sponsored training in accordance with the 
Department's Leahy Amendment guidance; we have uncovered no derogatory 
information to date.
    Question. How is the State Department countering ideological 
support for terrorism in Iraq?
    Answer. Winning hearts and minds by addressing the underlying 
causes of extremism is a key component in our counterterrorism effort. 
In coordination with the Department of Defense and other organizations, 
the Department of State is striving to counter ideological support for 
terrorism in Iraq through Provincial Reconstruction Teams (PRTs), 
strategic communication efforts, economic and political development, 
education, and judiciary reform programs. Examples of these efforts are 
as follows:
  --Najaf Legal Services Project.--The Najaf PRT is working with the 
        Najaf Bar Association to fund legal defense services to as many 
        as 1,000 detained criminal defendants who have not yet appeared 
        before a judge.
  --Basrah Business Center.--The Anbar PRT has effectively utilized the 
        International Visitors Program (IVP) to organize delegations of 
        leaders from within and without the province. In 2007, they 
        brought together tribal leaders seeking economic assistance 
        with the provincial governor and provincial officials in order 
        to plug the disenfranchised into business opportunities.
  --Simulating the Mechanics of Election Day.--Shining Hope 
        Organization taught rural, illiterate, handicapped and other 
        voters from traditionally marginalized groups about the 
        mechanics of voting in the upcoming elections in order to 
        ensure that they understand how votes are cast and counted and 
        to encourage them to participate in the 2009 provincial 
        elections.
    Question. Does the State Department have a strategic communications 
or public diplomacy strategy that it is following in Afghanistan and 
Iraq and if so, does that strategy envision and involve interagency 
participation and coordination?
    Answer. Special Representative Holbrooke's office is coordinating a 
major new integrated civilian-military program on strategic 
communications in Afghanistan and the tribal areas of Pakistan. It will 
include three simultaneous projects that are essential: (1) redefining 
our message; (2) connecting to the people on the ground through cell 
phones, radio, and other means; and (3) identifying key communicators 
and countering the militants fear-mongering and information domination 
through local narrative. Additional personnel and structures in Kabul 
and Islamabad/Peshawar are essential and we are working to resource 
those requirements. We cannot win the information war if the debate is 
between the United States and the militants. The objective of this new 
effort is to shift the paradigm so the debate is between the tribal 
people and the violent extremists who threaten and exploit them.
    Question. Is the State Department currently coordinating its public 
diplomacy efforts in Afghanistan and Iraq with the activities of USAID, 
the Department of Defense and the Intelligence Community? How?
    Answer. In April, the Special Representative for Afghanistan and 
Pakistan co-hosted with the Department of Defense (DOD) an interagency 
meeting attended by over 50 representatives from State, DOD, the Agency 
for International Development, and the Intelligence Community, to 
discuss current strategic communication activities within Afghanistan 
and the tribal area of Pakistan, and the urgent need for a new 
comprehensive and coordinated plan for the region. Building on this 
work, Richard Holbrooke is now establishing a new strategic 
communications cell in his office, with staff from multiple agencies.
    Question. How did the administration arrive at its request of $300 
million for Public Law 480 Title II grants? Globally, how does food 
security in 2009 compare to food security in 2008?
    Answer. We focused on the most significant and severe emergencies 
with the greatest food aid needs to determine our supplemental request. 
These included programs in countries such as Zimbabwe, Ethiopia, Kenya, 
and Somalia. The request is an estimate of what is needed to provide 
for the most urgent needs in these and other emergencies. It is 
difficult to compare emergency food needs between years, especially 
only part way through 2009. We believe, however, that overall needs for 
the major emergencies--while still significant--are slightly less than 
last year. This is coupled with somewhat lower commodity and 
transportation costs as compared with last year.
    Question. Will the requested level allow the United States to 
maintain, at a minimum, the current level of support of food aid 
operations in places like Afghanistan or Haiti for example? If support 
for existing operations will be decreased from 2008 levels, please 
specify which countries will receive lower levels of assistance and the 
amount of the decrease, in dollars, beneficiaries, and tonnage.
    With so many dire situations throughout the world how does USAID 
prioritize where to direct relief?
    Answer. We are continuously assessing emergency food aid needs 
throughout the world, including through information provided by the 
Famine Early Warning Systems Network (FEWS NET), U.S. government 
experts on the ground, the United Nations World Food Program, and 
private voluntary organizations. It is difficult to compare support 
provided to specific programs from one year to the next, given the 
variability in terms of needs. Last year, Afghanistan had a poor 
harvest and Haiti was struck by severe storms, so emergency food aid 
reached unusually high levels in those countries. This year, by 
contrast, Afghanistan's harvest has improved and hurricane season in 
the Caribbean has not yet begun, so emergency food aid needs have thus 
far returned to more normal levels. The $300 million request, however, 
would allow us to provide more assistance to those countries and others 
if events change.
                                 ______
                                 
            Questions Submitted by Senator George Voinovich

    Question. I am pleased to see President Obama's commitment to make 
this the last planned war supplemental. But my question is why during a 
year of unprecedented deficits, why are you coming back to Congress to 
request yet another emergency funding request? Shouldn't your funding 
compete in the regular order?
    Answer. The fiscal year 2009 budget request that was submitted to 
the Congress in February 2008 did not include full funding for all 
programs, in particular programs in Afghanistan, Pakistan and Iraq and 
humanitarian assistance. It was always anticipated that additional 
funding would be needed for these programs. In addition, other 
unanticipated and urgent requirements have arisen since the submission 
of the budget and the bridge supplemental.
    The 2010 budget is intended to reduce reliance on emergency 
supplemental appropriations by increasing key accounts and programs for 
which funding is predictable and recurring. While emergency 
supplementals may be required in the future, we expect that they will 
be focused on truly unanticipated events as opposed to funding regular 
programs. However, as we implement the President's strategy in 
Afghanistan and Pakistan, it may become necessary to review the 
resources available for programs in these countries.
    The current emergency supplemental request addresses pressing 
challenges that impact the security of the United States. The unstable 
situations in Afghanistan and Pakistan demand urgent attention. 
Emergency funding will be used to advance political and economic 
stability in post-conflict areas, and to build capacity for effective 
governance. Funds will enable military commanders to respond to 
humanitarian relief and reconstruction needs in their areas of 
responsibility. They will also meet the extraordinary security costs 
associated with vital U.S. diplomatic activity in Iraq, Afghanistan and 
Pakistan.
    Question. International arms sales help to sustain U.S. jobs, 
reduce the cost of weapons procurement by the Department of Defense, 
help to grow small businesses, and support the national security and 
foreign policy objectives of the U.S. government. The Obama 
Administration must continue to support U.S. arms sales as an important 
foreign policy tool.
    I understand that some of our foreign military assistance funds 
have been used by the Iraqis and Afghans for the procurement of Russian 
aircraft and helicopters ill-equipped to interoperate with U.S. 
personnel and hardware in the field. Can both of you elaborate on the 
technical and policy rationale for such use of U.S. military 
assistance?
    Answer. By law, and with certain exceptions, State Department-
managed foreign military assistance can be used only to procure defense 
articles and defense services from U.S. sources. We also are actively 
working with the Government of Iraq for it to buy U.S. military 
equipment through the Foreign Military Sales process. The Defense 
Security Cooperation Agency, which is the implementing agency for 
State's foreign military assistance, has confirmed that no State-
managed foreign military assistance has gone towards the procurement of 
Russian aircraft or helicopters. The State Department defers to the 
Department of Defense to respond to questions about ISFF and ASFF-
funded acquisitions.
    Question. Madam Secretary, thank you for your April 20, 2009, 
letter outlining the State Department's future steps and efforts to 
help resolve an ongoing child custody case involving the Republic of 
Korea. I appreciate you raising this case personally at the highest 
levels during the recent G-20 Summit in London. I am also grateful for 
the efforts of your team at the U.S. Embassy in Seoul as well as in 
Washington on this important case.
    As such, can you assure me that the Department of State will 
continue to provide robust attention and resources to this case until a 
fruitful resolution is reached in the Korean civil court process?
    Answer. The Department has been fully engaged with Mr. Melanson 
regarding the tragic abduction of his son, Eddie, since the earliest 
moments after Eddie's mother abducted him to South Korea. Ambassador 
Stephens and I have made Eddie's case a priority with the Korean 
government and will continue to do so. On more than fifteen occasions 
now, we have reached out to the Korean government to reiterate our 
concern. We have worked hard on resolving Eddie's heart-wrenching 
plight, and we will not diminish our efforts before there is a 
resolution. We will continue to assist Mr. Melanson until there is a 
resolution of the case or he no longer desires our assistance.

                 SPECIAL ENVOY TO COMBAT ANTI-SEMITISM

    Question. In 2004, I was fortunate to have you join me as a 
cosponsor of the Global Anti-Semitism Review Act of 2004 (Public Law 
108-332). As you know, this legislation created the Office of the 
Special Envoy to Monitor and Combat Anti-Semitism at the State 
Department. This office, housed in the Bureau of Democracy, Human 
Rights, and Labor (DRL) is tasked with the development and 
implementation of policies and projects to support efforts to combat 
anti-Semitism.
    Jewish communities throughout the world cannot afford a gap in 
coverage. Can you provide the Committee an update on the status of the 
search process for the new Special Envoy and assure members of the 
Committee that this position will be expeditiously filled by a 
competent and capable individual?
    Answer. Filling the position of Special Envoy to Combat Anti-
Semitism is a priority for the Department of State. The Department is 
committed to identifying an exceptionally qualified candidate that can 
be announced to the public in the future.
                                 ______
                                 
              Questions Submitted to Hon. Robert M. Gates
             Questions Submitted by Senator Robert C. Byrd

    Question. Secretary Gates and Clinton, should we expect to see any 
more war-related supplemental requests?
    Answer. We fully support the Administration's goal of not 
submitting any more war-related supplementals.
    We believe the funding in the fiscal year 2009 supplemental request 
will be adequate to support the current situation in Iraq and 
Afghanistan.
    We have, however, made it clear to the Administration that if the 
security situation in theater changes significantly from the 
assumptions that we used in putting together the overseas contingency 
requests for either fiscal year 2009 or fiscal year 2010, then we will 
be submitting a supplemental request.
    Question. Secretary Gates and Clinton, will your fiscal year 2010 
budget requests, which we expect to receive next week, contain detailed 
war funding justifications?
    Answer. Yes, the fiscal year 2010 President's budget request will 
include justification for war requirements.
    Question. Secretary Gates and Clinton, how long should the United 
States expect to be in Afghanistan?
    Answer. Our goals in Afghanistan are not time-limited, and neither 
is our commitment. Eliminating the threats to our vital national 
security interests will require long-term efforts to defeat al Qaeda 
and build Afghanistan's capacity to ensure extremists never again find 
safe haven in that country. To that end, the Administration is 
developing measures of effectiveness that will help us assess progress 
as we move forward in developing Afghanistan's capacity in security, 
governance, and economic development.
    Question. Secretary Gates and Clinton, what is the United States 
doing to ensure greater NATO and U.N. participation in addressing the 
war in Afghanistan?
    Answer. We work in full partnership with both NATO and the United 
Nations as well as regional stakeholders in both organizations. The USG 
is working with Allies to translate the additional pledges of military 
and civilian support made at the Strasbourg-Kehl NATO Summit into 
action. The United States increased its own contributions to NATO's 
mission in Afghanistan and will provide an additional 21,700 forces to 
fulfill Commander ISAF's/U.S. Forces Afghanistan requirements.
    In regard to the United Nations, the USG is working with its 
partners and allies to strengthen the U.N. Assistance Mission in 
Afghanistan (UNAMA) and its critical role in coordinating the wide 
range of civilian activities on the ground. Specifically, we are 
working to help the U.N. Special Representative in Afghanistan, Kai 
Eide, secure the resources and authorities he needs to ensure mission 
success.
    As part of the recently released Afghanistan-Pakistan Strategic 
Review, we strive to enhance civilian-military coordination and 
implement an ``Integrated Approach'' in cooperation with the Afghan 
government. NATO-U.N. cooperation is a critical component of that 
strategy. The upcoming August elections are the most immediate and 
consequential task for both NATO and the United Nations. UNAMA and 
Afghanistan's Independent Human Rights Commission will jointly observe 
the election mission, while our Allies and partners in NATO have 
offered around 3,000 additional forces for election security.
    Question. Secretary Gates, should the United States be concerned 
over the security of the Pakistani nuclear arsenal?
    Answer. Just as the United States is concerned about the security 
of all nuclear arsenals, the United States should be concerned about 
the security of Pakistan's nuclear arsenal. The Pakistani Army is 
responsible for the security of those nuclear weapons and takes that 
responsibility very seriously, with strong measures in place to ensure 
that security. Of much greater concern is the fragility of the civilian 
government and its seeming lack of capacity to deliver on basic 
services: schools, healthcare, rule of law, and a strong judicial 
system, particularly in the western areas where insurgents have had 
recent successes. Helping Pakistan help Pakistanis in these areas is 
how the United States can eliminate the conditions that give rise to 
unrest.
    Question. Secretary Gates, over the last few months, I have worked 
with your staff to improve emergency medical evacuation and forward 
surgical capabilities to treat our wounded servicemen and women in 
Afghanistan. I appreciate your personal attention to this issue and 
believe that the planned deployments should greatly improve the ability 
to provide critical care. Only time will tell if this proves to be the 
case. However, it has been brought to my attention that our ground 
medical evacuation armored vehicle capabilities in both Iraq and 
Afghanistan may also be wanting. In their draft supplemental budget 
documentation, it is indicated that the Army requested 323 armored 
medical evacuation vehicles. These vehicles were not, however, included 
in the supplemental budget request. What are the plans and timing for 
upgrading current armored medical evacuation vehicles with a suitable 
next generation vehicle?
    Answer. The Department is evaluating medical evacuation operations 
requirements based on lessons learned in both Iraq and Afghanistan, 
with particular emphasis on Afghan terrain and distances. Currently, 
both theaters use a mix of both armored vehicles and medivac 
helicopters to retrieve wounded personnel to medical facilities. An 
Army proposal to use the Stryker vehicles for medical evacuations would 
complement existing vehicles, notably the Fox combat vehicle. However, 
due to the road conditions, and greater distances, the time to evacuate 
personnel by land may be too long. The Department is evaluating various 
options, thus is not fully committed to armored medical evacuation 
vehicles as a suitable solution.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

                            ARMORED VEHICLES

    Question. The one area of concern--which I know we all have for 
every service-member in Afghanistan--is protection when traveling in 
vehicles. We have seen a higher incidence of roadside bomb attacks in 
Afghanistan, and the MRAP, which is a very heavy vehicle that is the 
best protection against that threat but needs to operate on paved 
roads, does not work well in Afghanistan.
    I understand this supplemental request includes spending for the 
so-called MRAP-All-Terrain Vehicle. The MRAP-ATV can go off-road and 
still provide strong armor from attack. Can you confirm that this is a 
priority and that the Department will rush it to the field, of course 
ensuring that it is fully tested? Is any additional funding needed to 
accelerate this development?
    Answer. The Department is in the process of assessing the 
requirement, both in quantities and system characteristics for the Mine 
Resistant Ambush Protected (MRAP) All Terrain Vehicles (M-ATV) for 
Afghanistan. Because of the significant differences in road conditions, 
we believe that the MRAP vehicle that has worked so well in Iraq, would 
not provide the off-road mobility that is desired in Afghanistan. For 
this reason, we are in the process of evaluating several designs to 
better address the Afghan environment. Funding is included in the 
budget request for an additional 1,000 vehicles, which represents the 
current estimate, which is subject to change as our theater commanders 
gain a better perspective of the situation and requirements. For now, 
we are in the process of evaluating candidate systems, and preparing 
for a comprehensive testing program. For this reason, we do not believe 
that accelerating the program would be beneficial.

           USE OF NATIONAL GUARD TO COUNTER DRUGS FROM MEXICO

    Question. The National Guard will likely be soon tasked to help in 
the effort to counter the traffic in drugs from Mexico. As one of the 
co-chairs, along with Senator Bond, of the National Guard Caucus, we 
have seen how the Guard has a unique set of capabilities and experience 
that make it well-suited to these tasks.
    That said, we do not want to make this another Operation Jump 
Start, which was difficult to manage and created needless challenges in 
the Guard's abilities to carry out its other missions. It would be far 
preferable for the Guard's efforts to be done through the existing, 
highly successful National Guard Counterdrug program. How would you 
feel if the Committee routed the $350 million request for the Guard's 
counterdrug effort through the National Guard Counterdrug program?
    Answer. The fiscal year 2009 supplemental request to provide $350 
million for the administration to conduct counternarcotics and other 
activities along the United States-Mexico border is requested as a DOD 
transfer fund to provide the President with flexibility if he decides 
that U.S. troops are needed. The President has not made a decision on 
the use of additional U.S. troops at the border. Additionally, of the 
$350 million, the Secretary of Defense may transfer up to $100 million 
to other Federal agencies for border-related efforts to include 
humanitarian activities. Appropriating the funds to the National Guard 
would not enable such a transfer and would, therefore, not provide the 
flexibility sought by the administration.
    We agree the National Guard's efforts in the DOD Counterdrug 
program have been highly successful but it would be premature to limit 
the funding flexibility available to the President before he makes a 
decision. The current wording in the fiscal year 2009 supplemental 
request provides the President with flexibility to provide a wide range 
of capabilities should he decide to deploy troops to the United States-
Mexico border.
                                 ______
                                 
                Question Submitted by Senator Herb Kohl

    Question. I understand that the Department has undertaken ongoing 
efforts directed towards medical situational awareness targeted at 
international operations. It appears to me that medical situational 
awareness initiative has application to our response to the current 
outbreak of swine flu, as well as our response to potential bio-
terrorism threats.
    Do you believe that any part of the Medical Situational Awareness 
initiative can be deployed to help determine risk and allocate 
resources for managing an influenza outbreak or other near-term 
disaster, especially in the context of NORTHCOM's role in assisting 
with a medical response? If so, do you contemplate using a portion of 
the Administration's Supplemental request for $1.5 billion in 
additional funds to fight pandemic flu for speeding up or bringing on-
line the Department's medical situational awareness initiative? What 
funding would you need to complete the medical situational awareness 
initiative and how would such funds be used?
    Answer. Department of Defense efforts to maintain medical 
situational awareness is led by the Division of Global Emerging 
Infections Surveillance and Response of the Armed Forces Health 
Surveillance Center, which maintains a global program of infectious 
disease surveillance with 39 partners touching 111 countries. The 
global influenza program has surveillance in 72 countries, including 20 
U.S. ships, all Service recruit training facilities, and six clinics 
along the Mexican border (four in California, two in Mexico). Overseas 
laboratories in Thailand (Army), Kenya (Army), Peru (Navy), Indonesia/
Cambodia (Navy), and Egypt (Navy) are the foundation of our 
international network.
    While it is possible that a portion of the supplemental request 
will go to pandemic influenza response, we have not made such a 
decision.
    The current surveillance system could be improved by accelerating 
the Global Surveillance Network of the Medical Situational Awareness in 
Theater program for early detection and timely response to disease 
outbreaks in the United States and abroad. This program would: 
Establish and maintain a network of English-speaking information 
contributors in approximately 1,000 locations in the United States and 
abroad; develop a reporting methodology and train the contributors on 
reporting symptoms; deploy a system to gather and report on syndromes 
throughout the world highlighting increases in syndromes in diverse 
areas; and be deployed with more than 14,000 providers within 3 years.
                                 ______
                                 
               Questions Submitted by Senator Tim Johnson

                                H1N1 FLU

    Question. Secretary Gates, I am concerned about the global spread 
of the H1N1 flu virus, particularly its potential impact on U.S. 
military forces. U.S. troops forward deployed in Iraq and Afghanistan 
live in very austere conditions in close quarters with many communal 
facilities. I suspect that most of them do not routinely carry Purell 
in their pockets, and clean water is often a scarce commodity in combat 
zones.
    What are DOD's contingency plans to prevent or to deal with an 
outbreak of swine flu among U.S. troops in Iraq and Afghanistan?
    Answer. The DOD has been preparing for an influenza pandemic for 
the last 5 years. These preparations included developing and exercising 
response plans, educating DOD military forces and other beneficiaries 
on how to best prevent the spread of influenza, and building up global 
stockpiles of medical supplies, equipment, antibiotics, and antiviral 
medications. DOD developed policies on the distribution, release, and 
use of antivirals, including Tamiflu and Relenza, the two drugs 
currently recommended by the Centers for Disease Control and Prevention 
(CDC) in the treatment of the H1N1 influenza that is the source of 
current global concern. We also developed clinical practice guidelines 
for our fixed facilities that reflect the current guidance provided by 
CDC and we modified these guidelines to meet the needs of our medical 
providers who are practicing in more austere field environments.
    Because prevention of an outbreak may be difficult due to the 
contagious nature of this disease, we have guidance in place to 
minimize the spread and impact of outbreaks of influenza. Forward-
operating personnel who are suspected of having the disease will be 
isolated when possible, and contacts will be treated prophylactically 
with antivirals, if necessary. Units can take several measures even in 
deployed settings to reduce risk of contracting H1N1. DOD has a history 
of accurate surveillance, prevention, and control of respiratory 
diseases in our Service member populations. The same measures we use to 
prevent other respiratory diseases will be effective against H1N1.
    Question. Does DOD need additional funds to meet this contingency?
    Answer. It is possible that the DOD will require additional funds, 
especially if transmission and disease severity increase. For example, 
protective masks and antiviral medications are required for adequate 
personnel protection, but we have no stockpiles of personal protective 
equipment (PPE) for non-medical uses. Using antiviral medications for 
protection rather than treatment requires a robust supply of these 
drugs. Although we have a substantial supply, what we use in response 
to this influenza will need replacement. The same applies to PPE and 
antibiotics that we stockpiled at our medical treatment facilities. If 
the H1N1 virus begins to demonstrate a pattern similar to that seen in 
the 1918 pandemic, DOD may need to begin an immunization program 
against one of the more common causes.
    As we better understand of the disease dynamics of H1N1, we can 
better estimate the impact on DOD and develop more precise cost 
estimates.
    Question. Does DOD have a sufficient stockpile of anti-viral drugs 
such as Tamiflu to treat this disease if it evolves into a pandemic?
    Answer. Our total stockpile of Tamiflu represents approximately 
eight million treatment courses. With this, the DOD has an adequate 
supply of antiviral drugs to meet our mission requirements, provided 
the following assumptions hold true:
  --Our antiviral supply will be used primarily to maintain mission 
        effectiveness. We continue to rely on the Strategic National 
        Stockpile (SNS) for antivirals for our beneficiary and retiree 
        populations. If substantial amounts of our stockpile were used 
        for dependents and retirees, then less would be available to 
        ensure meeting mission essential tasks. We anticipate that not 
        all of our beneficiaries and retirees will have access to the 
        SNS and have planned accordingly for these groups.
  --The H1N1 virus must continue to be sensitive to Tamiflu. Tamiflu 
        represents the bulk of the DOD antiviral stockpile. If we need 
        to shift to other antiviral drugs such as Relenza, then our 
        current supply would be inadequate to meet our needs.
  --Protecting Service members before exposure assures us that DOD's 
        national defense and civil support mission requirements can be 
        met. However, a pre-exposure approach uses a great deal of the 
        drugs and is very inefficient, but necessary in some instances. 
        If we are required to place significant numbers of Service 
        members in high risk settings where transmission of the H1N1 
        virus is likely, then our overall requirements for antiviral 
        drugs could exceed our current capacity. Our current guidance 
        reinforces that this strategy should be used only when 
        necessary and should not be widespread.
  --Our supply will be adequate if an effective vaccine is provided to 
        DOD before a second wave of the pandemic. Current projections 
        from our colleagues at the Department of Health and Human 
        Services predict that vaccine may be available in early 
        September, with up to 600 million doses available by January 
        2010.
  --The virus does not mutate. In 1918, most of those who caught the 
        flu and developed severe disease or died were young healthy 
        adults. This demographic is the same as the DOD population. If 
        we see a similar pattern, then antiviral use would increase 
        substantially.
  --Although H1N1 is the cause of the current outbreak, H5N1 continues 
        to remain a primary threat. We need to be prepared if a mild 
        pandemic of H1N1 were followed by a severe H5N1 pandemic.
    The threat of a pandemic will never go away, even when the current 
H1N1 threat passes. We will need to replace antiviral stockpiles as 
they are used to maintain our overall readiness to meet the challenges 
ahead.
    Question. Thousands of U.S. military personnel and their families 
are stationed overseas, in places like Germany, Italy, Japan and Korea. 
What is DOD doing to prevent and to prepare for the potential spread of 
swine flu among American military populations overseas?
    Answer. The DOD has been conducting an educational campaign aimed 
at Service members, their families, DOD civilians, and contractor 
personnel. This has been achieved through its website, the Department 
of Defense Pandemic Influenza Watchboard, http://fhp.osd.mil/
aiWatchboard/. The website became operational 4 years ago and contains 
posters and fact sheets (available through the Watchboard as well as 
the DOD Family Readiness Library). In addition, each of the Services 
and all DOD medical treatment facilities (MTFs) have conducted their 
own educational campaigns. Through these campaigns, the DOD community 
has been educated about the best methods to prevent the spread of the 
flu virus, mainly through hand-washing, covering one's mouth when 
sneezing or coughing, social distancing (including appropriate school 
closures) and staying home when sick (self-quarantining). Because of 
the logarithmic growth of a pandemic in a susceptible population, once 
a virus with no known immunity has spread for 2 to 3 weeks, it becomes 
impossible to totally eliminate it. However, the methods described 
above will slow down the spread sufficiently to gain some control over 
the magnitude of the pandemic and its effect on the population at risk.
    DOD has made extensive preparations for the contingency of a 
pandemic, and has included in these plans the building of stockpiles of 
antivirals, including oseltamavir (Tamiflu) and zanamivir (Relenza), 
and other medications including antibiotics to treat secondary 
bacterial pneumonia. DOD stockpiled medical supplies and durable 
medical equipment, and required each military base and MTF to draft and 
exercise a plan for a pandemic. The antiviral stockpiles are 
prepositioned around the globe to facilitate rapid distribution 
worldwide in the event of an influenza pandemic. The stockpiling of 
Tamiflu and Relenza, to which the new H1N1 virus is susceptible, 
would support DOD beneficiaries outside of the United States in this 
pandemic.
    We determined that DOD beneficiaries, including military families, 
outside the United States might not be able to obtain medications, 
especially antivirals, through the host nation. DOD planned to maintain 
a sufficient stockpile within DOD to meet the demand of these 
beneficiaries. We made similar provisions for medical supplies and 
durable medical equipment, envisioning a scenario based on the highly 
virulent H5N1 virus rather than what appears to be a much less virulent 
H1N1 virus. Plans also include the use of additional facilities on 
military installations, and training, credentialing, and use of 
additional hospital personnel to serve as nurse and physician 
extenders.
    Question. Do U.S. military clinics and hospitals overseas have 
sufficient staff, capacity, and medical supplies to treat military 
personnel and their families in the event of a major outbreak, or will 
U.S. military families have to seek treatment at host nation medical 
facilities?
    Answer. The Department of Defense (DOD) has aggressively prepared 
for a pandemic of influenza for the past 5 years. DOD has both local 
and strategic stockpiles of the antiviral, oseltamivir (Tamiflu) 
overseas. The strategic stockpiles are prepositioned around the globe 
to facilitate distribution in preparation for an influenza pandemic. 
Local stockpiles are held at overseas medical treatment facilities 
(MTFs) in Europe and the Pacific and in depots for use in the U.S. 
Central Command and U.S. Southern Command areas of operation. The 
stockpiling of Tamiflu and Relenza, to which the new H1N1 virus is 
susceptible, would support DOD beneficiaries outside of the United 
States in this pandemic.
    Through TRICARE, those U.S. DOD beneficiaries who do not have 
access to care in an MTF or require care that is not available at local 
MTFs, would receive their care at host nation facilities. This care is 
contracted by TRICARE and the care provided is consistent with TRICARE 
standards.
    We determined that DOD beneficiaries, including military families, 
outside the United States might not be able to obtain medications, 
especially antivirals, through the host nation. DOD planned to maintain 
a sufficient stockpile within DOD to meet the demand of these 
beneficiaries. We made similar provisions for medical supplies and 
durable medical equipment, envisioning a scenario based on the highly 
virulent H5N1 virus rather than what appears to be a less virulent H1N1 
virus. Plans also include the use of additional facilities on military 
installations, and training, credentialing, and use of additional 
hospital personnel to serve as nurse and physician extenders.

                  MILITARY CONSTRUCTION IN AFGHANISTAN

    Question. Last week, General Petraeus was asked about enduring 
military installations in Afghanistan. I believe that Bagram has been 
designated an enduring location, and it appears that Kandahar, if not 
already an enduring location, is heading that way.
    What is the difference between a permanent base and an enduring 
base, and what is DOD's plan for establishing permanent or enduring 
bases in Afghanistan?
    Answer. DOD defines U.S. military presence through three posture 
elements: the nature of host-nation relationships (and related legal 
arrangements); the scale and duration of military activities and 
missions; and the footprint of personnel and infrastructure.
    DOD established a tiered terminology for applying these posture 
elements and characterizing the desired level of U.S. military presence 
at various locations overseas: Main Operating Bases (MOBs); Forward 
Operating Sites (FOSs); and Cooperative Security Locations (CSLs).
    In the context of our global defense posture plans, ``permanent'' 
and ``enduring'' are descriptive terms used by the Combatant Commanders 
in connection with one of more of the elements of posture, depending on 
the region and locations to which they are applied.
    "Permanent'' generally describes a long-standing footprint of 
personnel and infrastructure--e.g., permanently stationed forces 
accompanied by family members, with extensive command and control 
structures, and family support and quality of life services and 
facilities. MOBs, generally, are ``permanent'' bases (e.g., Ramstein, 
Germany; Mildenhall, United Kingdom; Kadena, Japan). ``Enduring'' 
generally describes the intent for long-standing host nation 
relationships and U.S. military capabilities/mission needs. This term 
could be applicable to MOBs with permanently stationed forces, but also 
to FOSs. For example, at FOSs in Romania, Bulgaria, and Djibouti, our 
plans involve limited permanent U.S. military support presence, but 
long-term host nation relationships and the intent to maintain or 
establish enduring, scalable operational hubs for rotational training 
and other force projections missions.
    The Department has continuous consultation with the CENTCOM 
commander regarding required support to operations in Afghanistan, 
including requirements to support ``enduring'' posture locations at 
Bagram and Kandahar. The Department does not anticipate at this time 
that these will be permanent bases.
    Question. I have seen estimates that the United States could spend 
as much as $4 billion for military construction in Afghanistan. How 
much additional Milcon funding beyond this supplemental do you 
anticipate needing for Afghanistan?
    Answer. Our efforts are focused on supporting the immediate U.S. 
force structure increases. In support of that effort our current fiscal 
year 2010 Milcon estimates for Afghanistan are in the order of $1.5 
billion.
    Question. Would you please provide for the record the following 
information: an accounting of how much funding has been appropriated to 
date for military construction in Afghanistan, by location, project, 
and fiscal year; for each project, how much of the appropriated amount 
has been obligated to date; and what is the current projected military 
construction requirement for Afghanistan?
    Answer. The funding that has been appropriated to date for military 
construction in Afghanistan, by location, project, and fiscal year 
along with the associated obligations is at attachment 1. In terms of 
projected military construction requirement for Afghanistan, our 
efforts are focused on supporting the immediate U.S. force structure 
increases. In support of that effort the current fiscal year 2010 
Milcon estimate for Afghanistan is in the order of $1.5 billion.
    In addition to the appropriated projects at attachment 1, we have 
carried out, or are carrying out, construction projects in Afghanistan 
under Title 10 U.S.C. sections 2803 and 2804 (attachment 2) and under 
contingency construction authorities (CCA) that permit us to carry out 
construction using Operation and Maintenance funds (attachment 3).
    The following is a summary of all military construction in 
Afghanistan:

                        [In millions of dollars]
------------------------------------------------------------------------
                                             Approved
                                              Amount        Obligations
------------------------------------------------------------------------
Appropriated............................         1,303.7           820.6
10 U.S.C. 2803..........................            10.8            10.8
10 U.S.C. 2808..........................           104.6            93.8
CCA.....................................           496.0            86.9
                                         -------------------------------
      Total.............................         1,915.1         1,011.8
------------------------------------------------------------------------


                                               ATTACHMENT 1.--AFGHANISTAN MILITARY CONSTRUCTION FISCAL YEAR 2003-FISCAL YEAR 2009 PROJECT LISTING
                                                                                     [Dollars in thousands]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                        Appropriated
            Service                  Fiscal Year                          Project                           Base           Country         Amount     Obligations \1\        Funding Source
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Army...........................  Fiscal Year 2009...  Bulk Fuel Storage & Supply Ph 8...............  Bagram.........  Afghanistan....       $26,000  ...............  Fiscal Year 2009 Base
Army...........................  Fiscal Year 2009...  Bulk Fuel Storage & Supply Ph 5...............  Bagram.........  Afghanistan....        22,000  ...............  Fiscal Year 2009 Base
Army...........................  Fiscal Year 2009...  SOF HQ Complex................................  Bagram.........  Afghanistan....        19,000  ...............  Fiscal Year 2009 Base
Air Force......................  Fiscal Year 2009...  C-130 Maintenance Hangar......................  Bagram.........  Afghanistan....        27,400        $18,995    Fiscal Year 2009 Base
Air Force......................  Fiscal Year 2009...  Cargo Handling Area Expansion.................  Bagram.........  Afghanistan....         8,800          4,375    Fiscal Year 2009 Base
Air Force......................  Fiscal Year 2009...  Refueler Ramp.................................  Bagram.........  Afghanistan....        21,000         15,534    Fiscal Year 2009 Base
Army...........................  Fiscal Year 2008...  Administrative Building.......................  Bagram.........  Afghanistan....        13,800         10,037    Fiscal Year 2008 Supp
Army...........................  Fiscal Year 2008...  Aircraft Maintenance Hangar...................  Bagram.........  Afghanistan....         5,100          4,847    Fiscal Year 2008 Supp
Army...........................  Fiscal Year 2008...  Ammunition Supply Point.......................  Bagram.........  Afghanistan....        62,000  ...............  Fiscal Year 2008 Supp
Army...........................  Fiscal Year 2008...  Bulk Fuel Storage and Supply ph 3.............  Bagram.........  Afghanistan....        23,000         20,205    Fiscal Year 2008 Supp
Army...........................  Fiscal Year 2008...  Bulk Fuel Storage and Supply ph 4.............  Bagram.........  Afghanistan....        21,000         19,899    Fiscal Year 2008 Supp
Army...........................  Fiscal Year 2008...  New Roads.....................................  Bagram.........  Afghanistan....        27,000  ...............  Fiscal Year 2008 Supp
Army...........................  Fiscal Year 2008...  Power Plant...................................  Bagram.........  Afghanistan....        41,000         37,713    Fiscal Year 2008 Supp
Army...........................  Fiscal Year 2008...  Rotary Wing Parking...........................  Ghazni.........  Afghanistan....         5,000  ...............  Fiscal Year 2008 Supp
Army...........................  Fiscal Year 2008...  Consolidated Compound.........................  Kabul..........  Afghanistan....        36,000         25,272    Fiscal Year 2008 Supp
Army...........................  Fiscal Year 2008...  Counter IED Road-Route Alaska.................  Various........  Afghanistan....        16,500         14,769    Fiscal Year 2008 Supp
Army...........................  Fiscal Year 2008...  Counter IED Road-Route Conn...................  Various........  Afghanistan....        54,000  ...............  Fiscal Year 2008 Supp
Air Force......................  Fiscal Year 2008...  East Side Helo Ramp...........................  Bagram.........  Afghanistan....        44,400         28,490    Fiscal Year 2008 Supp
Air Force......................  Fiscal Year 2008...  ISR Ramp......................................  Bagram.........  Afghanistan....        26,300         24,991    Fiscal Year 2008 Supp
Air Force......................  Fiscal Year 2008...  Parallel Taxiway Phase 2......................  Bagram.........  Afghanistan....        21,400         15,411    Fiscal Year 2008 Supp
Air Force......................  Fiscal Year 2008...  Strategic Ramp................................  Bagram.........  Afghanistan....        43,000         29,074    Fiscal Year 2008 Supp
Army...........................  Fiscal Year 2008...  Administrative Building.......................  Bagram.........  Afghanistan....        13,800         10,037    Fiscal Year 2008 Base
Army...........................  Fiscal Year 2007...  Bulk Fuel Storage Phase I.....................  Bagram.........  Afghanistan....         9,500         10,447    Fiscal Year 2007 Supp
Army...........................  Fiscal Year 2007...  Bulk Fuel Storage Phase II \2\................  Bagram.........  Afghanistan....        25,000         30,105    Fiscal Year 2007 Supp
Army...........................  Fiscal Year 2007...  CMU Barracks..................................  Bagram.........  Afghanistan....        17,000         15,513    Fiscal Year 2007 Supp
Army...........................  Fiscal Year 2007...  Communications System Facility................  Bagram.........  Afghanistan....         8,200          7,807    Fiscal Year 2007 Supp
Army...........................  Fiscal Year 2007...  Electrical Distribution Utility Chase.........  Bagram.........  Afghanistan....        17,500         16,579    Fiscal Year 2007 Supp
Army...........................  Fiscal Year 2007...  Perimeter Fence & Guard Towers................  Bagram.........  Afghanistan....         8,900          9,250    Fiscal Year 2007 Supp
Army...........................  Fiscal Year 2007...  RSOI Surge Area...............................  Bagram.........  Afghanistan....        14,000         14,214    Fiscal Year 2007 Supp
Army...........................  Fiscal Year 2007...  Storm Water Collection........................  Bagram.........  Afghanistan....         5,600          6,117    Fiscal Year 2007 Supp
Army...........................  Fiscal Year 2007...  Water Treatment & Distribution................  Bagram.........  Afghanistan....        22,000         22,766    Fiscal Year 2007 Supp
Army...........................  Fiscal Year 2007...  WWTP & Sewer Collection.......................  Bagram.........  Afghanistan....        16,500         16,809    Fiscal Year 2007 Supp
Air Force......................  Fiscal Year 2007...  Hot Cargo Pad & Access Road...................  Bagram.........  Afghanistan....         7,300          7,321    Fiscal Year 2007 Supp
Air Force......................  Fiscal Year 2007...  Parallel Taxiway..............................  Bagram.........  Afghanistan....        33,000         26,004    Fiscal Year 2007 Supp
Army...........................  Fiscal Year 2007...  Counter IED Roads.............................  Various........  Afghanistan....       369,700        201,446    Fiscal Year 2007 Supp
Army...........................  Fiscal Year 2006...  Kabul Consolidated Compound...................  Kabul..........  Afghanistan....        30,000         30,993    Fiscal Year 2006 Supp
Air Force......................  Fiscal Year 2006...  Tanker Truck Offload Facility.................  Bagram.........  Afghanistan....        19,600         16,834    Fiscal Year 2006 Supp
Army...........................  Fiscal Year 2005...  CMU Barracks..................................  Bagram.........  Afghanistan....        16,100         16,896    Fiscal Year 2005 Supp
Army...........................  Fiscal Year 2005...  Joint Operations Center.......................  Bagram.........  Afghanistan....         6,400          5,061    Fiscal Year 2005 Supp
Air Force......................  Fiscal Year 2005...  East Side Ramp/Support Infra..................  Bagram.........  Afghanistan....        17,600          8,181    Fiscal Year 2005 Supp
Air Force......................  Fiscal Year 2005...  Control Tower.................................  Bagram.........  Afghanistan....        10,200          6,176    Fiscal Year 2005 Supp
Air Force......................  Fiscal Year 2005...  Cargo Handling Area...........................  Bagram.........  Afghanistan....         1,800          1,629    Fiscal Year 2005 Supp
Air Force......................  Fiscal Year 2005...  Coalition Forces Ramp.........................  Bagram.........  Afghanistan....         1,400          1,403    Fiscal Year 2005 Supp
Army...........................  Fiscal Year 2005...  Ammunition Supply Point.......................  Kandahar.......  Afghanistan....        16,000         16,178    Fiscal Year 2005 Supp
Air Force......................  Fiscal Year 2004...  Airfield Runway Repair........................  Bagram.........  Afghanistan....        52,900         53,266    Fiscal Year 2004 Supp
                                                                                                                                       -------------------------------
      Total....................  ...................  ..............................................  ...............  ...............     1,303,700        820,644    .........................
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Through March, 2009
\2\ A reprogramming increased the appropriated amount by $7,000,000 to $32,000,000.
 
Fiscal Year 2009 Base is Public Law 110-329; Fiscal Year 2008 Supp is Public Law 110-252; Fiscal Year 2008 Base is Public Law 110-161; Fiscal Year 2007 Supp is Public Law 110-28; Fiscal Year
  2006 Supp is Public Law 109-234; Fiscal Year 2008 Supp is Public Law 109-13; Fiscal Year 2004 Supp is Public Law 108-132


                               ATTACHMENT 2.--AFGHANISTAN MILITARY CONSTRUCTION FISCAL YEAR 2003-FISCAL YEAR 2009 PROJECTS CARRIED OUT UNDER TITLE 10 SECTION 2803
                                                                                     [Dollars in thousands]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
            Service                  Fiscal Year                          Project                           Base            Country        Approved   Obligations \1\      Funding Authority
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Air Force......................  Fiscal Year 2004...  CAS Ramp Extension............................  Bagram..........  Afghanistan....         $764           $764    Title 10 Section 2803
Air Force......................  Fiscal Year 2005...  CAS Ramp Extension............................  Bagram..........  Afghanistan....        1,116          1,116    Title 10 Section 2803
Air Force......................  Fiscal Year 2006...  CAS Ramp Extension............................  Bagram..........  Afghanistan....        4,381          4,381    Title 10 Section 2803
Air Force......................  Fiscal Year 2007...  CAS Ramp Extension............................  Bagram..........  Afghanistan....        4,539          4,539    Title 10 Section 2803
                                                                                                                                        ------------------------------
      Total....................  ...................  ..............................................  ................  ...............       10,800         10,800    .........................
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Through March 2009.


                                      AFGHANISTAN MILITARY CONSTRUCTION FISCAL YEAR 2003-FISCAL YEAR 2009 PROJECTS CARRIED OUT UNDER TITLE 10 SECTION 2808
                                                                                     [Dollars in thousands]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
            Service                  Fiscal Year                          Project                           Base            Country        Approved   Obligations \1\      Funding Authority
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Army...........................  Fiscal Year 2007...  Bagram Theater Internment Facility............  Bagram..........  Afghanistan....      $62,551        $62,551    Title 10 Section 2808
Army...........................  Fiscal Year 2007...  Barracks, Temporary, Phase 1..................  Bagram..........  Afghanistan....       16,000         11,601    Title 10 Section 2808
Army...........................  Fiscal Year 2007...  Expand Bagram Roads...........................  Bagram..........  Afghanistan....       16,000         12,906    Title 10 Section 2808
Army...........................  Fiscal Year 2007...  Barracks,.....................................  Bagram..........  Afghanistan....        5,600          5,846    Title 10 Section 2808
Army...........................  Fiscal Year 2007...  Eastside Power Lines..........................  Bagram..........  Afghanistan....        1,200            865    Title 10 Section 2808
                                                                                                                                        ------------------------------
      Total....................  ...................  ..............................................  ................  ...............      104,600         93,769    .........................
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Through March 2009.


                ATTACHMENT 3.--AFGHANISTAN MILITARY CONSTRUCTION FISCAL YEAR 2003-FISCAL YEAR 2009 PROJECTS CARRIED OUT UNDER FISCAL YEAR 2004 NDAA \1\ SECTION 2808, AS AMENDED
                                                                                     [Dollars in thousands]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                                                      Funding
             Service                  Fiscal Year                          Project                                Base                  Country        Approved   Obligations \2\      Source
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Army............................  Fiscal Year 2004...  Hospital Facility.............................  Bagram Airfield...........  Afghanistan.....      $16,380        $16,380    O&M
Army............................  Fiscal Year 2004...  Ammunition Supply Point.......................  Bagram Airfield...........  Afghanistan.....       14,095         14,095    O&M
Army............................  Fiscal Year 2004...  Entry Control Point...........................  Bagram Airfield...........  Afghanistan.....       12,874         12,874    O&M
Army............................  Fiscal Year 2005...  Kabul Consolidated Compound...................  Kabul.....................  Afghanistan.....        1,400          1,362    O&M
Army............................  Fiscal Year 2007...  Primary Electrical Distribution Grid..........  FOB Sharana...............  Afghanistan.....        3,100          3,100    O&M
Army............................  Fiscal Year 2007...  Camp Phoenix North Expansion..................  Kabul.....................  Afghanistan.....       22,928         22,928    O&M
DIA.............................  Fiscal Year 2007...  Joint Intelligence Operations Facility........  Kabul.....................  Afghanistan.....        2,700          2,700    O&M
Army............................  Fiscal Year 2008...  Waste Water Treatment Facility................  Jalalabad Airfield........  Afghanistan.....        6,300          6,024    O&M
Army............................  Fiscal Year 2009...  Rotary Wing Ramp and Taxiway PH...............  Kandahar AB...............  Afghanistan.....       25,000  ...............  O&M
Army............................  Fiscal Year 2009...  Rotary Wing Ramp and Taxiway PH...............  Camp Bastion..............  Afghanistan.....       25,000  ...............  O&M
Army............................  Fiscal Year 2009...  RSOI Expansion................................  Kandahar AB...............  Afghanistan.....       16,000             84    O&M
Army............................  Fiscal Year 2009...  ECP and Access Road South Park................  Kandahar AB...............  Afghanistan.....        9,400             64    O&M
Army............................  Fiscal Year 2009...  South Park Infrastructure PH 1................  Kandahar AB...............  Afghanistan.....       30,000  ...............  O&M
Army............................  Fiscal Year 2009...  Brigade Housing...............................  Kandahar AB...............  Afghanistan.....       25,000  ...............  O&M
Army............................  Fiscal Year 2009...  Relocation of Class 1 Yard....................  Kandahar AB...............  Afghanistan.....       11,000             51    O&M
Army............................  Fiscal Year 2009...  Rotary Wing Ramps & Taxiways..................  Shank.....................  Afghanistan.....       36,000  ...............  O&M
Air Force.......................  Fiscal Year 2009...  Strategic Airlift Apron.......................  Camp Bastion..............  Afghanistan.....       47,000  ...............  O&M
Air Force.......................  Fiscal Year 2009...  Runway........................................  Camp Bastion..............  Afghanistan.....       97,000  ...............  O&M
Air Force.......................  Fiscal Year 2009...  Close Air Support Apron.......................  Kandahar AB...............  Afghanistan.....       37,000  ...............  O&M
Air Force.......................  Fiscal Year 2009...  Upgrade Munitions Storage Area................  Kandahar AB...............  Afghanistan.....       20,000  ...............  O&M
Air Force.......................  Fiscal Year 2009...  Runway........................................  Shank.....................  Afghanistan.....       22,000  ...............  O&M
Air Force.......................  Fiscal Year 2009...  Airlift Apron.................................  Shank.....................  Afghanistan.....        8,600  ...............  O&M
                                                                                                                                                    ------------------------------
      Total.....................  ...................  ..............................................  ..........................  ................      488,777         79,662    .............
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ National Defense Authorization Act.
\2\ Obligation data as of March 31, 2009.


         AFGHANISTAN MILITARY CONSTRUCTION FISCAL YEAR 2003-FISCAL YEAR 2009 PROJECTS CARRIED OUT UNDER FISCAL YEAR 2003 EMERGENCY WARTIME SUPPLEMENTAL APPROPRIATIONS ACT, SECTION 1901
                                                                                     [Dollars in thousands]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
            Service                  Fiscal Year                          Project                           Base            Country        Approved   Obligations \1\        Funding Source
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Army...........................  Fiscal Year 2003...  JTF HQ........................................  Begram..........  Afghanistan....       $7,200         $7,200    O&M
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Obligation data as of March 31, 2009.

    Question. What is DOD doing to ensure the maximum contribution from 
NATO for the construction of military facilities in Afghanistan?
    Answer. Executive Summary: We are using the pre-notification 
process to NATO for the NSIP Program (described below) for all fiscal 
year 2009 and fiscal year 2010 Milcon and CCA Projects in Afghanistan. 
By doing so, we are posturing U.S. funded projects to be reimbursed by 
NATO once they meet the criteria for NATO Common Funding. For example, 
NATO's Infrastructure Committee is strongly considering common funding 
for a recent U.S. nomination of a $30 million runway ramp extension 
project in Southern Afghanistan.
    Description: The U.S. NATO budget consists of the NATO Military 
Budget (O&M) and the NATO Security Investment Program (NSIP). The NATO 
Resource Support Branch (part of HQ USAREUR) in Mons, Belgium manages 
appropriations for both programs.
  --The NATO Military Budget funds the U.S. share of the day to day 
        operational costs associated with NATO. HQ Department of the 
        Army maintains oversight of the NATO Military Budget Program.
  --The NATO Security Investment Program (NSIP) funds the acquisition 
        of common use systems and equipment; construction, upgrade and 
        restoration of operational facilities; and other related 
        programs and projects in support of NATO Strategic Concepts and 
        Military Strategy. The Office of DUSD(I&E), Installations 
        Requirements and Management Directorate, maintains oversight of 
        the program.
    The United States, along with other allies, annually contributes an 
agreed level of funding to the NSIP, provided through the Military 
Construction Appropriations Act. The U.S. share, typically about a 
quarter of the total budget, is a key factor in our leadership of NATO, 
and for exerting our influence throughout the European region. The 
United States derives significant operational benefits from NSIP 
projects that support U.S. forces and personnel throughout Europe, 
especially in NATO's Southern Region.
    NSIP project requirements are stated in terms of Capability 
Packages and are prioritized and approved by the NATO Military 
Authorities. Nationally funded projects may be eligible for NSIP 
reimbursement if they meet criteria for NATO Common Funding after the 
fact due to use or mission changes. To be eligible for this Nations 
must ``pre-notify'' the NSIP of intent to build.
    Question. The supplemental request does not include any military 
construction funding for Iraq. Do you anticipate requiring any further 
Milcon funding for Iraq in fiscal year 2010 or in future budget 
requests?
    Answer. While we do not anticipate any additional requirements, the 
drawdown coupled with the situation on the ground will drive any future 
requests.

                               GUANTANAMO

    Question. Secretary Gates, the supplemental request includes $50 
million in the Iraq Freedom Fund to support the closure of the 
Guantanamo detention center. The request specifically seeks 
authorization for the expenditure of military construction funds for 
projects not otherwise authorized by law.
    What is the purpose of the military construction proviso? Is it 
intended to give the department the flexibility to construct a new 
prison, or renovate or expand an existing military facility, or is 
there some other type of facility that could be required?
    Answer. The purpose of the proviso is to give the Department of 
Defense the ability to execute the pending decisions of the interagency 
Special Task Force, which is working to identify options for the 
disposition of detainees now at Guantanamo. The Task Force is co-
chaired by the Attorney General and Secretary of Defense. Any plan to 
bring detainees to the United States will require legislation and the 
support of Congress. I fully support the closure of detention 
facilities at Guantanamo.
    Question. What options are on the table for dealing with the 
current detention facilities at Guantanamo once the detention center is 
closed? Are you considering demolishing the existing facilities, or is 
the Department considering other options, such as converting them to 
migrant operation facilities?
    Answer. The detention facilities at Guantanamo Bay will be closed 
on or before January 22, 2010, in accordance with the President's 
Executive Orders dated January 22, 2009. The Department, in 
coordination with our interagency partners, is working diligently to 
ensure that the government is prepared to implement that order.
    After the Operation Enduring Freedom detainee mission undertaken by 
Joint Task Force Guantanamo is completed, the Department has no plans 
to transition the facilities into a different mission profile. The 
facilities at Guantanamo were designed and constructed to serve the 
mission of detaining al-Qaeda, Taliban, and associated forces. The 
exact disposition of the facilities has not been determined.
    It is also possible that the Guantanamo facilities will be deemed 
by the Department of Justice to be covered by the federal court's 
preservation order that requires DOD to preserve and maintain all 
documents and information that relates to Guantanamo detainees. If so, 
the facilities could not be dismantled until that preservation order is 
no longer in effect.

                                AFRICOM

    Question. Secretary Gates, the Associated Press reported Wednesday 
that small numbers of Muslim extremists were leaving the border region 
of Afghanistan and Pakistan and heading to East Africa, specifically 
Somalia. That area of the continent has presented many challenges for 
the United States in the past.
    Will the fact that AFRICOM has very limited presence on the 
continent diminish our capability to respond quickly to counter these 
types of threats?
    Answer. USAFRICOM's capacity is not diminished by its limited 
presence on the continent. The Global Force Management (GFM) process 
allows USAFRICOM, like all the other Geographic Combatant Commands, to 
request forces and assets as necessary to accomplish missions tasked by 
the Secretary of Defense. These requests are reviewed and approved by 
the Secretary of Defense, allowing a dynamic balancing of military 
force application between emerging requirements and ongoing sustained 
operations.
    Question. How large of an infrastructure footprint do you envision 
for AFRICOM on the continent of Africa? Does the Department have plans 
to construct any military facilities on the continent beyond Camp 
Lemonier in Djibouti?
    Answer. No, the Department does not have existing plans to 
construct any military facilities on the continent beyond Camp 
Lemonier. The Department has deferred a permanent location final 
decision until fiscal year 2012. In the interim, the Department is 
limiting expenditures on temporary USAFRICOM infrastructure until 
decisions are made about the long-term on-continent locations for the 
command.
                                 ______
                                 
                Question Submitted by Senator Jack Reed

  DEPARTMENT OF DEFENSE EXPERIMENTAL PROGRAM TO STIMULATE COMPETITIVE 
                                RESEARCH

    Question. In the fiscal year 2008 National Defense Authorization 
Act (Public Law 110-181), this Committee requested a Federally Funded 
Research and Development Center assessment of DEPSCoR. The resulting 
assessment demonstrated that DEPSCoR has successfully built research 
capacity in participating states, including a finding that the DEPSCoR 
states' share of non-DEPSCoR DOD science and engineering funding 
steadily increased from inception of the program through fiscal year 
2005 (the last year the assessment considered), despite wide variations 
in DEPSCoR program funding level.
    As this Administration considers how best to invest the 
Department's limited 6.1 basic research dollars, can you provide to 
this Committee an assurance that the DEPSCoR programmatic objective of 
investing in historically underfunded states will remain a priority?
    Answer. Senator Reed, the DEPSCoR program, coupled with the larger 
EPSCoR programs run by six other agencies--the National Science 
Foundation, Department of Energy, National Institutes of Health, 
Department of Agriculture, National Aeronautics and Space 
Administration, and Environmental Protection Agency--has indeed built 
research capacity in participating states. However, it is not entirely 
clear whether the increased capacity can be linked specifically to 
DEPSCoR compared to the larger EPSCoR funding from the other agencies.
    In general, the Department seeks to competitively build research 
capacity across the entire nation. When the Department developed its 
fiscal year 2009 budget, Secretary Gates personally made basic research 
a priority, increasing our overall basic research accounts by nearly 
$300 million. These funds are embedded in both Service University 
Research Initiative and Defense Research Science programs. With this 16 
percent real growth in basic research came the charge to invest the 
funds in competitively awarded and peer reviewed research. Our belief 
is the total amount awarded competitively from this $300 million 
increase to the aggregated EPSCoR states should actually exceed the 
amount of money requested in the traditional DEPSCoR program. If this 
is the case, the intent of DEPSCoR program to build capacity in under 
represented states would be met. As we finish the basic research awards 
in fiscal year 2009, we will monitor the total amount allocated to 
DEPSCoR states, and adjust policy accordingly.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg

    Question. In September 2005, the Base Realignment and Closure 
(BRAC) Commission recommended closing Fort Monmouth and transferring 
functions to Aberdeen Proving Ground. Since that time, news and 
government reports have surfaced raising significant concerns about the 
rising costs of closing the base and the possibility that such a 
closure could be disruptive in our military missions abroad. Does the 
administration have plans to review the 2005 round of Base Realignment 
and Closures? If so, is the decision to close Fort Monmouth under 
review?
    Answer. The Department has no legal authority to reconsider BRAC 
recommendations and has never in its history sought such legal 
authority. Additionally, the benefits of this recommendation (and all 
other BRAC actions) are important to achieve and there would be 
significant negative consequences of legislative reversal of any BRAC 
recommendation. The Department is not aware of any effort in the 
Administration to review the 2005 round of Base Realignment and Closure 
broadly or the Fort Monmouth recommendation specifically.
    Fort Monmouth is an acquisition and logistics installation with 
little capacity for other purposes. The Army ranked it 50th of 97 
installations in military value. Aberdeen was ranked 18th. 
Implementation will save over $154 million annually beginning in fiscal 
year 2012, reducing infrastructure overhead, even with the cost growth. 
The Army's move of the Communications Electronics Command (CECOM) to 
Aberdeen Proving Ground (a property of higher military value) greatly 
enhances operational support to the GWOT and other contingency 
operations by creating a combined Command, Control, Communications, 
Computers, Intelligence, Surveillance, and Reconnaissance (C\4\ISR) 
technical and research facility with direct and valuable links to the 
Aberdeen Proving Ground test communities and ranges.
    Question. Piracy threatens the delivery of vital humanitarian 
assistance to the Horn of Africa, much of which arrives by sea. In 
Somalia, an estimated 3.2 million people, approximately 43 percent of 
the population, required food aid in the latter half of 2008. U.S. 
humanitarian assistance to Somalia totaled $270 million in 2008 and 
over $157 million to date in fiscal year 2009. The administration has 
requested $200 million in fiscal year 2009 supplemental International 
Disaster Assistance funding and $300 million in fiscal year 2009 
supplemental Public Law 480, Title II humanitarian assistance, in part 
to address food and water shortages in Somalia, Ethiopia, and Sudan. 
Officials from the World Food Program (WFP), which ships tens of 
thousands of metric tons of food monthly to the Horn of Africa region, 
report it has become more expensive to ship assistance to Mogadishu, 
and that their ability to deliver relief is significantly hampered. 
Both the M/V Maersk Alabama and the M/V Liberty Sun, two vessels that 
pirates have targeted recently, are U.S.-flagged and crewed cargo 
vessels contracted by the WFP to deliver USAID food assistance off the 
southeast coast of Somalia. What is the U.S. Government doing to 
protect these vessels carrying humanitarian assistance to the Horn of 
Africa region from pirates?
    Answer. Protection of WFP vessels transiting into and out of 
Somalia has been of paramount concern since piracy off the Horn of 
Africa began its upsurge in late August 2008, and is specifically 
mentioned in U.N. Security Council Resolutions 1838, 1846 and 1851. In 
August 2008, NAVCENT established the Maritime Security Patrol Area to 
provide a relative safe haven for ships passing through the region. In 
December 2008, the European Union formed its counter-piracy task force, 
dubbed Operation Atalanta, drawing forces from Standing NATO Maritime 
Group 2 (SNMG 2), with the specific mission of providing protective 
escort for WFP vessels. Moreover, NATO has had SNMG 1 operating in the 
region since March 2009 and extended its operations in the region until 
June 2009, rather than deploying to its previously-scheduled operations 
in Singapore and Australia. To focus more explicitly on the piracy vice 
counterterrorism threat, NAVCENT established a separate task force in 
early January 2009, CTF 51. At present CTF-151 includes vessels from 
six nations. Overall, some 28 nations are conducting CP operations in 
this region, including escort of WFP food aid.
    Military operations are part of the solution, but cannot alone 
address this problem. The United States advocates a multifaceted 
international response including self-protection measures by commercial 
shippers, and is considering the utility of working with regional 
authorities inside Somalia to address the land-based origins of the 
problem. This approach is reflected in an interagency Counter-Piracy 
Action Plan (CPAP), and will continue to be monitored and executed 
through an NSC-directed working group, the Counter-Piracy Steering 
group (CPSG), co-chaired by the Department of State and Defense. 
Additionally, the Department of State has moved forward in developing 
an international contact group--the Contact Group on Countering Piracy 
Off the Coast of Somalia (CGCPCS)--to coordinate efforts more 
effectively with the other countries now contributing to this mission.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett

                                  F-22

    Question. Secretary Gates, both at your press conference on April 
6th as well as on two occasions after that you stated that there was no 
military requirement for more than 187 F-22's and that the Air Force 
agreed. However, both before your announcement as well as afterwards, 
and specifically on April 13th, the Chief of Staff of the Air Force, 
General Schwartz, said publicly that the military requirement for F-
22's was 243, not 187. Could you clarify where each of those numbers 
originated and which number you feel best describes the strategic 
requirements of the Air Force in the future?
    Answer. Air Force analysis suggested that 243 F-22s would deliver 
warfighting capability and sustainment at moderate levels of risk, 
mitigating uncertainties of threats, scenarios, and F-35 Joint Strike 
Fighter unknowns. In essence, it was suggested that 243 F-22s would 
provide less risk than 187. After further consideration, however, the 
Air Force and the Department agreed that 187 F-22s presented an 
acceptable level of risk, and as a result, it was finally decided that 
187 was the right quantity of F-22s. The Department along with the Air 
Force assessed the military requirement for F-22s from many angles, 
taking into account competing strategic priorities and complementary 
programs and alternatives, all balanced within the context of available 
resources. Based on warfighting experience over the past several years 
and judgments about future threats, the Department revisited the 
scenarios on which the Air Force based its assessment. Concurrently, 
during this F-22 requirement review, the Department assessed the 
broader road map for tactical air forces, and specifically the 
relationship between the F-22 Raptor and the multi-role F-35 Joint 
Strike Fighter. As a result, it was decided that 187 was the right 
quantity of F-22s.

                                PAKISTAN

    Question. Secretaries Gates and Clinton, the supplemental request 
includes $3 billion in economic assistance and $400 million for 
counterinsurgency operations efforts for Pakistan. If the continued 
march to radicalization and Islamization in Pakistan cannot be halted 
or diverted, how will these funds be used to secure U.S. interests in 
the region? What future do you see in the region with the Taliban 
gaining maneuverability and power in Pakistan? How would the realistic 
possibility of a nuclear-armed state led by radical Islamist groups 
affect our strategic posture, especially concerning nuclear deterrence 
and missile defense?
    Answer. The $3 billion for economic assistance and $400 million for 
the Pakistan Counterinsurgency Capabilities Fund are designed to build 
Pakistani capacities in counterinsurgency, economic development, rule 
of law, and education; thereby eliminating the destabilizing conditions 
that give rise to concerns like those posited. The United States, and 
increasingly Pakistan itself, recognize the extremist insurgency poses 
a threat to Pakistan's government and the people of Pakistan. By 
increasing the capabilities and capacity of the Pakistani Frontier 
Corps and Pakistani Army in counterinsurgency operations, the United 
States will help them secure their sovereign territory, deny terrorist 
safe havens, and create favorable conditions for economic development. 
At the same time, Pakistan's nuclear arsenal remains under the control 
of the Pakistani military, which has strong measures in place to ensure 
security of those weapons.

                             GUANTANAMO BAY

    Question. Secretary Gates, the request before us includes up to $50 
million to support the closing of the Guantanamo Bay detention facility 
that currently houses 240 of the United States' worst enemies in our 
struggle against political and religious extremism and international 
terrorism. I have serious concerns about the consequences of closing 
the facility and even stronger concerns about the allocation of these 
funds to transfer the prisoners according to an arbitrary deadline that 
was promulgated during a political campaign. News reports have 
indicated the Administration may be planning to release some detainees 
directly into the United States and you Secretary Gates, have 
specifically mentioned this possibility.
    We have received very little information about the Administration's 
specific plans for dealing with this issue, other than a request for 
funds. I ask you now, what are your specific plans for closing the 
facility, transferring the detainees and ensuring that they do not 
cause greater harm to U.S. security both at home and abroad? Have you 
planned for any contingencies that would include extending the 
political deadline set during the campaign? What are the specific plans 
concerning detainees that are not accepted in their home countries or 
proxy countries?
    Answer. The President's Executive Orders, which were signed on 
January 22, 2009, stipulate that the Attorney General was to assess the 
241 detainees at Guantanamo Bay and make disposition determinations. 
That process is currently ongoing and is expected to be completed in 
October 2009. Until the Attorney General makes a determination, the 
Department is unable to comment on plans to transfer, prosecute, or 
make some other lawful disposition.
    The Department of Defense will take all appropriate security 
measures to ensure that, if detainees are held under DOD control in the 
United States, they are unable to pose a threat to the United States. 
In addition, the Department of Justice is tasked with all law 
enforcement activities within the United States. As such, the 
Department of Justice will be best able to comment on any security 
measures to ensure that detainees do not cause greater harm to U.S. 
security. In cases where a detainee is to be transferred to another 
country, the Department of Defense will work in coordination with the 
Department of State to get security and humane treatment assurances 
from countries that are willing to resettle GTMO detainees.

                NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Question. Secretary Gates, the Administration's request for $89.5 
million for the National Nuclear Security Administration includes 
funding for a live fire shooting range and railcar to support training 
exercises for the Russian Ministry of Defense. I am told the Department 
of Defense is also investing in this Russian Counter Training Center.
    Considering that Russia is reinvesting in its military, do you 
believe it is in the best interest of taxpayers to invest $6 million in 
a live fire and training facility for the Russian military?
    Answer. The figures quoted related to Department of Energy (DOE) 
budget requests. DOD and DOE have conducted an integrated program to 
improve Russian nuclear warhead security based on commitments by 
President Bush at the 2005 U.S.-Russia Summit on Nuclear Security 
(``Bratislava Summit''). DOD completed its Bratislava Commitments in 
December 2008, and DOE competed its commitments in early 2009. As part 
of the Bratislava commitments, and previous nuclear security 
commitments undertaken prior to 2005, DOD and DOE provided a range of 
training, equipment, and services to improve Russian guard forces' 
capabilities to protect warhead storage bunkers. DOD and DOE also 
provided special railcars used to transport warheads from operational 
bases to dismantlement or enhanced-security storage facilities. One 
element of DOD's early assistance under this program was provision of 
12 self-contained small-arms practice ranges. DOD completed this work 
in the 2004 timeframe. The final aspect of the Bratislava commitments 
is improving Russia's ability to sustain the warhead security systems 
installed by DOD and DOE. We are working with Russia and DOE to ensure 
that this is accomplished; Russia will assume full responsibility for 
sustainment by the end of 2012.

                            MISSILE DEFENSE

    Question. Secretary Gates, based on your recent speeches it seems 
as though the near-term focus of the Administration concerning missile 
defense is on theater systems and completing the deployment of the 
Ground-Based Missile Defense that can provide limited protection 
against traditional threats. With an uncertain future that includes the 
possibility of more nuclear-armed states with ICBM capabilities, what 
measures are you considering to develop and strengthen systems that add 
additional layers of protection to our missile defense system?
    Answer. The ascent phase concept leverages existing sensors and 
weapons and therefore offers a potential lower risk/lower cost solution 
that could be fielded much more quickly than traditional boot-phase 
concepts.
    Question. While working to provide the best balance of systems to 
protect against attack, what are your thoughts on investing in 
flexible, adaptable, mobile weapon systems like Kinetic Energy 
Interceptors (KEI) to counter emerging threats instead of continuing 
the fielding of older, stationary systems? Would you agree that would 
more accurately reflect a priority on programs that allow us to stay 
ahead of evolving threats? Shouldn't we ensure that we are providing 
adequate resources for flexible, next-generation weapon systems like 
KEI, and sensors and command-and-control technologies?
    Answer. [Deleted].
    Question. Mid-course discrimination seems a tough problem and 
continues to become harder as our enemies deploy more advanced future 
threats. It has been widely discussed and agreed upon that it is more 
effective to engage early, before a threat missile has had a chance to 
deploy countermeasures or multiple warheads. If this is the case, why 
would you target boost-phase systems for termination in the future 
budget? If the currently designed systems were not proving adequate, 
what plans do you have for other systems that would attack a missile 
threat in the boost phase?
    Answer. [Deleted].
                                 ______
                                 
              Questions Submitted by Senator Sam Brownback

                               DETAINEES

    Question. Has the Department of Defense had any discussions with 
U.S. state and local officials about the possibility of transferring 
detainees from Guantanamo to locations in the United States? If not, 
does it intend to do so?
    Answer. As Secretary Gates has indicated in the past, the 
Department has been working on contingency plans to close the detention 
facility at Guantanamo for some time. Prior to the end of the Bush 
Administration, the Department visited DOD facilities in various 
states.
    As previously stated, no decisions have yet been made to bring 
detainees into the United States for continued detention. However, when 
the facility at Guantanamo Bay closes, there will likely be some number 
of detainees who are awaiting trial, are awaiting transfer or release, 
or who cannot be tried, but who are too dangerous to release. For those 
detainees, it is likely that we will need a facility or facilities in 
the United States in which to house them. Pending the final decision on 
the disposition of those detainees, the Department has not contacted 
state and local officials about the possibility of transferring 
detainees to their locations.
    Question. Would you be willing to receive and consider formal 
assessments of an installation's suitability for a detainee mission 
from the commanders of installations where detainees might be sent?
    Answer. The Department of Defense is willing to receive and 
consider formal assessments of an instillation's suitability for a 
detainee mission from the commanders of installations where detainees 
may be sent. As part of the planning process, the Joint Staff conducted 
site visits to assess possible locations for a post-GTMO detention 
facility in the event that a decision was made to transfer detainees to 
the United States. Each of those visits included receipt of information 
from the appropriate installation commander. The Department of Justice 
is also conducting assessments of possible post-GTMO sites should the 
decision be made to transfer some detainees to the United States.

                             AID TO LEBANON

    Question. The fiscal year 2009 supplemental request calls for $98.4 
million in FMF for Lebanon to provide additional equipment and training 
to the Lebanese Armed Forces. A Hezbollah-led majority in parliament 
would give the terrorist organization control over the decisionmaking 
process and possibly control over the LAF.
    Why are we providing UAV's to the LAF? What assurances do we have 
that those planes--or the information they provide--will not be 
transferred to Hezbollah? Will restrictions be placed on where they can 
fly?
    Answer. The USG has provided four Raven unmanned aerial vehicle 
systems, funded by fiscal year 2007 FMF supplemental funds, to the 
Lebanese Armed Forces (LAF) to improve the LAF's border security and 
counterterrorism capabilities, important aspects of our broader effort 
to enhance the ability of Lebanese state institutions to exert 
sovereign authority throughout the national territory. The requirement 
for a tactical UAV capability was validated by two USCENTCOM 
assessments and is an integral element of the LAF's 5 year plan to 
enhance its ability to control Lebanon's borders and counter terrorist 
threats in Lebanon. The LAF continues to have an impeccable end use 
monitoring record for U.S. equipment. The Office of Defense Cooperation 
in Beirut will implement enhanced end use monitoring requirements on 
the Raven UAVs, including serial number verification twice a year. The 
USG is working with the LAF to ensure that the Ravens will be operated 
no closer than two miles from the Blue Line, the border between Lebanon 
and Israel.
                                 ______
                                 
           Questions Submitted by Senator George V. Voinovich

                BUDGET PROCESS AND SUPPLEMENTAL SPENDING

    Question. This increase in supplemental spending is outrageous when 
you considered our long-term fiscal outlook. And we must have 
entitlement reform to address our long-term fiscal problems, because 
without meaningful reform we will spend all of the governments funds on 
Medicare, social security, and interest.
    I am pleased to see President Obama's commitment to make this the 
last planned war supplemental. But my question is why during a year of 
unprecedented deficits, why are you coming back to Congress to request 
yet another emergency funding request? Shouldn't your funding compete 
in the regular order?
    Answer. After passing the fiscal year 2009 bridge funding in June 
2008, Congress acknowledged: that the amount passed would only be 
enough to cover about half the fiscal year, and that the new President 
would need to submit a supplemental for the remainder. This 
Congressional action necessitated use of a supplemental to cover war 
costs for the rest of fiscal year 2009.
    In the fiscal year 2010 budget request, the Department has included 
$130 billion for overseas contingency operations (OCO). It is the 
intent of the Administration that the Congress considers this $130 
billion request along with $533.8 billion needed for the Department's 
base budget.

        FOREIGN MILITARY FINANCING AND DEFENSE TRADE COOPERATION

    Question. International arms sales help to sustain U.S. jobs, 
reduce the cost of weapons procurement by the Department of Defense, 
help to grow small businesses, and support the national security and 
foreign policy objectives of the U.S. government. The Obama 
Administration must continue to support U.S. arms sales as an important 
foreign policy tool.
    I understand that some of our foreign military assistance funds 
have been used by the Iraqis and Afghans for the procurement of Russian 
aircraft and helicopters ill-equipped to interoperate with U.S. 
personnel and hardware in the field. Can both of you elaborate on the 
technical and policy rationale for such use of U.S. military 
assistance?
    Answer. Iraq Security Forces Fund (DOD funds) funded approximately 
40 percent and the Government of Iraq (GoI) funded approximately 60 
percent of the Mi-17 aircraft procurement. The procurement is being 
done by U.S. Army through the Foreign Military Sales (FMS) system. The 
GoI requested that the United States buy the Mi-17 aircraft on its 
behalf since the GoI had already purchased Mi-17s in 2005. The GoI 
wanted standardization of its rotary wing fleet. Military commanders 
assessed that, of the aircraft available, the Mi-17 was the ideal 
medium-lift helicopter airframe for the relevant environment and pilot 
skill level. The Department funded 40 percent of the aircraft 
procurement in order to provide an incentive for the GoI to utilize the 
FMS system to accelerate the development of the Iraqi Security Forces, 
and to ensure that major acquisitions are transparent and free of 
corruption. Congress received formal notification of the intent to 
procure the Mi-17s through the FMS system in late 2006.
    The United States has used Afghan Security Forces Funding (DOD 
funds) to purchase Mi-17 aircraft and parts for the Afghan National 
Army Air Corps (ANAAC) so that they can make an immediate contribution 
to ongoing combat operations. The Mi-17's ability to operate in a high-
altitude, high temperature, rugged environment make it uniquely suited 
for Afghanistan. Additionally, the Mi-17 is easy to operate and 
maintain by personnel with limited technical skills. The Afghans had 
been flying the Mi-17 since the early 1980s and are familiar with 
operating and maintaining this platform. The ANAAC Mi-17s are 
refurbished to ensure interoperability with U.S. and Coalition forces. 
Additionally, many NATO and regional partners operate the Mi-17 and are 
providing training and support to the ANAAC.

      DOD FUNDING FOR COUNTERNARCOTICS/SOUTHWEST BORDER ACTIVITIES

    Question. Can you provide the Committee in writing your plan for 
the use of the $350 million included in the supplemental request for 
the Department of Defense for counternarcotics and other activities on 
the U.S. border with Mexico?
    Answer. According to the request, the $350 million is ``for 
counternarcotics and other activities including assistance to other 
Federal agencies, on the United States' border with Mexico.'' The 
Secretary of Defense may transfer the $350 million to ``appropriations 
for military personnel, operation and maintenance, and procurement to 
be available for the same purposes as the appropriation or fund to 
which transferred.'' Of this $350 million, $100 million may be 
transferred ``to any other Federal appropriations accounts, with the 
concurrence of the head of the relevant Federal department or agency 
for border-related activities.''
    This $350 million provides the President flexibility should he 
decide to deploy military personnel to the Southwest border in support 
of Department of Homeland Security activities. The President has made 
clear that the current situation does not require the militarization of 
the border. The President also has made clear that he will continue to 
monitor the situation at the border carefully and will take additional 
steps if necessary to ensure the border remains secure. Should the 
President determine that a military deployment is necessary, military 
personnel would not operate in Mexico under this provision. Instead, 
consistent with the Posse Comitatus Act and DOD policy limitations, 
military personnel would provide non-law enforcement support to Border 
Patrol agents. This $350 million in contingent DOD funding is a prudent 
measure to ensure that adequate resources are available, on short 
notice, if circumstances require increasing efforts to augment civilian 
law enforcement activities along the Southwest border.
    Question. Specifically, if you have any indication from the White 
House or the Office of Management and Budget as to when decisions will 
be made as to the use of these funds, what activities the Department of 
Defense will perform, and which agencies will be supported?
    Answer. The President continues to monitor the situation at the 
border carefully and will take additional steps if necessary to ensure 
the border remains secure.
    DOD has been supporting Department of Homeland Security (DHS) 
efforts to conduct a mission analysis regarding how to secure the 
Southwest border. DOD has not finalized its planning for the type of 
support to be provided to DHS, but I would note that the support 
provided in the past by Joint Task Force North and support that was 
provided during Operation Jump Start from 2006-2008 highlight represent 
relevant examples of the kinds of support that DOD could provide: 
aviation support, intelligence analysis, civil engineering, radar 
coverage, and reconnaissance support.

                            COMMITTEE RECESS

    Chairman Inouye. With that, I thank you very much. The 
session is recessed.
    [Whereupon, at 12:20 p.m., Thursday, April 30, the hearing 
was concluded, and the committee was recessed to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
